<html>
<title> - NOMINATIONS TO INDEPENDENT AGENCIES, BOARDS AND COMMISSIONS</title>
<body><pre>[Senate Hearing 105-852]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-852
 
      NOMINATIONS TO INDEPENDENT AGENCIES, BOARDS AND COMMISSIONS

=======================================================================

                                HEARINGS

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

      THE NOMINATION OF NIKKI L. TINSLEY TO BE INSPECTOR GENERAL, 
             ENVIRONMENTAL PROTECTION AGENCY--JULY 15, 1998

    THE NOMINATIONS OF ROMULO L. DIAZ, JR. AND J. CHARLES FOX TO BE 
  ASSISTANT ADMINISTRATORS, ENVIRONMENTAL PROTECTION AGENCY--JULY 30, 
                                  1998

  THE NOMINATIONS OF TERRENCE L. BRACY TO BE A MEMBER OF THE BOARD OF 
   TRUSTEES, MORRIS K. UDALL SCHOLARSHIP AND EXCELLENCE IN NATIONAL 
    ENVIRONMENTAL POLICY FOUNDATION, AND NORINE E. NOONAN, TO BE AN 
ASSISTANT ADMINISTRATOR, ENVIRONMENTAL PROTECTION AGENCY--SEPTEMBER 10, 
                                  1998

  THE NOMINATIONS OF GRETA J. DICUS AND JEFFREY S. MERRIFIELD, TO BE 
                   COMMISSIONERS, NUCLEAR REGULATORY 
                      COMMISSION--OCTOBER 1, 1998

   THE NOMINATIONS OF WILLIAM CLIFFORD SMITH, TO BE A MEMBER OF THE 
MISSISSIPPI RIVER COMMISSION; ISADORE ROSENTHAL AND ANDREA KIDD TAYLOR, 
TO BE MEMBERS, CHEMICAL SAFETY AND HAZARD INVESTIGATION BOARD--OCTOBER 
                                7, 1998

      THE NOMINATION OF ROBERT W. PERCIASEPE, TO BE AN ASSISTANT 
     ADMINISTRATOR, ENVIRONMENTAL PROTECTION AGECY--OCTOBER 8, 1998

                          ---------------------

                    U.S. GOVERNMENT PRINTING OFFICE
52-238 cc                   WASHINGTON : 1999
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington DC 
                                 20402



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
DIRK KEMPTHORNE, Idaho               FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BARBARA BOXER, California
WAYNE ALLARD, Colorado               RON WYDEN, Oregon
JEFF SESSIONS, Alabama
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 15, 1998
                     NOMINATION OF NIKKI L. TINSLEY
                           OPENING STATEMENTS

Allard, Hon. Wayne, U.S. Senator from the State of Colorado......     4
Baucus, Hon. Max, U.S. Senator from the State of Montana.........     2
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3

                                WITNESS

Tinsley, Nikki L., nominated to be Inspector General, 
  Environmental Protection Agency................................     4
    Committee questionnaire......................................    11
    Letter from Office of Government Ethics......................    20
    Prepared statement...........................................    10
    Responses to additional questions from Senator Inhofe........    20
                                 ------                                

                             JULY 30, 1998
         NOMINATIONS OF ROMULO L. DIAZ, JR., AND J. CHARLES FOX
                           OPENING STATEMENTS

Allard, Hon. Wayne, U.S. Senator from the State of Colorado......    30
Baucus, Hon. Max, U.S. Senator from the State of Montana.........    26
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island    23
Kempthorne, Hon. Dirk, U.S. Senator from the State of Idaho......    27
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut....................................................    27

                               WITNESSES

Diaz, Romulo L., Jr., nominated to be Assistant Administrator, 
  Environmental Protection Agency................................    28
    Committee questionnaire......................................    43
    Letter from Office of Government Ethics......................    47
    Prepared statement...........................................    41
    Responses to additional questions from:
        Senator Inhofe...........................................    48
        Senator Kempthorne.......................................    49
Fox, J. Charles, nominated to be an Assistant Administrator, 
  Environmental Protection Agency................................    32
    Committee questionnaire......................................    52
    Letter from Office of Government Ethics......................    57
    Prepared statement...........................................    50
    Responses to additional questions from:
        Senator Allard...........................................    60
        Senator Inhofe...........................................    58
        Senator Kempthorne.......................................    57
Sarbanes, Hon. Paul S., U.S. Senator from the State of Maryland..    31
    Prepared statement...........................................    41
                                 ------                                

                           SEPTEMBER 10, 1998
         NOMINATIONS OF TERRENCE L. BRACY AND NORINE E. NOONAN
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........    62
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island    61
Graham, Hon. Bob, U.S. Senator from the State of Florida.........    63
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................    66

                               WITNESSES

Bracy, Terrence L., nominated to be a Member of the Board of 
  Trustees, Morris K. Udall Scholarship and Excellence in 
  National Environmental Policy Foundation.......................    65
    Committee questionnaire......................................    75
    Letters:
        Bradley, Hon. Bill, former U.S. Senator from the State of 
          New Jersey.............................................    78
        Office of Government Ethics..............................    77
    Prepared statement...........................................    73
McCain, Hon. John, U.S. Senator from the State of Arizona........    64
Noonan, Norine E., nominated to be an Assistant Administrator, 
  Environmental Protection Agency................................    68
    Committee questionnaire......................................    81
    Letter from Office of Government Ethics......................    83
    Prepared statement...........................................    78
    Responses to additional questions from Senator Baucus........    83
                                 ------                                

                            OCTOBER 1, 1998
          NOMINATIONS OF GRETA DICUS AND JEFFREY S. MERRIFIELD
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........    89
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island    85
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    90
Smith, Hon. Robert, U.S. Senator from the State of New Hampshire.    87

                               WITNESSES

Bumpers, Hon. Dale, U.S. Senator from the State of Arkansas......    86
Dicus, Greta Joy, nominated to be a Commissioner, Nuclear 
  Regulatory Commission..........................................    91
    Committee questionnaire......................................   124
    Letter from designated agency ethics official, Nuclear 
      Regulatory Commission......................................   123
    Prepared statement...........................................   117
    Responses to additional questions from Senator Inhofe........   118
Merrifield, Jeffrey S., nominated to be a Commissioner, Nuclear 
  Regulatory Commission..........................................    93
    Committee questionnaire......................................   106
    Letters:
        From designated agency ethics official, Nuclear 
          Regulatory Commission..................................   110
        Ehmig, William A., chairman of the Board of Directors, 
          Council on Radionuclides and Radiopharmaceuticals, Inc.   111
    Prepared statement...........................................   104
    Responses to additional questions from:
        Senator Inhofe...........................................   111
        Senator Lautenberg.......................................   114
                                 ------                                

                            OCTOBER 7, 1998
   NOMINATIONS OF ISADORE ROSENTHAL, ANDREA KIDD TAYLOR, AND WILLIAM 
                             CLIFFORD SMITH
                           OPENING STATEMENTS

Chafee, Hon. John H., U.S. Senator from the State of Rhode Island   137
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................   139

                               WITNESSES

Breaux, Hon. John, U.S. Senator from the State of Louisiana......   145
Hill, Paul, chairman, Chemical Safety and Hazard Investigation 
  Board..........................................................   141
Rosenthal, Isadore, nominated to be a member of the Chemical 
  Safety and Hazard Investigation Board..........................   147
    Committee questionnaire......................................   165
    Prepared statement...........................................   163
Smith, William Clifford, nominated to be a member of the 
  Mississippi River Commission...................................   142
    Committee questionnaire......................................   155
    Prepared statement...........................................   153
Taylor, Andrea Kidd, nominated to be a member of the Chemical 
  Safety and Hazard Investigation Board........................144, 146
    Committee questionnaire......................................   179
    Prepared statement...........................................   177
Tauzin, Hon. W.J. (Billy), U.S. Representative from the State of 
  Louisiana......................................................   140
                                 ------                                

                            OCTOBER 8, 1998
                    NOMINATION OF ROBERT PERCIASEPE
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........   194
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island   193
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...   194

                                WITNESS

Perciasepe, Robert W., nominated to be an Assistant 
  Administrator, Environmental Protection Agency.................   195
    Committee questionnaire......................................   201
    Prepared statement...........................................   199
    Responses to additional questions from Senator Inhofe........   209


                     NOMINATION OF NIKKI L. TINSLEY

                              ----------                              


                        WEDNESDAY, JULY 15, 1998

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:02 a.m., in 
room 406, Senate Dirksen Building, Hon. John H. Chafee 
(chairman of the committee) presiding.
    Present: Senators Chafee and Baucus.

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. The committee will come to order.
    We'll get started today. This is a hearing on the 
nomination of Nikki L. Tinsley to be Inspector General for the 
Environmental Protection Agency who was nominated on April 23 
by President Clinton to serve as Inspector General for the 
Environmental Protection Agency.
    It's my intention that the committee act expeditiously on 
her nomination. In fact, we plan to include Ms. Tinsley's 
nomination at the committee's next business meeting scheduled 
for next week.
    I want to start off by welcoming Ms. Tinsley. Do you have 
members of your family here?
    Ms. Tinsley. I do. My daughter is here, Sarah Tinsley.
    Senator Chafee. Good. Well, we welcome you here, Sarah.
    I want to note that the role of the Inspector General is an 
important one. Under the 1978 Inspector General Act, which 
outlines the missions of Inspectors General throughout the 
Federal Government, they are given the responsibility of 
conducting audits and investigations of an agency's programs 
and operations; they are to recommend changes to promote 
efficiency and prevent fraud; and to inform the agency and 
Congress of problems regarding administration of agency 
programs. The IGs, therefore, serve a key role in all agencies, 
including EPA.
    As is true for every Government effort, the work that EPA 
does must carry credibility with the public, with the Congress, 
and, indeed, with its own personnel. The Office of Inspector 
General can help make sure that such credibility is not only 
built but maintained. Working with forward-looking agency 
staff, a good IG can contribute importantly to the quality of 
the work being carried out.
    A quick glance at your resume, Ms. Tinsley, demonstrates a 
wealth of experience in the role of auditor and investigator. 
You have spent years in the field, with the General Accounting 
Office, the Minerals Management Service at the Department of 
the Interior, at the regional and now headquarters office of 
EPA. You've spent that time examining the work of various 
Federal agencies. With such experience, I'm confident you are 
capable of taking on the challenges that will face you as 
Inspector General of this important Federal agency.
    I look forward to hearing what you have to say about your 
experience and what you hope to accomplish in the position of 
Inspector General, if confirmed.
    Senator Chafee. Mr. Baucus.

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Thank you, Mr. Chairman.
    Ms. Tinsley, there's no doubt that you're qualified for the 
job. We urge you to remember that as a public servant your 
primary goal is to show credibility, integrity, and to have the 
respect--not necessarily be liked or disliked--but the respect 
of people at EPA and the country. You should know that when you 
speak, you have the taxpayer's interest in mind in enforcing 
those statutes.
    It's a tough job. It's a lonely job. In other agencies I 
know of IGs whom I respect. They take a lot of heat, from 
within the agency particularly, and some heat from without. But 
they have the highest integrity and credibility by doing what's 
right. This means reporting to the proper person when something 
is wrong. It may even mean resigning if something is wrong but 
not being properly addressed. You will be forever respected and 
admired when you follow those precepts. There are too many in 
this town who want to get along--who worry more about 
themselves and not enough about that responsibility of public 
service.
    I know you'll do so, I certainly expect you to do so, and 
you have an opportunity at the beginning to do so. Knowing the 
importance of the halo effect, that is, the importance of the 
impressions you make when you begin, it's much easier to begin 
on the right step than it is to correct a misstep. The more you 
begin by taking the right steps then the smaller the missteps. 
I'm envious of you. It's a great job.
    As an aside, I might also say there are many reasons for 
enforcing our environmental statutes; the main reason is that 
Americans want to have clean air, clean water, and no toxic 
waste. But there's another reason--many developing countries 
are struggling to cope with their environmental problems. I 
accompanied the President on his trip to China and can tell you 
that the Chinese desperately want to find the right way to 
clean up their air and water and toxic wastes. As you know, 
many EPA personnel have traveled to China, in many respects 
because the Chinese want to model their programs on the Clean 
Air Act, the Clean Water Act, other U.S. statutes.
    We're setting standards not only for Americans, but for 
many other people in the world. It is a primary benefit to the 
people of the United States and the world, but it also enables 
us to on a trade basis to develop and market environmental 
technologies. I was speaking with the Mayor of Shanghai, a 
casual conversation on a boat going down the river, and I said, 
``You must be really proud of all that you've done here in 
Shanghai.'' I was struck with his immediate response, which 
was, ``Yes, but we've got problems, and one of the problems is 
right there, the river.'' The Yangtze River was very polluted. 
And he said, ``We plan to have that cleaned up in 10 years.'' 
It's a herculean effort to clean up that river, but it can be 
done. It seems like the people are determined and very positive 
about the future.
    So there's another reason for you to enforce our statutes 
here, because we are observed by other nations. America is 
still a leader in the world because of high moral standards, 
openness and honesty, and freedom, both personal or political. 
It is important that we keep those high standards. We wish you 
good luck.
    Ms. Tinsley. Thank you.
    Senator Chafee. Senator Baucus, I think there's a lot of 
wisdom in what you said. I think first, Ms. Tinsley, 
reiterating what Senator Baucus said, you're not running in any 
popularity contest over there. You are there not to win friends 
but to do the job, and sometimes the message you convey won't 
be the most popular one.
    The other point about the model we have for those overseas, 
I likewise have seen foreign countries admire what we do. One 
additional point I might add to what Senator Baucus said. It 
isn't just that we can increase markets for our technology, but 
also what they do in their countries in a long-distance way 
affects us, whether it's the air, whether they're dumping in 
the oceans, eventually affects the environment in the United 
States, too.
    So with those heavy-weighted words, we will urge you to 
proceed with your statement. Also, I will place into the record 
at this point the statements of Senators Inhofe and Allard.
    [The prepared statements of Senators Inhofe and Allard 
follow:]

        Statement of Hon. Jim Inhofe, U.S. Senator from Oklahoma

    Thank you Mr. Chairman for calling today's confirmation hearing for 
Nikki Tinsley as Inspector General for the EPA.
    This is a very important position, and if confirmed, Ms. Tinsley, 
will be the only internal check and balance for the EPA. I met with Ms. 
Tinsley last week and I was impressed with her credentials. I believe 
if she maintains her independence from Carol Browner and the other 
political appointees at the Agency and she is willing to pursue 
unpopular investigations and be critical of the EPA then she will make 
an excellent Inspector General.
    There are many areas of the EPA which need a critical look. Some of 
those areas require vigorous Congressional Oversight, and I hope Mr. 
Chairman, as a committee, we will all become more active and aggressive 
in our oversight function. Other areas require a critical look from 
within the organization and I hope as the IG Ms. Tinsley will fulfill 
that need.
    One particular area is the question of Science within the Agency 
and how it is used. Recently 20 very brave EPA employees went public 
accusing the EPA and Carol Browner of ignoring sound science, 
falsification of documents and illegal lobbying by government 
employees. While these individual claims have been referred to the 
Justice Department, the broader issues on how the Agency uses and 
misuses Science must be investigated. The IG should conduct a broad 
investigation across the Agency on the use and misuse of science in the 
EPA's decisionmaking and regulatory process. I believe for every 
employee who went public there are probably 10 more who agree with them 
and could offer further examples. I would like to hear from Ms. Tinsley 
on how her Office would conduct such an investigation.
    In addition there are other issues which warrant the IG's 
attention.
    An additional issue raised by the employees is lobbying activities 
both conducted by EPA employees and encouraged by Agency outreach 
materials. It is illegal and improper to use appropriated funds to 
support lobbying activities and the Agency has continued to cross over 
the line in recent years. This area deserves a hard look by the IG.
    Another problem is in the enforcement arena and involves the use of 
the Agency to over file in State enforcement cases. What should be 
investigated is not only the use of over filing, but also the threat of 
over filing. Is this an appropriate use of enforcement resources?
    Another area which is very important but also more difficult is the 
possible collusion between Environmentalist suing the Agency and Agency 
employees and the effect of the resulting consent decrees. We are now 
in a position of consent decrees negotiated between the Agency and 
environmentalist organizations driving public policy and ignoring the 
will of Congress. What needs to be answered is whether there is in fact 
collusion, the effect of circumventing the normal regulatory process, 
and whether any laws are being violated.
    While there is a Congressional role for all of these 
investigations, and I intend to start pursuing them, there is also a 
very important role for the IG to play since the IG is better equipped 
to learn the facts from EPA employees.
    I would like to follow up with a few questions to Ms. Tinsley today 
on how she intends to address the science issue and I would like to 
pursue the other issues with her Office over the next few months.
                                 ______
                                 

       Statement of Hon. Wayne Allard, U.S. Senator from Colorado

    Thank you Mr. Chairman, I would like to welcome Ms. Tinsley to our 
committee and thank her for her commitment to public service. I believe 
Ms. Tinsley will do a good job as Inspector General at EPA and hope 
that she won't be shy about coming to this committee or to its 
individual members with her findings. Also, I think it will be helpful 
to EPA for a Coloradan to be overseeing their actions.
    I met with Ms. Tinsley yesterday and discussed with her the areas 
where perhaps some work by the IG would be helpful, I would like to put 
them on the record:
    (1) Environmental Justice--On February 11, 1994 President Clinton 
signed Executive Order 12898 that ordered Federal agencies to, ``make 
achieving environmental justice part of [their] mission by identifying 
and addressing, as appropriate, disproportionately high and adverse 
human health or environmental effects of its programs policies, and 
activities on minority populations and low-income populations in the 
United States''. Within this Order were certain quantifiable benchmarks 
that perhaps the IG should examine to see if they were met. Further, 
perhaps a look at whether the Order is being faithfully executed by 
Federal agencies would be appropriate.
    (2) Federal Facilities--In general, perhaps further work on whether 
Federal facilities are complying with Federal and State laws should be 
examined. As Senator Wyden and I argued during Superfund markup, there 
appears to be two standards of enforcement in this country, one for 
those who live near private polluters and a lower standard for those 
who live near Federal polluters. I believe the Federal Government is 
the largest polluter in America. Our environmental laws should be 
enforced against them.
    And finally;
    (3) I was pleased to hear that Ms. Tinsley is interested in 
examining outcomes with respect to agency actions as well as examining 
procedure. In that vein, I think she should look at EPA's policy with 
respect to state audit laws. I believe EPA has decided they do not like 
audits because it runs against their enforcement culture, even though 
in Colorado audits have proven to be beneficial to the environment. If 
Ms. Tinsley wants to examine environmental outcomes and not merely 
procedure she should examine EPA's policy in this regard.
    I finally want to encourage Ms. Tinsley to keep in mind that EPA is 
the self proclaimed ``environmental cop on the beat'' and that needs to 
be the standard they are held to when examining their actions. This is 
particularly true with respect to Federal facilities. This 
administration has a shameful record with respect to enforcement 
against Federal agencies. Ms. Browner's position against the Federal 
Facilities language Senator Wyden and I had attached to Superfund 
legislation earlier this year is nothing short of a double standard. I 
hope you use your position to point out where laws are not applied 
equally.
    Thank you Mr. Chairman.

   STATEMENT OF NIKKI L. TINSLEY, ACTING INSPECTOR GENERAL, 
                ENVIRONMENTAL PROTECTION AGENCY

    Ms. Tinsley. Thank you. Good morning, Mr. Chairman and 
Senator Baucus. It's a great honor for me to be here today as 
the President's nominee to be Inspector General of the 
Environmental Protection Agency. I would like to thank the 
committee for considering my nomination expeditiously as well 
as Administrator Browner for her expression of confidence. If 
confirmed, I would welcome the opportunity to serve the 
Administration, the Congress, and the American people to the 
best of my ability.
    The Inspector General position in a large Federal agency 
such as the Environmental Protection Agency is a very important 
and challenging one. EPA has an annual budget of over $7 
billion, with more than one half devoted to environmental 
activities that are provided by entities outside the Federal 
Government, primarily State, local, and tribal governments. The 
American people expect their tax dollars committed to 
environmental programs to be wisely spent and produce results 
which protect the environment and health of our country.
    EPA's Office of Inspector General has a very impressive 
track record which, if confirmed, I would seek to maintain and 
build upon. Over the past 25 years, the Office of Inspector 
General has reviewed more than $55 billion in grants to 
communities to build waste water treatment plants, and has 
recovered more than a billion dollars for additional plant 
construction. Audit and investigative efforts directed at EPA 
contracts have improved the agency's oversight program and 
resulted in a number of administrative and judicial actions 
against individuals and companies that have defrauded the 
taxpayer.
    With the implementation of the Government Performance and 
Results Act, EPA is developing accountability systems that link 
its activities to achieving environmental goals. In response, 
the Office of Inspector General has turned its focus to 
environmental results, evaluating the agency's air, water, 
superfund, hazardous waste, and enforcement programs to ensure 
that they are delivering the environmental and health 
protection that the Congress and the Administration intend. At 
the same time, Office of Inspector General staff continue to 
work closely with the agency to improve its fiscal 
accountability.
    This year marks the 20-year anniversary of the legislation 
establishing Inspectors General. As you mentioned, Inspectors 
General play a unique role in Government, charged by Congress 
to independently and objectively audit and investigate their 
agency's activities, to promote economy, efficiency, and 
effectiveness, to prevent and detect fraud, waste, and abuse, 
and to keep the agency head and the Congress fully informed of 
problems and deficiencies in agency activities.
    To be most successful, I believe that the Inspector General 
should operate as an agent of positive change. The Inspector 
General should work constructively with the agency and its 
partners and strive for a relationship built upon mutual 
respect and trust. At the same time, the Inspector General must 
be independent and objective, willing to make fair but tough 
calls on agency activities. Just as the Inspector General 
should maintain an open line of communication with the 
Administrator and the Deputy Administrator, the Inspector 
General must have that same open line of communication with the 
Congress. Finally, the Inspector General is under an absolute 
obligation to report to the Congress when significant problems 
are not being corrected.
    I believe Administrator Browner shares this view and I'm 
confident that, if confirmed, the Office of Inspector General 
staff and I would continue to have the good and open working 
relationship we've had in the past with both the Administrator 
and the Congress.
    My career in public service has allowed me to gain a broad 
knowledge of Government programs and operations by having 
worked in several departments including the General Accounting 
Office, the Department of Interior's Minerals Management 
Service, and the Environmental Protection Agency. My background 
as a licensed Certified Public Accountant, experienced in 
auditing Government and industry along with my experience 
serving as EPA's Deputy Inspector General and Acting Inspector 
General will help me address the challenges I will face if I'm 
confirmed.
    My experiences as an auditor and a senior manager in EPA's 
Office of Inspector General have strengthened my commitment to 
independence and objectivity. I have faced the challenges 
associated with reporting audit and investigative findings that 
were both unexpected and unpopular. I have obtained agreement 
from agency managers to address and correct problems, because 
the work that I've done and that of the organizations that I've 
represented has been factual and nonpartisan.
    Should I be confirmed, I am committed to building on the 
impressive accomplishments of EPA's Office of Inspector 
General. I look forward to working with the Administrator, this 
committee and other Members of Congress, and to the broad 
constituencies and taxpayers served by EPA, to help ensure that 
the agency delivers the maximum in environmental and health 
benefits to the public.
    Thank you. I would be happy to answer any questions that 
you might have for me.
    Senator Chafee. Ms. Tinsley, are you willing at the request 
of any duly constituted committee of the Congress to appear in 
front of it as a witness?
    Ms. Tinsley. Yes.
    Senator Chafee. Do you know of any matters which you may or 
may not have thus far disclosed which might place you in any 
conflict of interest if you were confirmed?
    Ms. Tinsley. No.
    Senator Chafee. Tell me a little bit about the Inspector 
General's staff over there. You've worked over there in that 
office for a while. How many people are there?
    Ms. Tinsley. We have 360 on our staff; about 70 criminal 
investigators, 30 people that are in support types of functions 
doing our budget and administrative work, and about 260 
auditors.
    Senator Chafee. So you are the people that will audit what 
takes place, for instance, in moneys that go out to the States 
under the Clean Water Act for waste treatment plant 
construction.
    Ms. Tinsley. That's correct.
    Senator Chafee. And you audit the superfund moneys that go 
out, too.
    Ms. Tinsley. Yes, we do.
    Senator Chafee. What area takes the most time would you 
say? I'm not pinning you down, I'm just curious from our 
experience.
    Ms. Tinsley. From an audit standpoint, we spend a great 
deal of time on the agency's financial statements because the 
agency is building an accountability system and making a lot of 
improvements to its financial statements. In addition to that, 
right now we have a concentrated effort on the agency's water 
programs. We've just completed a similar effort looking at the 
air program and whether or not it was bringing about 
environmental results. We're beginning a large effort on the 
agency's enforcement program. We receive an appropriation to 
audit the superfund, so we devote a great deal of effort to 
superfund activities. And we also spend a lot of time auditing 
the agency's contractors. In fact, we have staff that are 
devoted to large contractors, similar to the Defense Contract 
Audit Agency.
    Senator Chafee. When we read that in Region I they've 
recovered $2.5 million from some corporation for dumping of 
PCBs or whatever it might be, would that come from your 
organization? How would something like that come about? Where 
do you get involved?
    Ms. Tinsley. That depends. There are two separate 
investigative staffs. The agency has a staff of criminal 
investigators that investigate environmental crime. And our 
staff of criminal investigators investigates frauds against the 
Government. So the large recovery you're talking about may have 
come from a fine against someone who was committing an 
environmental crime.
    We've had several large recoveries from contractors 
recently whose crimes involved falsification of laboratory data 
on our superfund sites. That kind of a falsification would be 
something that our office would investigate.
    Senator Chafee. You have lawyers on your staff?
    Ms. Tinsley. We are just in the process of obtaining our 
own legal counsel. Up until recently, in fact, just the last 
month, our legal counsel has come from the agency's staff. And 
since I've been the Acting Inspector General, we've changed 
that and we're going to have our own independent staff that 
reports directly to the Inspector General.
    Senator Chafee. Senator Baucus.
    Senator Baucus. Thanks, Mr. Chairman.
    I'm a little curious about how well EPA is addressing the 
so-called Y2K problem. Are you in a position to know that?
    Ms. Tinsley. We did some audits of the Y2K problem 2 years 
ago and reported on problems in the agency. We were about a 
year ahead of other IG organizations from that standpoint. 
We're working with the agency as it implements its fixes to the 
Y2K problem. In fact, Inspectors General across Government are 
working to oversee the testing of the agencies' systems to make 
sure that there is an independent look at whether or not the 
system fixes that agencies are implementing are in fact going 
to work.
    Senator Baucus. Any assessment to date?
    Ms. Tinsley. We have concerns because of the amount of work 
that has to be done in EPA to make the systems compliant. But 
we're not alarmed at this point.
    Senator Baucus. What do you make of the President's or the 
Vice President's call for, maybe it's in the legislation, 
getting a kind of community of companies that share their Y2K 
solutions with other companies and agencies. Did you see that 
in this morning's news or yesterday?
    Ms. Tinsley. I heard that on the radio going home 
yesterday. I guess I would think that would be good.
    Senator Baucus. Yes. Should we be only concerned and not 
alarmed?
    Ms. Tinsley. About EPA or about----
    Senator Baucus. EPA.
    Ms. Tinsley. I think at this point it's not an alarming 
situation. I think we need to be concerned because there's a 
lot to be done. I think the biggest challenge in Y2K is not 
always knowing everything that has to be fixed or perhaps 
something is missing, and so that's why it's so important for 
everyone to work together on it.
    Senator Baucus. Is EPA considering the same experiment that 
the New York Stock Exchange is considering? As you may know, on 
December 29, 1998, they are going to do a mock conversion, 
trades, everything, to see if their setup works to find any 
bugs in the setup. I'm curious whether EPA is considering a 
similar experiment.
    Ms. Tinsley. That's the kind of testing that I think almost 
all agencies are doing of their own systems. There are a couple 
of kinds, but one test is to actually simulate those dates and 
just see what happens. So, yes.
    Senator Baucus. Good. My concern, frankly, is that we're 
kind of dallying in lots of agencies, people, companies, let 
alone other foreign companies, other countries. We're in a 
global economy. The Thailand stock market, look at what it's 
done to the world. It affects the whole world. It's a chain 
reaction. I just urge you and your colleagues to be maybe even 
alarmed. Really make sure that alarm turns only to concern as 
we approach the date, not vice versa.
    Senator Chafee. If you think EPA has got worries in this 
area, how would you like to be head of the Social Security 
Administration.
    Senator Baucus. Yes, I know.
    Senator Chafee. But I think that's a wise suggestion. I'm 
curious what's going to happen with the New York Stock 
Exchange.
    Senator Baucus. It will be interesting, won't it?
    Senator Chafee. Maybe our dividends will all be tripled or 
something.
    [Laughter.]
    Senator Chafee. How does the relationship work between the 
Administrator and the Inspector General? Are there weekly staff 
meetings where you sit in on matters, or how close contact do 
you have with the Administrator?
    Ms. Tinsley. I sit in on the Administrator's weekly staff 
meeting and I also sit in on the Deputy Administrator's weekly 
staff meeting.
    Senator Chafee. I see. I just want to check to see if any 
other Senators might possibly be on the horizon and want to ask 
you a question or two. We'll just wait a few minutes.
    During this brief pause here, Ms. Tinsley, I've got here a 
Selected Office of Inspector General Accomplishments, October 
to December 1997, here's one from January to March 1998, and 
here's one April to June 1998. I guess you put these things out 
quarterly, do you?
    Ms. Tinsley. Yes, we do.
    Senator Chafee. It's rather interesting, the variation in 
your activities. You issued a report on Region 10's waste water 
permit programs, ``Needs improvement to protect water quality 
in Alaska and Idaho.'' Next one, ``National Rural Water 
Association used Federal funds to lobby and award contracts 
noncompetitively.'' Are you familiar with these?
    Ms. Tinsley. I am.
    Senator Chafee. Why don't you just tell us about the second 
one, ``National Rural Water Association used Federal funds to 
lobby. . . .'' That sounds like something that is improper. 
Could you tell us a bit about that?
    Ms. Tinsley. It is improper. Briefly, we looked at the 
national office and found that they were using some of their 
funds for an extensive lobbying agenda, both EPA funds and 
actually Department of Agriculture funds. Another item of 
concern in that report is that there was an EPA employee 
detailed to National Rural Water Association and that person 
was actually engaged in lobbying activities as well, which is 
also inappropriate.
    Senator Chafee. And then I guess you issued reports. ``EPA 
Brownfields' Initiative Can Be Strengthened,'' and then you 
issued a report on that apparently.
    Ms. Tinsley. We found that some of the activities in 
Brownfields, at five selected sites, were not helping cities 
move along toward cleaning up their sites expeditiously and so 
we made some recommendations that the agency agreed to 
implement that would focus more on the cleanup side and getting 
the communities ready to clean up, as opposed to some of the 
other activities that they were doing with those funds.
    Senator Chafee. I must confess I didn't know a great deal 
about this job. But it sounds like a job that a self-starter 
can find a lot to do. On the other hand, if you want to do 
nothing, I suppose no one is going to urge you to rush out and 
inspect them and audit them. So it requires, as I say, a self-
starter to run the place. I presume you're anxious to be that 
self-starter?
    Ms. Tinsley. Yes, I am. Actually, we're having some 
successes in working with the agency on some of its 
environmental programs. With respect to the water audit effort 
that I spoke to you about, the Assistant Administrator that 
runs the water program has been very receptive to working with 
us to help him identify segments of the program that aren't 
working so that he can take action to correct them. That's an 
exciting thing for an auditor because, as you mentioned, most 
times people are not anxious to have your help.
    Senator Chafee. No. I suspect they see you coming and it's 
like receiving a letter from the IRS; it makes people nervous.
    Where do you get your tips from? This web site that you've 
got, the internet, does information come through that 
sometimes?
    Ms. Tinsley. Occasionally. We have our internet site set up 
primarily to provide the public with information about our 
activities. But as part of our web site, people can report on 
our Hot Line just as they can report to us on the Hot Line by 
telephone.
    Senator Chafee. Ms. Tinsley, I think the Senator who wanted 
to ask you some questions isn't available. He might submit a 
question in writing to you and we would ask you to respond.
    That completes it. We'll try and move right along with 
this. As I mentioned earlier, we're going to have a committee 
meeting on a variety of things and hopefully we can bring this 
up next week. If all goes well, we can get this nomination to 
the floor before we go out for the August recess. Certainly, 
that's my objective barring some objections from members when 
we meet with the full committee.
    Ms. Tinsley. Thank you.
    Senator Chafee. Thank you.
    That completes our hearing.
    [Whereupon, at 11:33 a.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
    Statement of Nikki L. Tinsley, Nominated as Inspector General, 
                    Environmental Protection Agency
    Good morning, Mr. Chairman and members of the committee.
    It is a great honor to be here today as the President's nominee to 
be Inspector General of the Environmental Protection Agency. I would 
like to thank the committee for considering my nomination expeditiously 
as well as Administrator Browner for her expression of confidence. If 
confirmed, I would welcome this opportunity to serve the 
Administration, the Congress, and the American people to the best of my 
ability.
    The Inspector General position in a large Federal agency such as 
the Environmental Protection Agency is a very important and challenging 
one. EPA has an annual budget of over $7 billion, with more than one 
half devoted to environmental activities provided by entities outside 
the Federal Government; primarily State, local, and Tribal governments. 
The American people expect their tax dollars committed to environmental 
programs to be wisely spent and produce results which protect the 
environment and health of our country.
    EPA's Office of Inspector General has an impressive track record 
which, if confirmed, I will seek to maintain and build upon. Over the 
past 25 years, it has reviewed $55 billion in grants to communities to 
build waste water treatment plants, and recovered more than a billion 
dollars for additional plant construction. Audit and investigative 
efforts directed at EPA contracts have improved the Agency's oversight 
program and resulted in a number of administrative and judicial actions 
against individuals and companies which have defrauded the taxpayer. 
With the implementation of the Government Performance and Results Act, 
EPA is developing accountability systems that link its activities to 
achieving environmental goals. In response, the Office of Inspector 
General has turned its focus to environmental results, evaluating the 
Agency's air, water, superfund, hazardous waste, and enforcement 
programs to ensure that they are delivering the environmental and 
health protection that the Congress and the Administration intend. At 
the same time, Office of Inspector General staff continue to work 
closely with the Agency to improve its fiscal accountability.
    This year marks the 20-year anniversary of the legislation 
establishing Inspectors General. Inspectors General play a unique role 
in government: charged by Congress to independently and objectively 
audit and investigate their agency's activities; to promote economy, 
efficiency, and effectiveness; to prevent and detect fraud, waste, and 
abuse; and to keep the Agency head and the Congress fully informed of 
problems and deficiencies in Agency activities.
    To be most successful, I believe an Inspector General should serve 
as a force for positive change. The Inspector General should work 
constructively with the Agency and its partners and strive for a 
relationship built upon mutual respect and trust. At the same time, the 
Inspector General must be independent and objective, willing to make 
fair-but-tough, calls on Agency activities. Just as the Inspector 
General should maintain an open line of communication with the 
Administrator and Deputy Administrator; the Inspector General must have 
that same open line of communication with the Congress. Finally, the 
Inspector General is under an absolute obligation to report to the 
Congress when significant problems are not being corrected. I believe 
Administrator Browner shares this view and am confident that, if 
confirmed, the Office of Inspector General staff and I would continue 
to have the good and open working relationship we have had in the past 
with both the Administrator and the Congress.
    My career in public service has allowed me to gain a broad 
knowledge of government programs and operations by having worked in 
several different departments including the U.S. General Accounting 
Office, the Department of the Interior's Minerals Management Service, 
and the Environmental Protection Agency. My background, as a licensed 
Certified Public Accountant, experienced in auditing government and 
industry along with my experience serving as EPA's Deputy Inspector 
General and Acting Inspector General will help me to address the 
challenges I will face if confirmed.
    My experiences as an auditor and as a senior manager in EPA's 
Office of Inspector General have strengthened my commitment to the 
principles of independence and objectivity. I have faced the challenges 
associated with reporting audit and investigative findings that were 
unexpected and unpopular. And, I have obtained agreement from Agency 
managers to address and correct problems, because my work and that of 
the organizations I have represented has been factual and nonpartisan.
    Should I be confirmed, I am committed to building on the impressive 
accomplishments of EPA's Office of Inspector General staff. I look 
forward to working with the Administrator, this committee and other 
Members of Congress, and the broad constituencies and taxpayers served 
by EPA, to help ensure that the Agency delivers the maximum in 
environmental and health benefits to the public. Thank you for this 
opportunity to address you. I will be happy to respond to any questions 
you and other members of the committee have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                


  Responses by Nikki L. Tinsley to Additional Questions from Senator 
                                 Inhofe

    Recently 20 very brave EPA employees went public accusing the EPA 
and Carol Browner of ignoring sound science, falsifications of 
documents and illegal lobbying by government employees. While these 
individual claims have been referred to the Justice Department, the 
broader issues on how the Agency uses and misuses Science must be 
investigated. This would require a broad investigation across the 
Agency on the use and misuse of science in the EPA's decisionmaking and 
regulatory process. I believe for every employee who went public there 
are probably 10 more who agree with them and could offer further 
examples.
    Question 1. Given that the Department of Justice is reviewing the 
individual employee issues raised regarding the misuse of science in 
the EPA, do you consider it important for the IG to determine how 
widespread the problem might be at the EPA?
    Response. Sound scientific data and good science are critical for 
EPA to make correct environmental decisions. At EPA each employee is 
responsible for reporting any indication of fraud, waste, or 
mismanagement. To facilitate reporting problems, the Office of 
Inspector General (OIG) has established several lines of communication 
for EPA employees and persons and organizations outside EPA including: 
a 24-hour hotline, Internet electronic mail through the OIG Home Page, 
audit suggestions from EPA program and financial managers, regular 
correspondence and telephone conversations with the public, and 
referrals from other government organizations. OIG staff take 
allegations seriously and evaluate them for investigations and/or 
audits. In addition, I personally receive suggestions for potential 
investigations from EPA employees and management, including Assistant 
Administrators and the Chief of Staff. OIG initiated work on issues 
raised by the EPA employees you refer to when it became aware of the 
issues through our existing communication channels.
    Question 2. How would you go about investigating the problem? Would 
it be important to examine the issue from the following perspectives 
and are there any other groups who should be considered?
    <bullet> Agency Lab employees, scientists, and researchers
    <bullet> Program Office scientists and researchers
    <bullet> Contractors who perform research or provide analysis
    <bullet> LCareer managers who provide advice to political 
appointees (for example: Office Directors, Division Directors, and 
Branch Chiefs)
    Response. The OIG has been actively involved in reviewing EPA 
science particularly as it relates to laboratory data quality. We 
reported in 1997 that nine Superfund sites located at Department of 
Defense and Department of Energy facilities did not have sufficient 
procedures in place to ensure that data was of known and acceptable 
quality. We will conduct a follow-up review in fiscal 1999 to verify 
that corrective actions have been taken. Another series of reviews 
found that even EPA did not have an adequate quality assurance program 
to confirm waste contamination at Superfund sites. Also, we are also 
evaluating the quality of science in our ongoing work dealing with 
water quality standards and monitoring.
    Question 3. The following are additional issues regarding the 
management of the Agency that are of concern to me. Please comment on 
whether or not you find them appropriate to consider for an 
investigation. Also, please identify any additional issues of concern 
to you that you would concentrate on as the new Inspector General.
    <bullet> An additional issue raised by the employees is lobbying 
activities both conducted by EPA employees and encouraged by Agency 
outreach materials. It is illegal and improper to use appropriated 
funds to support lobbying activities and the Agency has continued to 
cross over the line in recent years. This area deserves a hard look by 
the IG.
    <bullet> Another problem is in the enforcement arena and involves 
the use of the Agency to overfile in State enforcement cases. What 
should be investigated is not only the use of overfiling but also the 
threat of overfiling. Is this an appropriate use of enforcement 
resources?
    <bullet> Another area which is very important but also more 
difficult is the possible collusion between Environmentalist suing the 
Agency and Agency employees and the effect of the resulting consent 
decrees. We are now in a position of consent decrees negotiated between 
the Agency and environmentalist organizations driving public policy and 
ignoring the will of Congress. What needs to be answered is whether 
there is in fact collusion, the effect of circumventing the normal 
regulatory process, and whether any laws are being violated.
    Response. The OIG reported in early 1998 that the National Rural 
Water Association (NRWA) improperly used Federal assistance agreements 
and contracts to support an aggressive lobbying agenda. We also 
reported that an EPA employee was improperly involved in NRWA's 
lobbying activities. We have expanded our lobbying audit work and are 
now evaluating whether this type of improper use of Federal funds 
occurred at six State Rural Water Associations.
    As I testified before the House Commerce Subcommittee on Oversight 
and Investigations on June 23, 1998, I support the idea of partnership 
between EPA, the States, local agencies and industry to work together 
to solve environmental problems. Overfiling is an enforcement tool that 
can be used when other means have not been effective in bringing 
violators into compliance. My understanding is that overfiling is used 
infrequently. OIG Clean Air Act enforcement audits during the past 2 
years have identified significant weaknesses in the reporting of timely 
and reliable information on violators. We will certainly be sensitive 
to your concerns in this area as we continue to conduct audits of EPA's 
enforcement activities.
    One aspect of our enforcement issue area plan, which is a multi-
year strategy for audits of EPA's enforcement activities, deals with 
compliance with consent decrees. As we further develop this area, we 
will be alert to any indications of improper involvement of 
environmental groups in the issuance of consent decrees.
    I believe its critical that OIG work address environmental 
outcomes. If confirmed as Inspector General, I would continue to focus 
OIG work on the success of environmental programs and how they could be 
improved to provide the maximum benefit to the public.


         NOMINATIONS OF ROMULO L. DIAZ, JR., AND J. CHARLES FOX

                              ----------                              


                        THURSDAY, JULY 30, 1998

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                     Washington, DC
    The committee met, pursuant to notice, at 4:10 p.m. in room 
406, Senate Dirksen Building, Hon. John H. Chafee (chairman of 
the committee) presiding.
    Present: Senators Chafee, Allard, and Baucus.

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. This is a meeting of the Senate Committee 
on Environment and Public Works to have a hearing on Romulo 
Diaz who has been nominated by the President to be the 
Assistant Administrator for Administration Resources Management 
at EPA and J. Charles Fox, nominated by the President to be 
Assistant Administrator for Water in EPA.
    I know that Senator Sarbanes wishes to be here to introduce 
Mr. Fox and what we will do is we'll proceed first with Mr. 
Diaz and then when Senator Sarbanes appears, we will let him 
proceed with Mr. Fox.
    The purpose of the hearing today is to consider two 
nominations: Mr. Romulo Diaz to be Assistant Administrator for 
Administration Resources Management and that of Mr. J. Charles 
Fox to be Assistant Administrator for Water.
    It's my understanding that each of the nominees has members 
of their families here. Mr. Diaz, if you'd like to introduce 
your parents who are here?
    Mr. Diaz. Thank you, Mr. Chairman.
    To my left are my mom and dad, Irene and Romulo Diaz from 
Nederland, TX.
    Senator Chafee. We welcome you here. You're long distance 
travelers. Very glad you're here.
    I'm not sure I know where Nederland, TX is.
    Mr. Diaz. It's the heart of the Golden Triangle, Mr. 
Chairman, between Beaumont, Port Arthur, and Orange, TX.
    Senator Chafee. That locates us exactly, I'll rush to my 
atlas.
    [Laughter.]
    Senator Chafee. Mr. Fox, I understand your wife and parents 
are here?
    Mr. Fox. Yes, Mr. Chairman. My wife, Ritu Fox; my father, 
Richard Fox; and my mother, Nancy Fox.
    Senator Chafee. We welcome both of you here. It's nice to 
have parents here. We see wives and children frequently but not 
so often do we see parents and that's a very, very nice event 
when the parents are here.
    The President nominated these two gentlemen on July 17; we 
received the paperwork. It's our intention to act quickly on 
these nominations and we'll complete the hearing today. If all 
goes well, we would get them to the floor as swiftly as 
possible and they would be considered as soon as we return from 
the August recess very early in September.
    I'm pleased to report that both of the nominees have 
impressive and diverse backgrounds well suited to the positions 
for which they are nominated. Mr. Diaz has served as Director 
of the Office of Regulatory Coordination at the Department of 
Energy the last 3 years. In that position, he oversaw the 
Department's regulatory reinvention efforts.
    Prior to that in 1995, he served in a number of positions 
within the Energy Department, including Deputy Chief of Staff 
and Counsel to the Secretary and Deputy Assistant Secretary of 
International Affairs. Mr. Diaz has represented the United 
States on a North Atlantic Treaty Organization committee 
dealing with energy security for the Alliance.
    Mr. Fox has an impressive background also. Since 1997, he 
has served as Associate Administrator of EPA. In his current 
position, he directs the Office of Reinvention, overseeing a 
number of Government reform and reinvention activities.
    From 1993 to 1995, he was Assistant Secretary at the 
Maryland Department of Environment. From 1993 to 1995, he was 
Chief of Staff in EPA's Office of Water, experience which will 
be invaluable if he is confirmed. Prior to that time, he served 
in a number of positions in EPA.
    For the EPA to perform effectively, it needs to have 
talented decisionmakers, not only to carry out its core mission 
of protecting environmental resources, but also to ensure that 
the agency runs effectively in carrying out its mission.
    If confirmed as Assistant Administrator for Water, Mr. Fox 
will be responsible for keeping the Nation's waters clean for 
fishing and swimming, and safe for drinking. The Assistant 
Administrator for Water oversees water and drinking water 
criteria and the national pollution discharge elimination 
system which has the permits for the programs under the Clean 
Water Act.
    This position is a big one. Listen to these statistics. He 
will manage a work force of 2,680 employees and a budget of 
$2.6 billion. Even for somebody from Washington, $2.6 billion 
is a lot of money.
    If confirmed as Assistant Administrator for Administration 
Resources Management, Mr. Fox will help manage the Agency as 
the liaison between EPA and the Office of Management and 
Budget, OMB, the Office of Personnel Management, the General 
Services Administration and the General Accounting Office. He 
would also be responsible for agencywide resource management 
facilities, services, human resources, audits, administrative 
services and procurement. In short, he is responsible for 
ensuring the bulk of EPA's budget which is spent to procure 
services from the private sector and to make sure that these 
are spent wisely.
    I thought there was a mistake here. I was giving you all 
those duties, Mr. Fox, and you were sitting there wondering 
what's going on. Those are Mr. Diaz's duties.
    Mr. Fox. I was starting to get nervous.
    Senator Chafee. Yes, I thought you might. I was thinking as 
I read this over, this doesn't sound right. So everything I 
said about your duties apply to you, Mr. Diaz.
    [Laughter.]
    Senator Chafee. And I apologize.
    Both positions have a lot of responsibility.
    [Laughter.]
    Senator Chafee. And we look forward to hearing what the 
witnesses have to say. After we hear the statements of Senator 
Baucus and other committee members, we'll start with Mr. Diaz. 
As I mentioned, should Senator Sarbanes come in, we'll go 
directly to him.
    [The prepared statement of Senator Chafee follows:]
Statement of Hon. John H. Chafee, U.S. Senator from the State of Rhode 
                                 Island
    Good afternoon. The purpose of today's hearing is to consider two 
nominations within the Environmental Protection Agency. The first 
nomination is that of Mr. Romulo L. Diaz, Jr., to be the Assistant 
Administrator for Administration and Resources Management. The second 
nomination is that of Mr. J. Charles Fox to be the Assistant 
Administrator for Water.
    I am delighted to welcome everyone, particularly our two nominees, 
Mr. Diaz and Mr. Fox, and I would like to acknowledge the members of 
their families who are here. Mr. Diaz is accompanied by his parents, 
Romulo Sr., and Irene Diaz, who have come all the way from Nederland, 
Texas. Mr. Fox is accompanied by his wife, Ritu Sharma and his parents, 
Richard and Nancy Fox.
    The President nominated Mr. Diaz and Mr. Fox on July 17, and we 
have received their paperwork in the interim. It is the committee's 
intent to act on these nominations at the earliest opportunity after 
the Senate returns from the August recess.
    I am pleased to report that both of the nominees have impressive 
and diverse backgrounds and are well-suited to the positions before 
them. Romulo (Romy) Diaz has served as the Director of the Office of 
Regulatory Coordination at the U.S. Department of Energy since 1995. In 
this position, Mr. Diaz has overseen the Department's regulatory 
reinvention efforts. Prior to 1995, he has served in a number of 
positions within the Energy Department, including Deputy Chief of Staff 
and Counselor to the Secretary and Deputy Assistant Secretary of 
International Affairs. He has represented the United States on a North 
Atlantic Treaty Organization committee dealing with energy security for 
the Alliance.
    Charles (Chuck) Fox also has an impressive background. Since 1997, 
he has served the Associate Administrator of the Environmental 
Protection Agency. In his current position, he directs the Office of 
Reinvention, overseeing a number of government reform and reinvention 
activities. From 1993 to 1995, Mr. Fox was the Assistant Secretary at 
the Maryland Department of the Environment. From 1993 until 1995, he 
was the Chief of Staff in EPA's Office of Water, experience which will 
be invaluable if confirmed. Prior to that time, he served in a number 
of positions in EPA and in the non profit sector.
    For the EPA to perform effectively, it needs to have talented 
decisionmakers not only to carry out its core mission of protecting 
environmental resources, but also to ensure that the agency runs 
efficiently in carrying out that mission. If confirmed as Assistant 
Administrator for Water, Mr. Fox will be responsible for keeping the 
Nation's waters clean for fishing and swimming, and safe for drinking. 
The Assistant Administrator for Water oversees water and drinking water 
criteria and the National Pollution Discharge Elimination System 
permits program under the Clean Water Act, and manages a workforce of 
2,680 employees and a budget of 2.6 billion dollars.
    If confirmed as Assistant Administrator for Administration and 
Resources Management, Mr. Diaz would help manage the Agency as the 
liaison between EPA and the Office of Management and Budget, the Office 
of Personnel Management, the General Services Administration, and the 
General Accounting Office. He also would be responsible for agency-wide 
resources management, facilities services, human resources, audits, 
administrative services, and procurement. In short, he is responsible 
for ensuring that the bulk of EPA's budget, which is spent to procure 
services from the private sector, is spent wisely.
    Both positions pose difficult challenges, but I am confident that 
both Mr. Diaz and Mr. Fox are prepared to face the tasks at hand. I 
look forward to hearing what today's witnesses have to say about their 
backgrounds and what they hope to accomplish, if confirmed.
    After we hear the statements of Senator Baucus and other committee 
members, we will start with Mr. Diaz, and after members have an 
opportunity to question him, move on to Mr. Fox.

    Senator Baucus.

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Thank you, Mr. Chairman.
    Along with you, I welcome both the nominees and as you 
have, I've also spoken with them individually and I look 
forward to a very successful tenure with both of them.
    I also am pleased, apparently Mr. Diaz, your parents, who 
are here from Texas, have already been introduced and I'd like 
to acknowledge them myself. I know how proud they are.
     Senator Chafee. I've done everything but switch the 
parents here today.
    [Laughter.]
    Senator Baucus. Well, I know your parents, both sides, are 
very proud of you and have the highest expectations for you, 
and you are very proud of them as well. I wish you all well.
    I met with Mr. Diaz about how to motivate agencies and 
empower people to work harder and to like their job and feel 
that their service and efforts are being rewarded for the 
country. We had a very good conversation. I very much expect 
Mr. Diaz to do a very good job along those lines.
    Mr. Fox, too, and I had a similar conversation and I expect 
Mr. Fox to do just as well.
    I'm reminded of our efforts in past years with the Clean 
Water Act, and more recently with the Safe Drinking Water Act. 
I remind you, Mr. Fox that we were able to pass I think quite 
good legislation because everybody cooperated--the 
municipalities, the environmental groups, the Republicans, 
Democrats, Administration. We just didn't grandstand, we rolled 
up our sleeves and got the job done without any fanfare. As a 
consequence, the Congress passed pretty good legislation 
attempting to kind of correct some of the mistakes, if you 
will, that we made in the 1988 Safe Drinking Water Act. I think 
the 1988 Act put an unnecessary burden on small communities--
standards and monitoring requirements and so forth.
    As you well know, we've made great strides to clean up our 
water in the last 25 years. You're a little younger than I, but 
I can remember when the Potomac just stank. I'm sure you can 
remember too, Mr. Chairman. While driving along the Potomac 
River, you noticed that it smelled at times, and you wouldn't 
dare get caught falling overboard a boat or swimming in the 
Potomac. It was just so bad. In those years too, we all know 
about the Cuyahoga River that caught on fire.
    So we can be proud of ourselves. The statutes we have 
passed in the last 25-30 years have worked. Our air is much 
cleaner now; our water is much cleaner. But we also know that 
the loading into our waterways is also increasing. We're 
dumping a lot more stuff into the water, whether it's from 
factories or municipalities or particularly so-called nonpoint 
runoff. So even though we've done well, we can never rest on 
our laurels and we have to work very hard just to keep what we 
have, and also very hard to improve upon what we have.
    You will find this committee ready, willing and able to 
join with you. Our chairman is very, very hardworking; he's 
very reasonable; he's very wise; and he's a good catalyst.
    Again, I look forward to working with both of you and with 
your people at the agency.
    Let me just finish by saying I invited you both to come to 
Montana, you both accepted and I look forward to your visit to 
our State.
    Thank you.
    Senator Chafee. Thank you, Senator. I have the statements 
of Senators Kempthorne and Lieberman to put into the record.
    [The prepared statements of Senators Kempthorne and 
Lieberman follow:]
Statement of Hon. Dirk Kempthorne, U.S. Senator from the State of Idaho
    Mr. Chairman, I thank you for the opportunity to question the 
Administration's nominees for the positions of Assistant Administrator 
for Administration and Resources Management and Assistant Administrator 
for Water.
    As a Senator from the great State of Idaho, I am very interested in 
Region 10 of the Environmental Protection Agency. I am pleased to have 
this opportunity to ask Mr. Diaz about the future priorities of Region 
10, and how those priorities will be reflected in relative funding 
levels for environmental programs important to Idaho, such as water 
quality, air quality and Superfund.
    As the Chairman of the Subcommittee on Drinking Water, Fisheries 
and Wildlife and sponsor of the Safe Drinking Water Act Amendments of 
1996, I have a particular interest in the nomination of Mr. Fox. August 
6 will mark 2 years since the Safe Drinking Water Act was signed into 
law by the President. At the second anniversary of this law, it is 
appropriate to ask those charged with its implementation about their 
vision and priorities. I would like to hear Mr. Fox's views on how the 
implementation of the Act is progressing, and how EPA, under his 
guidance, plans to carry out the statutory guidelines of the Act.
    Water is such an important issue to Idaho. We are now engaged in 
the process of answering the challenge to establish total maximum daily 
loads for pollutants in water-quality impaired water bodies. The 
Environmental Protection Agency's Assistant Administrator for Water 
should expect to work very closely with those in Idaho who are engaged 
in the task of protecting Idaho's water through targeted, flexible, 
local and State-driven initiatives.
    Again, thank you, Mr. Chairman. I look forward to hearing the 
testimony of both nominees.
                                 ______
                                 
 Statement of Hon. Joseph I. Lieberman, U.S. Senator from the State of 
                              Connecticut
    Thank you, Mr. Chairman, for holding this hearing to consider the 
nomination of Chuck Fox for Assistant Administrator in the Office of 
Water at EPA. Americans agree that clean water must be one of our 
highest environmental priorities. The next Assistant Administrator for 
Water at EPA will be responsible for ensuring that we have clean 
drinking water, for improving the water quality in our rivers and 
streams, and for protecting our critical wetland resources. Chuck Fox 
is highly qualified to hold this important job, and I strongly support 
his nomination.
    Mr. Fox' current and past experience--both at EPA and outside the 
Agency--have prepared him well for new responsibilities as EPA's 
Assistant Administrator for Water. Currently, Mr. Fox oversees EPA's 
Office of Reinvention. In this capacity, he directs a number of 
regulatory reinvention initiatives to protect our environment through 
the implementation of cleaner, cheaper and smarter strategies. 
Regulatory reinvention efforts such as Project XL and the Common Sense 
Initiative represent an important new way of doing business at EPA. 
They signal a commitment to innovative approaches to environmental 
protection that supplement more conventional regulatory methods.
    Chuck Fox also brings with him valuable State experience. He was 
the Assistant Secretary and Chief Operating Officer of the Maryland 
Department of the Environment. Prior to joining Maryland State 
government, he served as the Chief of Staff at EPA's Office of Water 
and as Special Assistant to the EPA Administrator. In addition, he has 
worked with a number of non-profit environmental organizations on a 
wide range of environmental issues.
    I have known Chuck Fox for many years, have worked with him, and 
have followed his accomplishments. His nomination to be EPA's new 
Assistant Administrator for Water deserves the support of this 
committee.

    Senator Chafee. Mr. Diaz, why don't you proceed with your 
statement?

STATEMENT OF ROMULO L. DIAZ, JR., NOMINATED BY THE PRESIDENT TO 
  BE ASSISTANT ADMINISTRATOR FOR ADMINISTRATION AND RESOURCES 
          MANAGEMENT, ENVIRONMENTAL PROTECTION AGENCY

    Mr. Diaz. Thank you, Mr. Chairman and Senator Baucus.
    It is a great honor and privilege to be here today as the 
nominee of President Clinton and Administrator Browner to be 
the Environmental Protection Agency's Assistant Administrator 
for Administration and Resources Management. I'm very proud to 
have been asked to serve in the Clinton Administration with 
Administrator Carol Browner, both of whom are working to 
enhance the level of public health and environmental protection 
for all Americans. I look forward to working closely with you 
and the Congress to continue to improve management and 
performance at EPA.
    I want to speak briefly about my background and discuss 
where I would hope to bring new ideas and leadership to the 
position if confirmed.
    I come to you with over 25 years of experience and public 
service, both as an attorney and a manager of domestic and 
international strategic programs for the Department of Energy 
and related energy agencies. In my current position as Director 
of the Office of Regulatory Coordination, I have played a 
leadership role in the reinvention efforts that resulted in the 
elimination of streamlining of more than 75 percent of the 
Department of Energy regulations, more than 50 percent of its 
internal directives and 20 percent of its paperwork burden. 
These are efforts that are enabling the Department to realize 
savings in excess of $100 million over 5 years.
    Throughout my career, I have pursued public service with a 
passion and have dedicated myself to making the Federal 
Government work better and more efficiently to meet the needs 
of its customers and stakeholders. I believe I have done this 
while always being mindful of the expectations of the American 
public. This has required a dedication to measuring performance 
based on results rather than process and if given the 
opportunity, I'd like to bring forward these experiences and 
perspectives to the leadership team at EPA and to continue to 
sharpen EPA's focus on efficient management services.
    I would like to summarize the values and principles that 
will guide me if confirmed as EPA's Assistant Administrator for 
Administration and Resources Management. They include integrity 
and fiscal responsibility, openness and willingness to listen, 
fairness and accountability, proactivity and the spirit of 
partnership.
    EPA's Office of Administration and Resources Management 
provides leadership to ensure sound management of 
administrative services throughout that agency. The office has 
a broad range of functions including management of human 
resources, information technology, contracts and grants 
management, employee health safety and security and facilities 
construction.
    In managing these functions, I would like to concentrate on 
three priority areas. My first priority is to manage 
information effectively. This includes ensuring that EPA's 
information systems are Year 2000 compliant and that the 
environmental data we provide to the public is of the highest 
quality.
    I am aware that Congress has concerns about the Federal 
response to the Year 2000 computer date conversion issue. In 
addition, correcting this problem is one of Administrator 
Browner's top priorities. In my discussions with senior EPA 
staff, I have been assured that EPA's mission critical 
information systems and technology infrastructure will be Y2K 
compliant and verified through operational trials before the 
turn of the century.
    EPA has placed an increased emphasis on using the tools of 
government to enhance information available to the public about 
our drinking water, our air, our homes and the environment in 
our communities. Improving access to and the quality of 
environmental information allows society at all levels to make 
better decisions.
    My second priority is to ensure a high level of integrity 
and accountability in the management of our financial 
resources. About two-thirds of the EPA's budget is obligated 
each year as contracts or grants, so these are very important 
areas to manage and to manage well.
    In this regard, I have been informed that the agency has 
made substantial progress, so much so that the Inspector 
General has removed or agreed to remove contracts management as 
a material weakness reported to the President and to the 
Congress. Furthermore, the grants closeout backlog has been 
reduced by 80 percent. However, more work needs to be done and 
if confirmed, I will focus my efforts on strengthening 
oversight and making sure that we get what we pay for when we 
enter into a contract or grant at the EPA.
    Finally, my third priority reflects my firm belief that we 
need to invest in human resources to ensure that we have the 
science and technology skills needed for the future and that 
our work force reflects the talents and perspectives of a 
growing multicultural society.
    Building on my previous experiences, I intend to ensure 
that EPA recognizes the richness and diversity of its work 
force so that future scientists and engineers see the agency as 
an employer of choice.
    In summary, effectively discharging the responsibilities of 
the Office of Administration of Resources Management is 
critical to meeting EPA's mission. I believe that it is in the 
best interest of EPA and the public to integrate our mission 
goals and effective management. If confirmed, I pledge to bring 
the full weight of my experience and abilities in order to 
further that integration.
    Let me close by expressing my appreciation to the committee 
for your recognition of and support for the agency's vital 
mission and the opportunity to appear here today. I'm pleased 
that my parents are here from the heart of the Golden Triangle 
and would like to thank you for the courtesies extended to 
them.
    I request that my prepared statement be entered in the 
record in its entirety and at this time, I would be pleased to 
take any questions the members of the committee might have.
    Senator Chafee. Thank you, Mr. Diaz.
    Senator Allard, a valuable member of this committee, has I 
understand a conflict and as frequently occurs, has to be two 
places at once. Senator, if you want to make a statement or 
even ask questions now, proceed.

 OPENING STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR FROM THE 
                       STATE OF COLORADO

    Senator Allard. Thank you, Mr. Chairman.
    I would like to have an opportunity to make a statement. I 
appreciate the indulgence of both you and the minority members 
in this particular situation.
    In the past I've raised concerns with the EPA nominees 
because of that Agency's action with respect to Colorado's 
Environmental Self Evaluation law and both these gentlemen have 
been into my office and visited with me personally. I think 
that they are qualified.
    I've had many conversations with the Assistant 
Administrator for Compliance at the EPA, Steve Herman, on this 
topic. Every time we speak, he emphasizes to me that EPA is 
attempting to work with the State of Colorado to resolve this 
issue. However, it always seems that I'm quickly disappointed 
with EPA's actions soon after these conversations.
    Unfortunately, I am once again disappointed. It has come to 
my attention that EPA is referring to the Department of Justice 
for legal action a local government in Colorado that availed 
itself of Colorado's self-audit law. Further, they seem to have 
begun enforcement action on another local government in the 
State. To be honest, it appears to me that EPA has declared war 
on local governments in Colorado.
    Further, I'm very distressed--I emphasize very distressed--
by officials in EPA's Region 8 office who seem to feel that 
they are not policy implementers but policymakers. For example, 
Mr. Ron Rutherford, the Senior Enforcement Coordinator for 
Region 8, is quoted in the Colorado Springs Gazette Telegraph 
this past week as saying this about the recent actions taken 
against the two local governments. ``It's a statement as to why 
we think these''--referring to immunity laws--``are often 
misguided.''
    Later in the same story, Mr. Rutherford claimed that 
``These decisions are made as a matter of fairness, that those 
who economically benefit from polluting should be fined.'' 
Further, another EPA official in Colorado stated his 
philosophical opposition to Colorado's audit laws.
    It's my view that if these individuals are not in their 
current positions to enforce their philosophical views, they 
are there to implement the law. I have concerns about these 
remarks that indicate to me two bureaucrats who have become too 
wrapped up in the culture of enforcement, irrespective of 
whether it is productive or good for the environment.
    Further, I have questions with respect to EPA's application 
of economic benefit as a determining factor in decisions to 
overfile, particularly as it applies to local governments. In 
that respect, I have a letter prepared for Mr. Herman. I will 
not yet state whether I intend to object to these two nominees 
once reported from the committee. That will depend on how EPA 
cooperates with my staff and me along with this reply to my 
letter.
    Again, thank you, Mr. Chairman. I've talked about my 
concerns with both of the nominees and they do seem sensitive.
    I appreciate the time.
    Senator Chafee. Thank you, Senator.
    We've been joined by Senator Sarbanes. Senator, I know you 
wish to introduce one of the nominees.

          OPENING STATEMENT OF HON. PAUL S. SARBANES, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Sarbanes. Thank you very much, Mr. Chairman, 
Senator Baucus and Senator Allard.
    I appreciate this opportunity to come before the committee 
and express my strong support for Chuck Fox, the President's 
and EPA Administrator's nominee for Assistant Administrator for 
Water.
    I first came to know Chuck Fox in the early 1980's when he 
served as a Chesapeake Bay project director for the 
Environmental Policy Institute, a not-for-profit environmental 
organization. At that time, the Chesapeake Bay Agreement was 
just being crafted amongst the States and the Federal 
Government and we were working together with Senator Mathias 
and Senator Warner as well as with you, Mr. Chairman, to draft 
the original legislation authorizing EPA's participation in the 
Chesapeake Bay cleanup effort.
    Chuck played an important role in helping to develop the 
intergovernmental partnership and watershed management approach 
which has become the hallmark of the Chesapeake Bay program and 
I think a standard for restoration in other impacted coastal 
environments.
    Mr. Chairman, I want to thank you and Senator Baucus, and 
Senator Warner for recently approving several new measures 
relating to restoring and protecting the Bay including the 
Chesapeake Bay Restoration Act and the Gateways Act. We're very 
appreciative to the committee for that action.
    Over the past 15 years, Chuck Fox has held increasingly 
important and responsible positions, first with other nonprofit 
organizations and in the public service. As Chief of Staff of 
the EPA Office of Water, Assistant Secretary of the Maryland 
Department of the Environment, and most recently, EPA Associate 
Administrator, he has gained a wealth of knowledge and 
experience managing people, managing budgets, working with 
Members of Congress, since no one manages Members of Congress, 
and with public and private sector organizations.
    In every instance, I think he's demonstrated exceptional 
talent, ingenuity, political skill, and leadership abilities 
that I think are going to be a very important asset to the 
Administration and this important position of Assistant 
Administrator for Water.
    In my judgment, Chuck Fox will make a significant 
contribution addressing the challenges facing the EPA as we 
move into the next century. I'm absolutely confident that his 
long-time involvement in environmental issues combined with his 
experience and with his commitment to the public interest will 
make him a skillful and effective assistant administrator.
    I strongly urge the committee to act favorably on this 
nomination. I very much hope we'll be able to move him through 
to confirmation in short order.
    I thank the committee.
    Senator Chafee. Thank you very much, Senator, for coming. I 
know that's a very powerful endorsement and we appreciate your 
taking the time.
    What I'd like to do now is to hear from Mr. Fox and then if 
we have questions, we'll direct them to the respective nominee. 
Go ahead, Mr. Fox, with your statement.

 STATEMENT OF J. CHARLES FOX, NOMINATED BY THE PRESIDENT TO BE 
  ASSISTANT ADMINISTRATOR FOR WATER, ENVIRONMENTAL PROTECTION 
                             AGENCY

    Mr. Fox. Thank you, Mr. Chairman and Senator Baucus. I'm 
honored to be here today as the President's nominee for 
Assistant Administrator for Water.
    I'm pleased that Administrator Browner asked me to take on 
the challenge and responsibility of administering the Nation's 
clean water and safe drinking water programs. I look forward to 
the opportunity to work closely with this committee and 
Congress to improve the stewardship of our Nation's water 
resources.
    My career in the environmental policy arena here in 
Washington and in the State of Maryland spans 15 years. As a 
Federal official, State official and representative of 
nonprofit environmental organizations, I have dedicated my 
professional career to working on water issues on behalf of the 
American public. I look forward to continuing this work with 
this committee on a bipartisan basis.
    My experience with both Federal and State governments has 
focused on finding cleaner, cheaper, and smarter ways to 
achieve our Nation's environmental goals, and I will continue 
this work with the Office of Water.
    As the Assistant Secretary for the Maryland Department of 
the Environment, I directed a comprehensive permit reform 
initiative that provided Maryland businesses with more timely 
and predictable results, while at the same time allowing State 
resources to be deployed more efficiently.
    I also coordinated a multiagency environmental goalsetting 
effort to foster collaboration among State agencies and to 
enhance accountability to the public and the State legislature. 
This effort was very similar to the activities carried out by 
EPA pursuant to the Government Performance and Results Act.
    As the Associate Administrator for Reinvention at the EPA, 
I worked to improve the management of environmental 
information, reduce paperwork burdens and to implement the 
agency's regulatory reform agenda. In the information area, for 
example, EPA is implementing a program that will improve data 
accuracy, enhance public access, and reduce burdens on State 
governments and the private sector. These types of common 
sense, cost effective reforms characterize much of the work I 
accomplished in the Office of Reinvention.
    I would like to talk very briefly about the challenges 
confronting our Nation's water programs. Twenty-five years 
after passage of the Clean Water and Safe Drinking Water Acts, 
we stand at a critical threshold. We have made remarkable 
progress in ensuring safe drinking water and cleaning up the 
Nation's rivers, lakes, and streams. However, 40 percent of the 
water accessed by the States and tribes do not meet water 
quality goals and too many people are exposed to potentially 
harmful drinking water.
    Under the bipartisan leadership of this committee, 
President Clinton and Congress have articulated a clear agenda 
for drinking water by strengthening the Safe Drinking Water 
Act. In February of this year, the President proposed a Clean 
Water Action Plan that describes 10 general principles for 
strengthening clean water programs with over 100 specific 
actions.
    If confirmed as Assistant Administrator for Water, my top 
priority will be to support the effective implementation of the 
Safe Drinking Water Act amendments and the Clean Water Action 
Plan. I see five key themes that will most need attention.
    No. 1, maintenance of core programs. We need to assure 
financial integrity of the State revolving fund, work with our 
State partners to improve implementation of discharge 
permitting programs, and implement the source water and 
nonpoint source pollution programs effectively.
    No. 2, definition of environmental goals. We must support 
State and tribal efforts to expand and improve water quality 
standards and assure that we use sound science in developing 
new drinking water standards.
    No. 3, promotion of the watershed approach. We need to 
expand policy tools and incentives that encourage Federal, 
State, tribal, and local governments to form partnerships 
dedicated to resolving water quality problems on a watershed 
basis.
    No. 4, building intergovernmental partnerships. 
Implementation of the Clean Water Action Plan and Safe Drinking 
Water Act requires an unprecedented level of coordination at 
all levels of government. I hope to continue and expand these 
efforts if confirmed.
    Finally, we need to improve public access to information. I 
will work with the States, tribes, and other stakeholders to 
improve the public's right to know about the condition of their 
surface water and drinking water.
    The Office of Water has established a strong track record 
of reaching out to its State, tribal, and local government 
partners as well as to industry and environmental interest 
groups. I am committed to continuing this tradition and to 
achieving the broadest possible participation to develop 
effective, workable solutions for those most affected by our 
actions.
    Let me close by expressing my appreciation to the 
committee, particularly the chairman and ranking minority 
member for the opportunity to appear before you today. I am 
eager to apply my energy and experience toward this new 
mission.
    If confirmed, I will consider it a great honor and a 
privilege to work with the members of this committee toward 
achieving the Nation's goals for clean and safe water.
    I would also like to express my appreciation for the 
support of my family, particularly my wife. As you know, Mr. 
Chairman, public service requires significant commitments and 
sacrifices. I'm grateful for their past support and I know it 
will continue in the future.
    Thank you very much and I'd be pleased to answer any 
questions.
    Senator Chafee. Thank you very much, Mr. Fox.
    Now, I'd ask both of you the same question. Are you 
willing, at the request of any duly constituted committee of 
the Senate, to appear in front of it as a witness?
    Mr. Fox. I am.
    Mr. Diaz. I am.
    Senator Chafee. Do you know of any matters which you may or 
may not have thus far disclosed which might place you in any 
conflict of interest if you're confirmed in this position?
    Mr. Fox. I am not aware of any conflicts.
    Mr. Diaz. I am not, Senator.
    Senator Chafee. Mr. Diaz, I was interested when you talked 
about the computer situation with regards to the year 2000. We 
spend a lot of time worrying about it up here but there's not 
much we can do. It really is those who are out on the firing 
line such as yourself. You think that EPA is going to be ready 
for that momentous day?
    Mr. Diaz. Mr. Chairman, it's clear to me the importance of 
the so-called Y2K issue being addressed effectively by the 
Environmental Protection Agency as well as the rest of the 
Federal Government, but in my briefings so far, I have a sense 
of confidence that yes, we will be ready.
    There are 61 mission critical information systems at the 
EPA that require compliance with the Y2K standard before the 
turn of the century. Of those, two-thirds are already in 
compliance. The scheduled milestone for total compliance is the 
end of the first quarter of the next year which will allow the 
EPA 9 months of operational testing to verify the operational 
readiness of those systems prior to the turn of the century.
    Clearly this is an area that requires close monitoring 
because of the importance to both the agency and to the 
American public as well as to the Congress. So it's one to 
which I would like to apply my management skills to ensure that 
milestone that has been set is met, but I do have the 
confidence that we're on the right course to accomplish that.
    Senator Chafee. I wouldn't expect that EPA would be as 
dependent upon their computers as say the Social Security 
Agency or something like that, or the Treasury, but still each 
agency is terribly important.
    I presume you've had considerable experience working with 
computers yourself, have you?
    Mr. Diaz. I've actually dealt with the computer issue at 
the Department of Energy in a couple of different areas, 
essentially with regard to the paperwork burden reduction which 
includes electronic reporting burden as well and to another 
extent with regard to local area networks that we use at the 
Energy Department, Internet access to information.
    We have a responsibility in the Office of Administration 
Resources Management for the Chief Information Officer 
responsibility that was established by the Clinger-Cohen Act, 
so it's one where I believe we have the resources that are 
dedicated to ensuring that we are Y2K compliant, but I do 
believe it's necessary to continue to exercise oversight to 
make sure that we're meeting our responsibilities.
    If I may add just one short addendum, that is that it's 
clear to me that this is an issue that needs to be addressed in 
concert with our partners outside of the agency upon whom we 
are dependent for information which is made available to the 
public through the EPA information systems.
    We are working directly with stakeholders to make sure that 
they understand the importance of the Y2K issue, that they are 
taking advantage of the opportunities to correct their own 
systems to be compliant by the Year 2000 as well. So it's a 
major outreach effort on behalf of the agency.
    Senator Chafee. We will look to you frequently, we deal 
with the Administrator but with you also in connection with say 
the expenditures under Superfund for example, and all of this 
will fall, I presume, under your umbrella as paying attention 
to the administrative aspects of these different programs.
    Mr. Fox, obviously we're not going to do anything on the 
Clean Water Act this year but next year it would be my 
intention to get back with the Clean Water Act and under that, 
the wetlands is always the most contentious provision.
    Have you dealt much with mitigation banking under wetlands?
    Mr. Fox. Yes, I have, Mr. Chairman, particularly at the 
State level and some earlier work at the USEPA. I believe that 
mitigation banking offers tremendous promise to try and provide 
a little more predictability in the wetlands permitting process 
and at the same time to help the Nation achieve our no-net-loss 
of wetlands goals.
    I think we need to always be conscious of places where 
mitigation banking might not be appropriate and we need to just 
remember and keep those safeguards incorporated in the program. 
There are, as you know, some types of wetlands, for example, 
that aren't real easy to replace in the context of a mitigation 
bank, but overall, the Administration has been a strong 
supporter of mitigation banking and I think it's an important 
part of the wetlands solution.
    Senator Chafee. Have you ever seen one that works?
    Mr. Fox. There are some examples of some. We had one in 
Maryland, in fact, that was showing itself to be quite 
successful. It depended a lot on the land area where, in fact, 
the wetlands were being created and could we have engineering 
solutions in those areas that replaced the functions and values 
of the wetlands, but it can be done in some cases.
    There are certainly many examples of it not succeeding as 
well.
    Senator Chafee. We went down to see one south of 
Fredericksburg. I must confess I've forgotten the exact place 
we went but they had one of a couple hundred acres down there 
and it's working quite successfully, so it seemed.
    Senator Baucus.
    Senator Baucus. I'd like to ask each of you why do you want 
this job, your individual jobs? I'll start first with you, Mr. 
Diaz. Why do you want this?
    Mr. Diaz. First of all, I believe that this represents a 
tremendous opportunity to support a mission which is future-
oriented and which is strongly supported by the American 
people, that is protecting our environment for ourselves, for 
our families and our communities.
    In addition to that, I believe that in connection with my 
background, you will see a career of increasing levels of 
complexity and trust in government service. This is an 
opportunity for me to take those experiences and perspectives 
and share them with colleagues at the Environmental Protection 
Agency.
    I'm very enthusiastic about the opportunity to use 
management skills in supporting the core mission of the agency 
that is environmental protection, and I do believe, as I said 
in my summary statement, that integrating the delivery of that 
core mission with efficient and flexible management services, I 
think is something that is desirable and one where I would like 
to help make a difference.
    Senator Baucus. You have a passion for the job?
    Mr. Diaz. I think that's a fair summary, yes, sir.
    Senator Baucus. How do you want to be remembered?
    Mr. Diaz. I've said there are three priorities I see for 
this job that I would like to accomplish. As I've also 
indicated, I've dedicated my career to achieving results and 
not focusing on process. As far as I'm concerned, I've 
essentially laid out a contract with this committee and I would 
like to be remembered in terms of a legacy as having achieved 
results on the three priorities that I indicated to this 
committee--efficient and effective information management, 
efficient and effective management of our financial resources 
contracts and grants, the lifeblood of the agency in many 
respects, and third, assuring that we are investing in the 
future in terms of the human infrastructure of the agency.
    If I accomplish what I have indicated to this committee, 
what I see as my three priorities, I will indeed have a happy 
legacy.
    Senator Baucus. You've measured those results to know 
whether you've accomplished them or not? By what standard?
    Mr. Diaz. You and I had an interesting conversation, 
Senator, when you talked about your sense of making sure that 
we know names, dates, and data. It strikes me that in 
connection with assuring that we know how to measure 
performance, which is always a difficult issue, one of the 
things I've been talking to my colleagues at the EPA about is 
essentially coming up with a game plan so that we know how to 
measure success over the next 30, 90, 180 days. I'd like to 
share that with this committee and as far as I'm concerned, 
those are the performance measures that I would like to be 
measured against.
    Senator Baucus. Do you have a sense of at the end of your 
term, do you want to find the agency 10 percent more efficient 
and effective, 20 percent? Do you know enough about the agency 
to know percentage of improvement that sounds reasonable?
    Mr. Diaz. That's an interesting question. Let me first say 
that as I think the committee members are aware, this is an 
agency which I have a general sense of understanding about. The 
President's nomination went forward to this committee on the 
17th of this month. In less than 2 weeks, I have tried to 
become sufficiently briefed on the major priority issues of the 
agency so that I can reputably respond to your questions.
    I can't give you a quantifiable measure but it strikes me 
that what we're trying to do is to ensure that in an 
environment where I understand in connection with the balanced 
budget amendment, we will see essentially steady resource 
allocation to the Environmental Protection Agency, we see 
growing expectations on the part of the American public with 
regard to their environment.
    We've got to learn how to do more with less, more stable 
resources and so I think the performance measure, and I can't 
quantify it anymore than that, Senator, but I would be happy to 
share further insights with you at a later date, it strikes me 
that we need to be able to deliver on those increasing 
expectations with the kind of resources that we have, always 
mindful of course of the fact that we need to work in 
collaboration with our customers and stakeholders upon whom we 
depend for so much delivery of those services.
    Senator Baucus. Are there any breaking new concepts or 
technologies or something in your area that you're sort of 
intrigued with that might help you and the agency do a 
significantly better job in your area?
    Mr. Diaz. One of the areas in fact that I'm quite excited 
about and I would like to have an opportunity to get a 
firsthand observation of is the new facility being constructed 
at Research Triangle Park in North Carolina. It's been 
supported by this committee and the Senate and the Congress. It 
is going to be a state-of-the-art facility. It's going to 
enable us to realize a tremendous cost savings over the 30-year 
life of that facility. It's estimated to be $100 million cost 
savings over 30 years.
    We see increased productivity gains associated with that, 
consolidation and the state-of-the-art laboratory facility, we 
believe is going to support the research mission of the agency 
and delivery of sound science into the next century. That's the 
kind of thing that very much excites me and I'd like to get a 
firsthand observation of it.
    Senator Baucus. Mr. Fox, same list of questions. Why do you 
want this job?
    Mr. Fox. That's actually an easy answer for me, Senator. 
This is an incredibly exciting time in the water area. This 
committee, with passage of the Safe Drinking Water Act 
amendments has laid out what I think is a very ambitious job 
for the Assistant Administrator for Water.
    You have given the agency a series of deadlines and a 
series of new drinking water standards that we have to develop 
so that we can meet the needs of small communities throughout 
the country, so that we can assure the public has high quality 
drinking water.
    On the clean water side, the President's Clean Water Action 
Plan lays out a very ambitious agenda that needs to be 
implemented. Despite our best efforts, we haven't made great 
progress in the last 10-15 years in terms of tackling some of 
the nonpoint source pollution problems this Nation faces, 
particularly associated with urban runoff or suburban runoff, 
or agricultural runoff. I think those areas in particular pose 
significant challenges and opportunities at the same time to 
build partnerships with farmers, with State and local 
governments to try and solve these problems.
    So I think we truly are at a threshold in the 25 years of 
history with both the Safe Drinking Water Act and the Clean 
Water Act.
    Senator Baucus. How do you want to be remembered?
    Mr. Fox. I've worked for many years on ocean and coastal 
issues and one of the areas I clearly want to be remembered for 
is helping to advance the cause of protecting our Nation's 
oceans and coasts. It's an area where as a Nation we've 
increased population growth and habitat deterioration and 
pollution inputs to our coastal waters. I want to be remembered 
as somebody who can hopefully have advanced that cause of 
protecting our coastal environments.
    I also want to be remembered as somebody who has begun to 
tackle the problem of nonpoint source pollution in a real, 
effective, meaningful way. Many parts of the country, including 
your great State of Montana, have waters that are affected by 
nonpoint source pollution. So I would really like to see some 
success in that area as well.
    Senator Baucus. We've had this discussion, as you know. 
Some agencies have a pretty good reputation, some Federal 
agencies, some not. Those that do are agencies like the USDA 
where there is a lot of personnel on the ground, where people 
get to know each other, people doing the work have lunch 
together and supper together and they get to know each other 
which means that the local folks have a little more confidence 
that the agency understands what their problems are. The fact 
is, that's true the agency does have a better understanding of 
what the problems are. Nonetheless, the agency personnel go 
ahead and do a good job.
    That's not true of the EPA. The basic problem is the EPA 
doesn't have the personnel on the ground in the field, not near 
as many as say the USDA. So you've got a unique problem, how to 
develop public confidence when you don't have very many people.
    A lot of people in western States think that the Denver 
office, Washington, DC., what do they know about us, they're 
thousands of miles away. With airline costs as high as it is 
and airline travel as difficult as it is, particularly from 
Denver, there's no way that very many PA personnel are going to 
get to Montana and back. It's a problem. You've got some good 
people there in Montana. There's John Wardell, for example, who 
does a pretty good job in the State.
    I'd just urge you to bend over backwards to figure out some 
way to enable people to truly believe that you're truly 
listening to their problems. Set some systems in place or go 
out more frequently than I otherwise thought I would, the kind 
of walking around concept, out from behind your desk and get a 
feel or a taste or spell of what's going on here. It will go a 
long, long way. I strongly urge you to do so.
    I wish you both very, very good luck.
    Mr. Fox. Thank you, Senator.
    Senator Baucus. One final point. It's my view and my hope 
that when you have a problem and you think it's something this 
committee should know about, tell us, and the earlier the 
better. It just makes things a bit difficult and problems brew 
up. Some members of the committee hear about it through the 
back door or somehow and want to create a fuss or something. So 
just let us know in advance and we'll probably be able to work 
it out pretty well.
    Thank you.
    Mr. Fox. Thank you.
    Senator Chafee. I want to echo what Senator Baucus said in 
that last point. Obviously this committee is not here in a 
confrontational mode with you, we're not out here to harass 
you. We're on this committee because the members care about the 
environment and some people forget that EPA stands for the 
Environmental Protection Agency. Therefore, we're here to 
attempt to be helpful when you've got challenges and through 
the Administrator, you can bring your difficulties here where 
we might be helpful and we're out to try and do that.
    I would hope, Mr. Fox--and this would apply to you, Mr. 
Diaz, too--that you'd embrace what might be new techniques in 
trying to solve some of these problems. For example, we had 
some very interesting testimony not long ago on the 
effectiveness of spending money on watersheds as opposed to 
trying to clean up the rivers when they came down into say the 
New York City water supply system.
    If we can put a modest amount of money into say some 
holding pond for manure generated on a farm upstream from the 
watershed that supplies New York City, it's far more effective 
than trying to clean up that water when it gets down with that 
cattle manure or whatever might be in it as it comes down into 
the immediate water supply system say for the city of New York.
    It was fascinating to me to learn the modest expenditure 
that could take place upstream in prevention as opposed to 
downstream attempt at a cure.
    Several times you've mentioned nonpoint source pollution 
and that's a tremendous problem. There is no question that we--
we being the industry and the Federal Government with the 
support of local communities--have done a tremendous job in 
cleaning up these lakes and rivers. I don't know what the 
percentage is you're using now for the pollution in rivers 
coming from nonpoint source pollution. What percentage do you 
use?
    Mr. Fox. As a general rule--obviously it varies around the 
country--I think it's fair to consider it's a little more than 
half. Certainly the nutrient pollution would be coming from 
nonpoint sources.
    Senator Chafee. So we've come a long, long ways with the 
point source pollution. I want to tip my hat to industry. 
Obviously they've had to comply but they have complied and 
without squawking and with an honest effort to reduce the point 
source pollution.
    Now, as you point out, it's the nonpoint source pollution 
that's a real problem. It's difficult and you get tangled up 
into land use planning, which are always fighting words as you 
know, from the Federal Government getting into that area, but 
there are interesting techniques.
    I'm always impressed around here by the static situation as 
it exists as far as the development of waste treatment plants. 
It doesn't seem to me that much has happened. Am I missing 
something or is everything about the way it was 40 years ago?
    Mr. Fox. The basic technology of most of them, Senator, is 
virtually identical to the way it was but there have been a 
number of new advancements in changing how the pollutants are 
retained in different holding ponds, adding different chemicals 
here and there, and you are getting much higher performance 
today out of sewage treatment plants than you were before, and 
there's new capacities to get nutrient pollution removal which 
you couldn't get before. So they're making some improvements.
    Senator Chafee. I always have the feeling that it's such an 
expensive undertaking for a community that nobody wants to try 
anything new for fear if it doesn't work, they're stuck with it 
and the costs are substantial.
    I don't see much that is adventuresome out there. Again, am 
I missing something?
    Mr. Fox. No. I think the evidence we have right now shows 
not only is nonpoint source pollution a significant part of the 
problem, but that we can much more cost effectively control 
pollution from nonpoint sources. So if we can find ways of 
building partnerships with farmers and local governments on a 
watershed basis, we can end up not only cleaning up the waters, 
but saving money at the same time. So I'm real hopeful that we 
can do that.
    Senator Chafee. I'll remember what you've said and a year 
or so from now, we might ask you to come back up here and see 
how you're doing.
    Mr. Fox. Fair enough.
    Senator Chafee. Senator Baucus, have you got anything else?
    Senator Baucus. No more questions.
    Senator Chafee. We thank both of you gentlemen for coming 
here. Again, I want to say that the earliest we'll be able to 
get these nominations to the floor would be in the first part 
of September, but it's my intention to move briskly along with 
this because I don't like to hold up these things.
    Thank you very much, both of you, and thank your families.
    What's that triangle I meant to look up, Mr. Diaz?
    Mr. Diaz. The Golden Triangle, sir, and Nederland, TX is 
the heart of the Golden Triangle.
    Senator Chafee. What makes up the Triangle, again?
    Mr. Diaz. Belmont, Port Arthur and Orange, TX.
    Senator Chafee. I got it. Thank you. Glad you're here, and 
your families.
    [Whereupon, at 5 p.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow.]

  Statement of Hon. Paul S. Sarbanes, U.S. Senator from the State of 
                                Maryland

    Thank you, Mr. Chairman, for this opportunity to present 
and express my strong support for Charles Fox, the President's 
and the EPA Administrator's nominee for Assistant Administrator 
for Water.
    I first came to know Chuck Fox in the early 1980's when he 
served as the Chesapeake Bay Project Director for the 
Environmental Policy Institute, a not-for-profit environmental 
organization. At that time, the Chesapeake Bay Agreement was 
just being crafted and we were working together with Senator 
Mathias and Senator Warner as well as the Committee Chairman, 
Senator Chafee, to draft the original legislation authorizing 
EPA's participation in the Chesapeake Bay cleanup effort. I 
want to thank the Chairman, Senator Baucus and Senator Warner 
for approving several new measures recently to restore and 
protect the Bay, including the Chesapeake Bay Restoration Act 
and the Gateways and Watertrails Act. Chuck played an important 
role in helping to develop the intergovernmental partnership 
and watershed management approach which have become the 
hallmark of the Chesapeake Bay Program and the standard for 
restoration in other degraded coastal environments.
    Over the past 15 years, Chuck has held increasingly 
important and responsible positions with other non-profit 
organizations and in public service. As Chief of Staff of the 
EPA Office of Water, Assistant Secretary of the Maryland 
Department of the Environment and most recently, EPA Associate 
Administrator, he has accumulated a wealth of knowledge and 
experience managing people and budgets, working with Members of 
Congress and public and private sector organizations. In every 
instance, he has demonstrated exceptional talent, ingenuity, 
political acumen and leadership abilities that would be a 
tremendous asset for the Administration and for this important 
position.
    In my judgment, Chuck would make a significant contribution 
in addressing the challenges facing the EPA as we move into the 
next century. I am confident that his longtime involvement in 
environmental issues, combined with his experience and 
commitment to the public interest, will make him an effective 
and skillful Assistant Administrator. I urge the committee to 
favorably and swiftly report this nomination to the full 
Senate.
                                ------                                


      Statement of Romulo L. Diaz, Jr., Nominated to be Assistant 
    Administrator for Administration and Management, Environmental 
                           Protection Agency

    Mr. Chairman and members of the committee, it is a great 
honor and privilege to be here today as the nominee of 
President Clinton and Administrator Browner to be the 
Environmental Protection Agency's Assistant Administrator for 
Administration and Resources Management.
    I am very proud to have been asked to serve in the Clinton 
Administration and with Administrator Carol Browner, who are 
working to enhance the level of public health and environmental 
protection for all Americans. I look forward to working closely 
with you, the Congress, to continue to improve management and 
performance at EPA.
    I want to speak briefly about my background and discuss 
where I would hope to bring new ideas and leadership to the 
position, if confirmed.
    I come to you with over 25 years of experience in public 
service, both as an attorney and as a manager of domestic and 
international strategic programs for the Department of Energy 
(Department or DOE) and other Federal energy agencies. In my 
current position as Director of the Office of Regulatory 
Coordination, I have played a leadership role in reinvention 
efforts that resulted in the elimination or streamlining of 
more than 75 percent of the Department's regulations, 50 
percent of its internal directives, and 20 percent of its 
paperwork burden. These efforts are enabling the Department to 
realize savings in excess of $100 million over 5 years.
    In previous posts, I was responsible for DOE management and 
operations policies, was twice unanimously elected by the 
nations of the North Atlantic Treaty Organization to chair an 
energy committee, successfully negotiated the international 
energy contingency response to the 1990-91 Gulf Crisis, 
represented the Federal Energy Regulatory Commission on 
important energy legislation, and led that agency's efforts to 
create a nationwide system for the emergency implementation of 
deregulatory pricing regimes under the Natural Gas Policy Act 
of 1978.
    Throughout my career, I have pursued public service with a 
passion and have dedicated myself to making the Federal 
Government work better and more efficiently to meet the needs 
of its customers and stakeholders. I have done this while 
always being mindful of the expectations of the American 
public. This has required a dedication to measuring performance 
based on results, rather than process. If given the 
opportunity, I look forward to bringing these experiences and 
perspectives to the leadership team at EPA and to continuing to 
sharpen EPA's focus on efficient management services.
    I would like to summarize the values and principles that 
will guide me if this committee approves my nomination and the 
Senate chooses to confirm me as EPA's Assistant Administrator 
for Administration and Resources Management. They include: 
integrity and fiscal responsibility; openness and willingness 
to listen; fairness and accountability; proactivity; and a 
spirit of partnership.
    EPA's Office of Administration and Resources Management 
provides leadership to ensure sound management of 
administrative services throughout the Agency. The Office has a 
broad range of functions, including: management of human 
resources; information technology; contracts; grants; employee 
health, safety and security; and facilities construction. In 
managing these programs, I pledge to ensure the highest quality 
standards of integrity and fiscal responsibility. I would like 
to focus on several high priority areas.
    First, I am aware that the Congress has concerns about the 
Federal response to the Year 2000 computer date conversion 
issue (Y2K) and I know this is also one of Administrator 
Browner's top priorities. In my discussions with senior EPA 
staff, I have been assured that EPA's mission critical 
information systems and technology infrastructure will be Y2K 
compliant and verified through operational trials before the 
turn of the century. EPA is working with State, local, and 
tribal governments and regulated industries to ensure that 
systems will be compatible to allow for the exchange of data by 
the year 2000. In addition, the Agency is working with several 
sectors of American industry to build awareness and to 
encourage their action to address Y2K problems.
    EPA has placed an increased emphasis on using the tools of 
government to enhance the way we get information to the public 
about our drinking water, our air, our homes, and the 
environment in our communities. Improving access to and the 
quality of environmental information allows society at all 
levels to make better decisions. The Office of Administration 
and Resources Management has the responsibility for the 
technology infrastructure that supports these efforts. If 
confirmed, I will dedicate myself to moving this important 
initiative forward.
    I am aware that the Congress has been concerned in the past 
with the Agency's management of its contracts, grants and 
assistance agreements. About two-thirds of EPA's budget is 
obligated as contracts or grants every year, so these are very 
important areas to manage and to manage well. I have been 
informed that the Agency has made substantial progress, so much 
so that EPA's Inspector General agrees that contracts 
management should no longer be reported as a ``material 
weakness'' to the President and Congress. Furthermore, the 
grants close-out backlog has been reduced by 80 percent. If 
confirmed, I pledge my support to the Administrator and the 
Congress to strengthen the initiatives the Agency has 
established to promote more effective management and 
accountability for these important functions.
    I firmly believe the Federal Government has a 
responsibility to attract a workforce that reflects the talents 
and perspectives of a growing multi-cultural society. This is 
an investment in the human infrastructure of the Agency to 
ensure that it has the science and technology skills needed for 
the future. Building on my previous experiences, I intend to 
ensure that EPA's work environment is grounded in fairness and 
recognizes the richness and diversity of its workforce.
    I also believe it is essential that we provide a healthy, 
safe and secure environment for the Agency's employees. In that 
regard, I want to recognize your support, Mr. Chairman, and 
that of the members of the committee, in helping EPA to obtain 
the necessary space that will allow us to consolidate our 
employees in Washington, DC., as well as in Research Triangle 
Park, North Carolina. This effort will result in cost savings 
for the U.S. taxpayer and improved productivity for the EPA 
workforce.
    In summary, effectively discharging the responsibilities of 
the Office of Administration and Resources Management is 
critical to meeting EPA's mission. I believe that it is in the 
best interest of EPA and the public to integrate mission goals 
and effective management. If confirmed, I pledge to bring the 
full weight of my experience and abilities in order to further 
that integration.
    Let me close by expressing my appreciation to the committee 
for your recognition of and support for the Agency's vital 
mission. Thank you for the opportunity to appear here today. 
I'd like to thank my parents, who are here today, for their 
continued love and support. I'd also like to thank you, Mr. 
Chairman, and the members of the committee for the courtesies 
extended to them today. At this time, I would be pleased to 
take any questions that you may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Responses by Romulo L. Diaz, Jr., to Additional Questions From Senator 
                                 Inhofe
    The EPA's Environmental Justice program has come under increased 
scrutiny, particularly since the issuance of the February policy. That 
policy has been roundly criticized by groups including: U.S. Chamber of 
Commerce, National Black Chamber of Commerce, Western Governors 
Association, U.S. Conference of Mayors, National Association of 
Counties, National Association of Black County Officials, and the 
Environmental Commission of the States. The Agency has also been 
accused of withholding reports which are critical of the policy.
    Question 1. If you were to be confirmed as the Official in charge 
of the Office of Environmental Justice, how would you plan on 
addressing the concerns raised by these groups?
    Answer. Senator, if confirmed as Assistant Administrator for 
Administration and Resources Management, I would have responsibility 
for a broad range of functions including: management of human 
resources; information technology; contracts; grants; employee health, 
safety, and security; and facilities construction. These 
responsibilities do not encompass the Agency's Environmental Justice 
Program.
    I have brought your concerns to the attention of the relevant 
officials at EPA, who informed me that environmental justice activities 
are the responsibility of EPA's Office of Civil Rights and the Office 
of Environmental Justice. The Office of Civil Rights addresses Title VI 
issues under the Civil Rights Act. Much work is underway to explore how 
EPA should implement the requirements of Title VI in addressing 
complaints from communities in which discrimination has been alleged in 
the issuance of environmental permits. The Office of Environmental 
Justice is responsible for coordinating efforts within the Agency to 
identify and address disportionately high and adverse human health and 
environmental effects on minority and low income populations.
    I have emphasized in my testimony the desirability of working 
collaboratively with the Agency's customers and stakeholders, which is 
a view that I believe is shared by the senior management of EPA. In 
particular, I am sensitive to the fact that you, other Members of 
Congress, and the stakeholders mentioned in your question should be a 
part of this collaborative process. It is a priority of the 
Administrator to see that children's issues also receive serious 
attention from the Agency and these stakeholders.
    If you would like further information on the activities of these 
offices, I would be happy to work with my EPA counterparts to address 
your concerns.
    Question 2. Recently an EPA employee, Beverly Baker, was quoted in 
the Washington Post (7/20/98) as saying ``the best hope to improve 
minority involvement lies with educating children and getting them 
involved `as young as possible.' '' Considering the prohibition on 
encouraging lobbying activities, could you explain how the Agency plans 
on targeting such education efforts at children and to what extent the 
Agency plans ``on getting them involved?''
    Answer. I have been informed that the Agency has several financial 
assistance programs available to nonprofit organizations. The 
Environmental Education Office focuses on supporting schools in 
developing programs on environmental justice. In addition, the Office 
of Environmental Justice has a Small Grants Program to Communities for 
nonprofit organizations at the local level, such as schools, grassroots 
and community organizations, to introduce the concept of environmental 
justice to young people and others. Grants under this program contain a 
special condition prohibiting lobbying in accordance with Office of 
Management and Budget Circulars 
A-122 and A-21. Other approaches to getting young people motivated to 
educate themselves about environmental issues have included: (1) 
sponsoring ``shadowing program'' which expose students from local 
schools to basic environmental science, computer training, and job 
skills development in addition to an opportunity to work on specific 
EPA-sponsored projects; (2) designing (in conjunction with the Urban 
League) an eight-week ``Urban Wall'' summer program which provides 
experiences in water sampling, soil sampling and analysis; and (3) 
providing guest speakers who travel from school-to-school to discuss 
environmental justice issues with the students. These approaches are 
strictly educational in nature and do not involve any form of 
prohibited lobbying. Therefore, the Agency has been able to educate 
young people on environmental issues that affect them, their families, 
and their communities without engaging directly or indirectly in 
prohibited lobbying activities.
    Question 3. Can you explain how your Office will coordinate 
environmental justice activities with other Agency programs such as the 
Brownfields initiative?
    Answer. The Office of Administration and Resources Management does 
not have responsibility for coordinating environmental justice 
activities. Overarching responsibility lies with the Office of 
Environmental Justice. When issues specifically pertain to Brownfields, 
the Office of Environmental Justice will coordinate with the Office of 
Solid Waste and Emergency Response.
    I understand that the Office of Environmental Justice coordinates 
its activities primarily in three ways. First, it has a formal process 
through Executive Order 12898, which requires EPA and other Federal 
agencies to develop environmental justice strategies that describe how 
they will meet their environmental justice goals, policies and 
strategies. The Office also monitors activities through internal Agency 
submissions that are received as part of the Agency's Environmental 
Justice and Annual Report. This report allows the Office of 
Environmental Justice to determine what additional Agency resources 
might be offered. The final form of official coordination is through 
the Environmental Justice Steering Committee which includes senior 
level managers from each office, who meet periodically to discuss 
pressing issues and exchange information.
    Question 4. Considering the mounting pressure in opposition to the 
policy, including criticism from Detroit Mayor Dennis Archer, do you 
consider it prudent to rescind the policy and involve the affected 
stakeholders in the development of a new policy?
    Answer. EPA is carefully evaluating all of the comments it has 
received on the Interim Guidance for Investigating Title VI 
Administrative Complaints Challenging Permits from the States, 
industry, and community organizations. In addition, EPA has established 
a Federal Advisory Committee to further advise the Agency on 
implementation of Title VI and the Interim Guidance. The Committee 
includes representation from industry, academia, the community, State 
and local governments, tribal governments, and environmental groups. 
This Committee is expected to make its recommendations by the end of 
this year. Until any guidance is finalized, the office of Civil Rights 
has informed me that EPA's intent is to continue to apply the Interim 
Guidance and EPA's Title VI regulations to investigate existing 
complaints. EPA will not finalize the Interim Guidance without fully 
considering all comments received as well as the recommendations from 
the Committee.
    Should you desire, I would be glad to work with the Agency's Office 
of Civil Rights and Office of Environmental Justice to provide you with 
additional information on any of these issues.
                                 ______
                                 

 Responses by Romulo L. Diaz, Jr. to Follow-up Questions from Senator 
                            Dirk Kempthorne

    Question 1. As Assistant Administrator for Administration and 
Resources, you will be in a position to account for the division of 
expenditures amongst various environmental programs in every EPA Region 
in the country. As a Senator from Idaho, I would like to be informed of 
how EPA Region 10 is currently allocating expenditures, and how it 
predicts it will allocate expenditures over the next 5 years. Would you 
be able to obtain this information for my reference?
    Answer. Senator, if confirmed as Assistant Administrator for 
Administration and Resources Management, I would have responsibility 
for a broad range of functions including: management of human 
resources; information technology; contracts; grants; employee health, 
safety, and security; and facilities construction. These 
responsibilities do not encompass the allocation or accounting for 
financial resources among and within EPA's ten regional offices, which 
is the responsibility of the Agency's Chief Financial Officer.
    With respect to Region 10, I have been informed by the Chief 
Financial Officer that the Balanced Budget Agreement provides stable 
funding for EPA's operating programs for the next several years. For 
example, the President's Budget request for FY 1999 reflects the 
Balanced Budget Agreement.
    The attached chart displays State Grant funding for the State of 
Idaho for fiscal years 1997, and 1998, as well as proposed funding for 
1999. These numbers are consistent with data contained in the Budget 
Information by States Report which is part of the President's Budget 
submission to Congress each year. Proposed funding for these State 
grants are formulated by the Agency's National Program Managers who 
have responsibility for the different categories of grants.
    Once a final budget is enacted into law, the National Program 
Managers issue budget amounts to the EPA Regional offices for final 
allocation to the States. It is because of this process that a 5 year 
projection is not available for State funding.
    State Grant flexibility is provided through the Use of Performance 
Partnership Grants which allow States to combine one or more of the 
grants listed below and spend the money on the highest priority areas 
for that State.

 Statement of J. Charles Fox, Nominated to be Assistant Secretary for 
                 Water, Environmental Protection Agency

    Mr. Chairman and members of the committee, I am honored to 
be here today as the President's nominee for Assistant 
Administrator at the Environmental Protection Agency. I am 
pleased that Administrator Carol Browner asked me to take on 
the challenge and responsibility of administering the Nation's 
clean water and safe drinking water programs. I look forward to 
the opportunity to work closely with this committee and 
Congress to improve the stewardship of our Nation's water 
resources.
    My career in the environmental policy arena in Washington 
and in the State of Maryland spans 15 years. As a Federal 
official, State official, and representative of nonprofit 
environmental organizations, I have dedicated my professional 
career to working on water issues on behalf of the American 
public. I look forward to continuing this work on a bipartisan 
basis with this committee.
    My experience with both Federal and State governments has 
focused on finding cleaner, cheaper, and smarter ways to 
achieve our Nation's environmental goals, and I will continue 
this work with the Office of Water. As the Assistant Secretary 
for the Maryland Department of the Environment, I directed a 
comprehensive permit reform initiative that provided Maryland 
businesses with more timely and predictable results, while at 
the same time allowing State resources to be deployed more 
efficiently. I also coordinated a multi-agency environmental 
goal-setting effort to foster collaboration among State 
agencies and to enhance accountability to the public and the 
State legislature. This effort was very similar to the 
activities carried out by the EPA pursuant to the Government 
Performance and Results Act (GPRA).
    As the Associate Administrator for Reinvention at the EPA, 
I worked to improve environmental information, reduce paperwork 
burdens, and implement the Agency's regulatory reform agenda. 
In the information area, for example, EPA is implementing a 
detailed program that will improve data accuracy, enhance 
public access, and reduce burdens on State government and the 
private sector. These types of common sense, cost-effective 
reforms characterize much of the work I accomplished in the 
Office of Reinvention.
    I would like to talk briefly about the challenges 
confronting our Nation's water programs. Twenty-five years 
after the passage of the Clean Water Act and the Safe Drinking 
Water Act, we stand on a critical threshold. We have made 
remarkable progress in assuring safe drinking water and 
cleaning up the Nation's rivers, lakes, streams, and coasts. 
However, 40 percent of the waters assessed by States and tribes 
do not yet meet water quality goals. And, too many people are 
exposed to potentially harmful drinking water.
    Under the bipartisan leadership of this committee, 
President Clinton and Congress have articulated a clear agenda 
for drinking water by strengthening the Safe Drinking Water 
Act. And, in February of this year, the President proposed a 
Clean Water Action Plan that describes 10 general principles 
for strengthening clean water programs with over 100 specific 
new actions. As Assistant Administrator for Water, my top 
priority will be to support the effective implementation of the 
Safe Drinking Water Act Amendments and the Clean Water Action 
Plan. I see five key themes that will most need attention.
    (1) Maintain Core Programs--The additional responsibilities 
associated within the Safe Drinking Water Act Amendments and 
the Clean Water Action Plan are based on the premise that the 
core clean water and drinking water programs remain strong. We 
need to assure the financial integrity of clean water and 
drinking water State revolving loan funds. We must continue to 
work with our State partners to improve implementation of the 
discharge permitting and public water supply system programs. 
We must implement effective programs to prevent pollution, 
including the source water protection program and the nonpoint 
pollution control program.
    (2) Define Environmental Goals--The Safe Drinking Water Act 
Amendments and the Clean Water Action Plan both stress the need 
to improve efforts to define goals and standards for clean and 
safe water. We need to make the new drinking water contaminant 
selection process a shining success and we need to assure that 
we use sound science in developing new drinking water standards 
under the guidelines established by Congress.
    To achieve the Nation's clean water goals, we must support 
State and tribal efforts to expand and improve water quality 
standards by providing them with the best scientific 
information about pollutants. Special attention must be paid to 
the development of water quality standards for nutrients and 
biological water quality criteria.
    (3) Restore Water Quality Using the Watershed Approach--
Under the Clean Water Action Plan, States and tribes are now 
completing their unified watershed assessments and new 
resources will be directed to those watersheds not meeting 
clean water goals. We are encouraging States and tribes to 
approach these restoration efforts on a watershed basis. We 
also need to expand policy tools and incentives to encourage 
Federal, State, tribal, and local governments to form 
partnerships dedicated to resolving water quality problems on a 
watershed basis.
    (4) Build Inter-Governmental Partnerships--EPA, acting 
alone, cannot protect and restore clean water and drinking 
water quality. Under the Clean Water Act and Safe Drinking 
Water Act, EPA delegates major program responsibility to State 
agencies. The Safe Drinking Water Act Amendments created new 
State revolving loan funds for financing drinking water systems 
and the Clean Water Action Plan proposed significant new 
funding for State and tribal efforts. I am determined to 
provide the resources States and tribes need to succeed, so 
that we can achieve our environmental and public health goals 
by working together.
    Implementation of the Clean Water Action Plan requires an 
unprecedented level of coordination at all levels of 
government, particularly among Federal agencies. EPA is working 
with USDA to coordinate efforts related to animal feeding 
operations and to foster stewardship of natural resources 
(including developing buffer strips). We are working with NOAA 
to expand joint coastal protection. We continue to work with 
the Army Corps of Engineers to protect wetlands. I hope to 
continue and expand these efforts.
    (5) Improve Public Access to Information--Both the Safe 
Drinking Water Act Amendments and the Clean Water Action Plan 
include new initiatives to improve the public's right to know 
about the condition of surface water and drinking water. 
Informing the public about the health of rivers, lakes, and 
coastal waters where they live and the quality of the water 
they drink is extremely important and I will work with States, 
tribes, and other stakeholders to make these efforts a success.
    In addition to this current focus on coordinating Federal 
water resource protection and restoration efforts, the Office 
of Water has established a strong track record of reaching out 
to its State, tribal, and local government partners, as well as 
to industry and environmental interest groups. I am committed 
to continuing this tradition and to achieving the broadest 
possible participation to develop effective, workable solutions 
with those most affected by our actions.
    Let me close by expressing my appreciation to the 
committee, particularly the Chairman and Ranking Minority 
Member, for the opportunity to appear before you today. I am 
eager to apply my energy and experience toward this new mission 
and to work with Congress. If confirmed, I will consider it a 
great honor and a privilege to work with the members of this 
committee toward achieving the Nation's goals for clean and 
safe water. I would be pleased to respond to any questions from 
the committee at this time.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Responses by J. Charles Fox to Questions from Senator Kempthorne
    Question 1. My home State of Idaho is currently engaged in the task 
of setting total maximum daily loads, or TMDLs, for more than 700 
bodies of water in the State. How do you see the TMDL process 
proceeding over the next few years, particularly with regard to the 
implementation of the Administration's Clean Water Action Plan?
    Answer. I am hopeful that the TMDL program will provide an 
important technical and analytical basis for improving the condition of 
the Nation's waters through watershed-based management approaches.
    EPA has taken a number of steps in recent years to improve the TMDL 
program. For example, in November, 1996, EPA established a Federal 
Advisory Committee Act committee on the TMDL program to provide 
recommendations to EPA concerning needed changes to EPA's regulations 
and guidance. The Committee's final report was released on July 28, 
1998, and I am reviewing the recommendations of this diverse group of 
talented people in considering changes to EPA's regulations.
    In August 1997, EPA established two new policies related to the 
pace of TMDL development and implementation. Under these policies, EPA 
is calling for States to develop 8-13 year schedules for developing 
TMDLs for all listed waters and to implement TMDLs, particularly 
nonpoint source TMDLs. EPA has increased the technical assistance being 
provided to States and is developing computer applications and data 
bases to improve the efficiency of the analytical elements of the 
process.
    The Clean Water Action Plan focuses on a watershed approach for 
restoring and protecting water resources. Because TMDLs specify the 
amount of a pollutant that needs to be reduced to meet State water 
quality standards, and allocates pollutant loads among pollution 
sources in a watershed. TMDLs are one of many important tools that 
States will use to improve water quality on a watershed-by-watershed 
basis. The Plan calls for States to develop Unified Watershed 
Assessments by October 1998. The assessments will, among other things, 
identify and prioritize watersheds needing restoration, to which 
increased resources, including Sec. 319 grants will be directed. In 
creating the assessments, States will use and coordinate a variety of 
existing information sources and processes, including State 
agricultural conservation priority areas, nonpoint source assessments, 
drinking water assessments, and section 303(d) lists and schedules for 
TMDL development. In addition, the TMDL process is important for 
carrying out several other action items in the Plan. The Action Plan, 
for example, calls for EPA to use the TMDL program to evaluate the 
links between air emissions and water quality impacts of nutrient 
overenrichment and help determine appropriate nutrient reduction 
actions.
    Question 2. As you may be aware, States dealing with the TMDL 
process are enthusiastic about the possibilities of using effluent 
trading to achieve TMDL goals. Do you believe that effluent trading is 
a reasonable tool to help reach TMDL goals? Would this option be 
encouraged by the EPA Office of Water under your leadership?
    Answer. I believe that effluent trading can be used to help achieve 
water quality goals. To be effective, effluent trading requires 
reliable analytical and management frameworks, including accountability 
mechanisms. The TMDL framework is one of many tools which can be used 
as a basis for successful trading.
    The TMDL process establishes the baseline pollutant reduction 
necessary to achieve water quality standards. This provides a starting 
point for comparing the costs of the pollutant reductions associated 
with the TMDL to alternative pollutant allocation schemes that also 
meet water quality goals. In this way, TMDLs facilitate identification 
of the economic and water quality benefits of various pollutant 
reduction allocation schemes that can be used for an effective trading 
program.
    The Office of Water is currently encouraging, and, under my 
leadership, will continue to encourage and support, pilot effluent 
trading projects throughout the United States, including those in 
Idaho. These pilot projects will help us understand the key 
opportunities and barriers to using effluent trading to meet our 
Nation's water quality goals.
    Question 3. Over the last decade, the EPA has allocated funds to 
reduce pollution caused by point source discharges. In light of the 
current focus on water quality impairments associated with nonpoint 
source pollution, is the EPA prepared to concentrate similar resources 
to assist those working to improve water quality in accordance with the 
nonpoint source program?
    Answer. Nonpoint source pollution is the largest remaining cause of 
water quality impairment in the United States. Consequently, EPA is 
focusing increasing resources on helping to solve this problem. For 
example, the President's FY 1999 budget request to Congress proposes 
increasing nonpoint source grants to States under Section 319 of the 
Clean Water Act from $105 million in FY 1998 to $200 million in FY 
1999. EPA has also committed itself to working with States to increase 
their use of State Revolving Loan Funds to implement nonpoint source 
controls. We note as well that our partners in the U.S. Department of 
Agriculture also implement very important programs to control nonpoint 
source pollution. The President's FY 1999 budget request proposes 
increasing the Environmental Quality Incentives Program, implemented by 
USDA under the 1996 Farm bill, from $200 million to $300 million.
                                 ______
                                 
      Responses by J. Charles Fox to Questions from Senator Inhofe
    Question 1. In the wake of the Wilson Wetlands Decision, how do you 
view the current Wetlands program which varies according to the Federal 
Circuit? Do you consider it important to develop a new national 
program? Do you consider legislation necessary to address the Wilson 
case? If not, please describe in detail how the Agency would obtain a 
new national program.
    Answer. The Wilson decision (United States v. Wilson, 133 F. 3d 251 
(4th Cir. 1997)) found that a Corps' regulation asserting Clean Water 
Act (CWA) jurisdiction over isolated waters on the basis that their 
degradation ``could'' affect interstate commerce was unauthorized by 
the CWA as limited by the Commerce clause, and therefore invalid. 
Although within the Fourth Circuit the agencies will no longer cite or 
rely upon the invalidated regulation, we will continue to assert 
jurisdiction on the basis of the CWA itself where; (1) an actual link 
between the isolated water body in question and interstate or foreign 
commerce is established; and (2) individually and/or in the aggregate, 
the use, degradation or destruction of isolated waters with such a link 
has or would have a substantial effect on interstate or foreign 
commerce. This approach is consistent with the holding in the Wilson 
case and ensures that isolated waters with the requisite link to 
interstate commerce which are located within the Fourth Circuit 
continue to be subject to CWA jurisdiction.
    While the Wilson decision is at odds with most other decisions on 
the scope of CWA jurisdiction, as noted above EPA and the Corps will 
continue to assert jurisdiction over isolated waters within the Fourth 
Circuit in a manner to ensure valuable waters are protected. 
Ultimately, jurisdiction over isolated waters is critically important 
as these waters provide a wide range of functions that are valuable and 
worthy of protection, including floodwater retention, sediment and 
nutrient retention, habitat for waterfowl and other species, and 
groundwater recharge. As one example on the national level, prairie 
potholes are capable of storing large volumes of snowmelt or runoff, 
and because they have no natural surface outlets, this stored water 
does not contribute to local flooding. As much as half the waterfowl of 
North America are believed to originate from the prairie pothole 
region, generating economic benefits related to hunting in the hundreds 
of millions of dollars.
    Both the CWA's legislative history and court opinions recognize 
that the Federal Executive Branch was meant to assert broad CWA 
jurisdiction over waters of the United States subject to Federal 
constitutional authority (primarily the authority of the ``Commerce 
Clause'' of the U.S. Constitution). Although EPA and the Corps believe 
that the Wilson case was wrongly decided, our objective is to continue 
to maintain a strong program for protection of isolated waters across 
the country. We do not believe that any legislative changes are needed 
either to address the isolated waters aspects of the Wilson decision or 
to provide for development of a new national program for protection of 
isolated waters for us to continue achieving this objective.
    Question 2. Please discuss the role of the EPA veto in the wetlands 
process. In terms of timing (in relation to a permit filing), when is 
it appropriate for the agency to first raise concerns that a veto may 
be necessary? When is it appropriate for the Agency to voice objections 
to a permit?
    Answer. Under Section 404(c) of the Clean Water Act, the 
Administrator of EPA has the authority to prohibit or restrict the 
discharge of dredged or fill material into a defined area of waters of 
the United States, after public notice and opportunity for public 
hearing. This authority includes the ability to ``veto'' or otherwise 
restrict Corps issuance of a Section 404 permit based on a written 
determination that a proposed discharge will have an unacceptable 
adverse effect on municipal water supplies, shellfish beds and fishery 
areas, wildlife, or recreational areas.
    EPA has used its Section 404(c) authority sparingly; in fact, this 
Administration has not issued a single final determination under 
404(c). Early, frequent and effective communication among Federal and 
State agencies and permit applicants is fundamental to appropriate 
resolution of environmental concerns. These communications should 
articulate clearly and consistently the concerns or objections of the 
Agency.
    Question 3. Do you consider mitigation to be an appropriate vehicle 
for wetlands preservation?
    Answer. Under the Section 404 program, compensatory mitigation is 
required to offset wetland losses after all appropriate and practicable 
steps have been taken to first avoid and minimize wetland impacts. 
Mitigation banking can be used as an effective form of compensatory 
mitigation to offset the remaining unavoidable impacts when use of a 
bank is environmentally preferable or when there is no practicable 
opportunity for on-site compensation. In addition, under exceptional 
circumstances, the Corps of engineers will accept wetlands preservation 
as mitigation; although, the acreage required by be higher than if 
wetlands creation, enhancement or restoration is proposed.
    Question 4. The EPA's GPRA called for 100,000 new acres of wetlands 
per year; how does the Agency propose accomplishing this?
    Answer. Consistent with the President's Clean Water Action Plan 
released earlier this year, the goal of achieving a net gain of 100,000 
acres of wetlands per year by 2005 will be accomplished by ensuring 
that wetland losses continue to decline while encouraging the use of 
restoration initiatives in Federal programs in coordination with State 
and private partnerships. Under Section 404 of the Clean Water Act, 
appropriate and practicable compensatory mitigation is required for 
unavoidable adverse impacts which remain after all appropriate and 
practicable minimization has been required.
    In addition to the EPA's efforts, some important programs in other 
Federal agencies will also help to achieve the goal of a net increase 
of wetlands acreage by 2005. The Wetlands Reserve Program, for example, 
has set out to restore 975,000 acres by 2002, with additional gains 
expected from the Conservation Reserve Program and the Partners for 
Wildlife program. The restoration provisions contained in the North 
American Wetlands Conservation Act are also expected to leverage 
additional gains in wetlands acreage. Finally, public-private 
partnerships led by Ducks Unlimited and Partners in Flight will provide 
important wetland acreage gains as well.
                                 ______
                                 
      Responses by J. Charles Fox to Questions from Senator Allard
    Question 1. What activities is the Office of Water undertaking to 
ensure full implementation of a Performance Based Measurement System 
(PBMS) in accordance with the directive issued by Deputy Administrator 
Fred Hansen? Can you inform the committee when the Office of Water 
expects to release its implementation plan?
    Answer. The Office of Water, in cooperation with the Office of 
Enforcement and Compliance Assistance, is developing a Performance 
Based Measurement System (PBMS) Implementation plan that will allow use 
of any method that is validated to meet program- or project-specific 
performance criteria and which removes the requirement to use approved 
methods, except for method-defined analyses. The approach meets EPA's 
PBMS goals, and Deputy Administrator Fred Hansen approved it during an 
August 7, 1998 meeting.
    The Office of Water will implement the PBMS plan through a final 
rulemaking package that will be published in the Federal Register by 
the end of the calendar year. A summary of the plan will soon be placed 
on the Internet on the home page of the Office of Science and 
Technology (OST) in the Office of Water.


         NOMINATIONS OF TERRENCE L. BRACY AND NORINE E. NOONAN

                              ----------                              


                      THURSDAY, SEPTEMBER 10, 1998

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:01 a.m. in room 
406, Senate Dirksen Building, Hon. John H. Chafee (chairman of 
the committee) presiding.
    Present: Senators Chafee, Warner, Baucus, and Graham.

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. I want to welcome everyone here this 
morning. I like to start on time; somebody once told me that 
more people will catch the train if it always leaves on time 
than if it leaves a bit late.
    The purpose of today's hearing is to consider two 
nominations.
    The first nomination is that of Mr. Terrence L. Bracy, to 
be reappointed as a member of the Board of Trustees of the 
Morris K. Udall Scholarship and Excellence in National 
Environmental Policy Foundation. That's a long one, isn't it?
    The second nomination is that of Dr. Norine Noonan, to be 
the Assistant Administrator for Research and Development at the 
Environmental Protection Agency.
    I am pleased to welcome everyone, and in particular our two 
nominees, Mr. Bracy and Dr. Noonan. I also welcome Senators 
McCain and Warner, who will introduce Mr. Bracy, and they will 
be along shortly. Senator Graham, who is a member of the 
committee, will introduce Dr. Noonan.
    It is my pleasure to report that both nominees have 
impressive backgrounds and are highly qualified for the 
positions before them. Terrence Bracy was initially appointed 
by President Clinton to the Board of Trustees of the Morris K. 
Udall Foundation in 1994, and has been nominated by the 
President to serve a second term on the Board. Mr. Bracy also 
was elected the first chair of the Foundation's Board. Mr. 
Bracy currently is chief executive officer of Bracy Williams & 
Co., a Washington-based consultancy with a clientele that 
includes Fortune 500 companies, major U.S. cities, Native 
American tribes, Asian and European concerns, and the U.S. 
Government. Prior to this position Mr. Bracy served in a number 
of capacities, including time as a legislative assistant to 
Congressman Udall from 1966 to 1976. In this position he played 
an important role in the passage of the Alaska Native Claims 
Act; the Campaign Reform Acts of 1971 and 1974; and numerous 
other environmental bills.
    In addition, Mr. Bracy holds an undergraduate degree from 
St. Louis University and a Master of Arts degree in Government 
from the University of Arizona, and has been published in many 
well-respected journals and has appeared as a guest lecturer at 
the Brookings Institute and at Harvard University.
    The Morris K. Udall Scholarship and Excellence in National 
Environmental Policy Foundation was established by Congress in 
1992 as a nonprofit organization committed to educating a new 
generation of Americans to preserve and protect their national 
heritage by the recruitment and preparation of individuals 
skilled in effective environmental public policy and conflict 
resolution. Thus far, 125 undergraduate students throughout the 
United States have been named Morris K. Udall Scholars and have 
been awarded scholarships of up to $5,000 a piece. Just this 
year, the Foundation has been given a new mission by the 
Environmental Policy and Conflict Resolution Act of 1998. The 
Foundation will serve as an executive branch resource to solve 
important environmental disputes without resorting to 
litigation.
    Dr. Noonan is nominated to be the EPA's Assistant 
Administrator for Research and Development. The Assistant 
Administrator for R&D serves as the principal science advisor 
to the Administrator of EPA, and is responsible for the 
development, direction, and conduct of national research 
development and demonstration programs in a series of areas, 
including pollution sources and health and welfare effects.
    In addition, the person in this position advises the 
Administration on pollution prevention and control, waste 
management, utilization technology, environmental sciences, and 
monitoring systems.
    Dr. Noonan has an impressive background. Since 1992 she has 
served as dean of the Graduate School and is currently vice 
president for Research at Florida Institute of Technology, 
Melbourne, FL. From 1987 to 1992 Dr. Noonan was Chief of the 
Science and Space Programs Branch of the Energy and Science 
Division, Office of Management and Budget, OMB. In addition, 
she served as American Chemical Society Congressional Service 
Fellow for the Senate Commerce Committee. She received her B.A. 
summa cum laude in zoology from the University of Vermont, and 
her M.A. and Ph.D. degrees in cell biology from Princeton. She 
is a member of the American Association for the Advancement of 
Science, American Society for Cell Biology, Sigma Xi, and Phi 
Beta Kappa.
    Both of these positions pose challenges. I am confident 
that each is prepared to face what is required of each of them. 
I look forward to today's hearing.
    After the statements of Senator Baucus and other committee 
members, we will hear from Senators McCain, Warner, and Graham, 
followed by Mr. Bracy and Dr. Noonan.
    Senator Chafee. Senator Baucus.

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Thank you very much, Mr. Chairman. I join 
you in welcoming Mr. Bracy this morning who has been nominated 
to serve a second term on the Udall Foundation Board. I believe 
this demonstrates Mr. Bracy's commitment to the Foundation and, 
I presume, his admiration and his respect for his former boss, 
our former colleague, Mo Udall.
    As the great champion for so many environmental issues, it 
is only fitting that the Foundation continue its work with the 
help of one of Mo's most trusted aides. The Foundation was 
established to educate a new generation of Americans to 
preserve and protect our national heritage, no small matter.
    Based on the successful performance of the Foundation, last 
year this committee passed a bill creating the United States 
Institute for Environmental Conflict Resolution within the 
Foundation to help resolve environmental conflicts when the 
Federal Government is a participant in the conflict.
    We look forward to your testimony, Mr. Bracy. We know 
you've done a good job already. Maybe you can give us a few 
thoughts about what's been working, what you're working on, and 
your assessment of the work of the Foundation to date. We're 
glad that you're here.
    I also join in welcoming Dr. Noonan, the President's 
nominee to be Assistant Administrator for Research and 
Development at EPA.
    Dr. Noonan has a very impressive resume, ranging from 
Assistant Professor of Veterinary Medicine to Budget Analyst 
for Science and Space Programs at OMB. I am anxious to hear how 
one goes from veterinary medicine to space.
    [Laughter.]
    Senator Baucus. Your experiences certainly give you a broad 
base of knowledge, which I view as critical in assuming the 
position for which you have been nominated.
    The EPA is responsible for making so many decisions based 
on science, or what is now being referred to as ``peer-
reviewed,'' or ``sound science,'' which makes your job a 
critical one. Determining the agency's research priorities for 
drinking water, for air, for hazardous waste, while complying 
with the law, will be a challenge. I am anxious to hear your 
testimony and your ideas, and I meant what I said about the 
importance of your position, particularly in research in 
science, which is probably the underpinning of almost 
everything that we do--not only in EPA, but in environmental 
law. Frankly, I admire your courage and admiration for taking 
on such a challenging job.
    Thank you.
    Senator Chafee. Thank you, Senator Baucus.
    Senator Bob Graham.

  OPENING STATEMENT OF HON. BOB GRAHAM, U.S. SENATOR FROM THE 
                        STATE OF FLORIDA

    Senator Graham. Thank you, Mr. Chairman.
    I am particularly pleased today to have the opportunity to 
introduce a fellow Floridian, Dr. Norine Noonan, who the 
President has nominated to be the Assistant Administrator for 
Research and Development at the Environmental Protection 
Agency. Ms. Noonan is joined today by her godson, Alexander 
Kemnitzer, who is here, and I would like to recognize him; 
Alexander has taken the day off from school in order to join us 
here today, and I appreciate his doing so.
    Mr. Chairman and Senator Baucus, you have already given a 
substantial amount of Dr. Noonan's biography. I will not be 
repetitive, other than to say how proud we are that she is a 
Floridian and has spent a considerable amount of her academic 
career at institutions in our State, currently serving as vice 
president for Research and dean of the Graduate School at 
Florida Institute of Technology in Melbourne, FL.
    She does, as Senator Baucus has said, take on a very 
important position. There is no phrase that is more used in 
this committee than ``good policy based on good science,'' and 
we will be depending in large part on Dr. Noonan and her 
colleagues to provide us with that good science.
    I am very pleased the President has made this wise 
decision, and I hope that this committee will quickly confirm 
her nomination.
    Senator Chafee. Thank you very much, Senator Graham.
    Senator John McCain--we welcome you, Senator McCain. I 
believe you have a statement.

 STATEMENT OF HON. JOHN McCAIN, U.S. SENATOR FROM THE STATE OF 
                            ARIZONA

    Senator McCain. Thank you very much, Mr. Chairman, Senator 
Baucus, Senator Graham.
    I am pleased this morning to introduce you and your 
colleagues to Mr. Terry Bracy, who is accompanied by his wife, 
Nancy, for the purpose of your approval of his nomination for 
reappointment to the Board of the Udall Foundation.
    Mr. Chairman, I have known Terry since my election to the 
House in 1982. He was a key aide and advisor to my good friend 
and former colleague, Mo Udall, a man who was so respected and 
admired by the Congress that when he had to retire because of 
the ravages of Parkinson's Disease, we established an 
educational foundation in his name to carry on a legacy of wise 
environmental policy and opportunities for Native American 
leadership training and education.
    Terry was elected chair of the Foundation's Board in 1994 
and he has done such an exceptional job that when we developed 
the legislation creating the U.S. Institute for Environmental 
Conflict Resolution, we placed the Institute within the Udall 
Foundation because we knew it would succeed with Terry's 
leadership.
    The Morris K. Udall Foundation is a success story. The 
Udall Foundation operates on a shoestring, with a staff of only 
three; but in the last 3 years they have awarded 200 college 
scholarships and 4 graduate scholarships; created the first 
ever Native American Congressional Internship Program which has 
served 32 Native Americans, some of whom are now in key 
leadership positions in their tribes; sponsored three major 
national hearings on the environment and Indian health issues; 
and helped create the U.S. Institute for Environmental Conflict 
Resolution from scratch. This could only have been done with a 
very active and dedicated Board of Trustees under keen 
leadership.
    Mr. Chairman, Terry Bracy has put his heart into the Udall 
Foundation, offering his considerable expertise and resources--
and, of course, at no cost to the taxpayers. I can't give a 
more meaningful tribute to Terry than to say that I am sure 
that if Mo Udall were sitting here now, he would tell you that 
he is proud of the work Terry has done on his behalf and would 
urge you to make this reappointment, and I agree.
    I thank you, Mr. Chairman.
    Senator Chafee. Thank you, Senator McCain. Now, I know you 
have further appointments, as I believe Senator Graham has, so 
feel free to move on to those if you so choose.
    Now, if each of the nominees will please come forward, Mr. 
Bracy and Dr. Noonan.
    I believe, Mr. Bracy, you have your family with you, do 
you?
    Mr. Bracy. Yes. I have my wife, Nancy.
    Senator Chafee. All right. We welcome you, Mrs. Bracy.
    Do you have a statement, Mr. Bracy?

 STATEMENT OF TERRENCE L. BRACY, NOMINATED BY THE PRESIDENT TO 
  BE REAPPOINTED AS A MEMBER OF THE BOARD OF TRUSTEES OF THE 
    MORRIS K. UDALL SCHOLARSHIP AND EXCELLENCE IN NATIONAL 
                ENVIRONMENTAL POLICY FOUNDATION

    Mr. Bracy. Senator Chafee, Senator Baucus, Senator Graham, 
I have a written statement which is available to you. Let me 
summarize it quickly, if I may.
    Senator Chafee. Fine.
    Mr. Bracy. First of all, I want to thank Senator McCain for 
that wonderful introduction--probably not as deserved as it 
could be, but I think we have been successful. It's been a 
wonderful experience. I love Mo Udall; he's very much like a 
father figure to me, and this has been a wonderful way to pay 
him back and at the same time contribute something to the next 
generation.
    I also want to thank the members of this committee for 
their involvement in the Foundation. Several members of this 
committee, and particularly Senator Baucus, have taken a real 
interest in our Native American youngsters.
    Senator Baucus, you will be interested to know that 
Margaret Flores, who I believe was the first Udall Native 
American scholar to be mentored in your office, came back to 
Washington State to represent the Pascua Yaqui tribe. Recently, 
she has since won a scholarship to law school.
    So we are seeing a real pattern of development in all these 
Native American interns, and it's a wonderful thing.
    Senator Chafee, thank you and your staff for the 
involvement with the U.S. Institute. We received a lot of 
guidance from your staff; we worked closely with them in 
developing this program.
    Briefly, the Udall Foundation is both like the Goldwater 
and Truman Foundations, and unlike them. It is like them in 
that we're an educational institution. We have a series of 
programs, already described by Senator McCain. A few amendments 
to that; we have now awarded 220 scholarships. This program of 
juniors and seniors going into the environmental field has 
become one of the most popular scholarships in the Federal 
family. I'd like to think it's because of our brilliance, I 
really think it's attributable to the power of the 
environmental issue for the next generation.
    An interesting statistic on that. Of our scholars--and I 
wouldn't have guessed this--about 70 percent are women, and of 
the women, about 70 percent of the women are science majors. 
This demographic is indicative of the rich and profound change 
our society is undergoing.
    The Native American Internship Program has been mentioned. 
It's been enormously successful. Half the interns serve in 
Democratic offices, half in Republican. We get three slots at 
the White House. It's been warmly received.
    We are launching a new program this year called ``Parks in 
Focus,'' where we will target younger children in the center 
cities. We have partnered with Canon and Kodak, and we're going 
to take them out--with the help of Boys and Girls Clubs, the 
National Park Service, and the National Parks--for long 
weekends, give them cameras, have photography contests back in 
their schools, and so on. It's a wonderful program.
    Senator Chafee. Mr. Bracy, I wonder if--Senator Warner is 
here, and I just want to let him make his statement because he 
has to chair a Rules Committee hearing in just a few minutes.
    So, Senator?
    Senator Warner. Thank you, Mr. Chairman. I can speak very 
quickly.
    I have known the candidate for a long time.
    I ask that my statement be placed in the record.
    [The prepared statement of Senator Warner follows:]
Statement of Hon. John W. Warner, U.S. Senator from the Commonwealth of 
                                Virginia
    The Morris K. Udall Scholarship and Excellence in National 
Environmental Policy foundation was established in Congress in 1992 to 
honor Morris Udall's 30 years of service in the House of 
Representatives. The Udall Foundation is a non-profit organization 
committed to educating a new generation of Americans to preserve and 
protect their national heritage by the recruitment and preparation of 
individuals skilled in effective environmental public policy conflict 
resolution, as well as issues related to Native Americans.
    Before us today is Terrence L. Bracy renominated to be on the Board 
of Trustees for the Morris K. Udall Foundation Scholarship and 
Excellence in National Environmental Policy. As he has served for the 
last 4 years as Chair of the Morris K. Udall Foundation's Board of 
Trustees and had the privilege to serve under Morris K. Udall for 10 
years, I find him unequally qualified for this reappointment.
    Congressman Udall is known as a man whose career was marked by 
civility, integrity and consensus. Terry Bracy follows in the footsteps 
of his previous boss.
    Terry Bracy will continue as a member of the board of trustees to 
focus on increasing recognition of environmental issues, granting 
undergraduate scholarships for majors in fields related to 
environmental public policy and to Native Americans and Alaskan natives 
in fields relating to public policy on Indian reservations. Terry is 
well acquainted with the issues facing the Alaskan natives, as he 
worked on the Alaska Native Claims Act, while serving as a legislative 
assistant for Morris Udall.
    Under Terry Bracy's management, I believe that the Morris K. 
Udall's foundation will continue to identify students in need of 
college scholarships, fellowships and internships to further this most 
worthy foundation's goals.
    <bullet> Terry Bracy is a resident of McLean, Virginia.
    <bullet> Wife--Nancy Bracy--children--Michael, 30 years old and 
Timothy, 24 years old.
    <bullet> CEO; Bracy Williams & Company; Washington, DC; 1982--
present.
    <bullet> Government Affairs Consultant; Alcalde, Henderson O'Bannon 
& Bracy; Washington, DC; 1977-1979.
    <bullet> Legislative Assistant; Representative Morris K. Udall; 
Washington, DC; 1966-1976.

    Senator Warner. I had the privilege of sharing a bit of 
life with this distinguished person whom we honor today in this 
Foundation, and listening to your report, I'm glad that it's 
become a viable and a constructive organization and contributes 
to the greater welfare.
    My only urging is to reproduce that book, the humor that he 
had, and see if there's any scrap of it left that is 
unpublished and get that out. We need a little humor on the 
Hill.
    [Laughter.]
    Senator Warner. Thank you, Mr. Chairman.
    Senator Chafee. OK, fine. Thank you.
    All right, Mr. Bracy. Thank you for letting him go. Why 
don't you continue? You were talking about giving these 
youngsters cameras.
    Mr. Bracy. What we're trying to do with our educational 
programs is have sort of life-changing experiences for these 
kids. For the Native American kids, the juniors and seniors in 
college going on to environmental careers, and now the younger 
group, particulary the kids in the core cities. Mo always felt 
that if you could somehow reach in to the core cities and give 
these youngsters a feel for the environment at an early age, 
that it could have a life-influencing effect. So we're trying 
to do that.
    We also do conferences. We have national conferences every 
year. For example, this October we will have probably the 
largest national conference ever assembled on Native American 
health care, looking toward the era of privatization.
    All these things we do, but we also, as you know, are 
launching in October, Senator Chafee, based on S. 399 which 
this committee authored and sent to us, a new Mediation Center 
for Environmental Conflict within the Federal Government--a 
place inside the Federal family but outside the Beltway, 
actually located in Tucson, where we'll try to help settle some 
of these environmental disputes that are raging in the courts 
but have clogged things up and aren't moving.
    I described our management process leading up to the 
opening of this to your staff yesterday. It's been quite a 
management exercise; I've never put together a Federal agency 
before, and hope I never will again. But in any event, it's an 
exciting possibility----
    Senator Chafee. You mean this conflict resolution effort?
    Mr. Bracy. Yes, sir. This will begin in October, assuming 
our funding comes through, which is expected. We are ready to 
go in October. It will take us about 3 months to gear up with 
our full-time staff, but we will be ready to go, and we will be 
in full operation by January of next year.
    Can these conflicts be solved? What percentage of them can 
be solved? I don't know. I can only report to the committee 
that we are not yet open for business, but they are lined up at 
the door. Indian tribes, Federal agencies, State agencies, 
several big utilities, and so on, are all asking for our 
services before we can even provide them. So this may be an 
indication that the committee was correct in anticipating this 
need.
    Let me stop there. You have another nominee. You have heard 
enough from me. I am here and happy to answer any questions.
    I just want to say again that it is a real privilege and an 
honor to walk a little bit in Mo Udall's shadow and to work 
with this committee on matters of real national interest. It's 
a great time for me, and for my wife, to do this kind of thing. 
I am really enjoying it. I hope that I've done a good job and 
that you'll give me a chance to continue.
    Thank you.
    Senator Chafee. Thank you.
    All right. What I'd like to do now is have Dr. Noonan, and 
then if we get any questions, we will ask either or both of 
you.
    Dr. Noonan, if you have a statement, go to it.

STATEMENT OF NORINE E. NOONAN, NOMINATED BY THE PRESIDENT TO BE 
     ASSISTANT ADMINISTRATOR FOR RESEARCH AND DEVELOPMENT, 
                ENVIRONMENTAL PROTECTION AGENCY

    Ms. Noonan. I do, Senator, and I submitted it to the 
committee for the record. Let me summarize rather briefly.
    Let me first thank you very much for this opportunity to 
present myself and my qualifications for this position of 
Assistant Administrator for Research and Development at EPA. I 
am very deeply honored to have been nominated by the President 
for this position, and I very much understand the importance of 
this position in assuring that sound science, and highest 
quality science, is done in the service of environmental 
protection. It is with great humility and a sense of great 
responsibility that I undertake this job.
    I want to just expand a little bit on what you have already 
been so kind to say about my resume. Once I completed my 
doctorate in cell biology at Princeton, I accepted a position 
as a charter faculty member at the College of Veterinary 
Medicine at the University of Florida. I have to say at this 
point, ``Go, Gators.''
    My research centered on the process that changed normal 
cells to malignant cells. I was a successful researcher and 
teacher at U.F., and I'm most proud to tell you that one of my 
very first students has become the first University of Florida 
graduate to be elected president of the Florida Veterinary 
Medical Association.
    When I came to Washington because of family circumstances, 
and as a result of my lifelong interest in public policy, I 
sought and was offered an opportunity to work on Capitol Hill 
as an American Chemical Society Congressional Science Fellow. 
In fact, I worked in the Russell and Hart Senate Office 
Buildings for the Senate Commerce Committee, so this appearance 
brings me back to familiar territory.
    After that year on the Hill, I moved to OMB. In 1987 I was 
promoted to Branch Chief for Science and Space. In this job I 
had budget responsibility for all of NSF, all of NASA, several 
smaller agencies, and the task of being the lead person for 
preparing all the analyses for the President's budget on 
Federal R&D.
    My former branch continues to have those responsibilities, 
as well as the responsibility--which we started--of 
coordinating interagency R&D efforts in a wide variety of 
areas, including high performance computing and communications; 
science and math education; and the U.S. Global Change Research 
Program.
    For the past 6 years I have been a university administrator 
and, once again, a faculty member at a research university. I 
have the responsibility in its entirety for research on my 
campus, including technology transfer, and I now have firsthand 
knowledge of how Federal agencies deal with universities as 
performers of R&D.
    I also have ``cradle to grave,'' responsibility for nearly 
1,000 graduate students on our main campus, about 30 percent of 
whom are doctoral students, and over 1,000 more at our off-
campus graduate centers around the country, including one here 
in the Washington, D.C. area.
    This position has allowed me to be intimately involved with 
the important process of fostering the linkage between research 
and graduate education, and in participating first-hand in a 
system that is the envy of the world. It is a system which 
produces not only our Nation's future scholars and innovators, 
but a significant percentage of the world's scholars and 
innovators.
    And I would like to say here that the increased emphasis 
that ORD has placed on supporting this education process by 
starting a graduate fellowship program and by expanding the 
recruitment of postdoctoral researchers for its internal 
research enterprise is, in my view, of great importance to 
maintaining ORD's long-term future as a leader in core and 
problem-driven environmental research.
    I am proud to say that I played a small part in the early 
stages of the Graduate Fellowship Program, and from what I have 
observed, it is progressing in an extremely positive direction.
    For the past 6 years I have also had the honor to serve on 
several study committees of the National Research Council. I 
want to mention just a couple of these.
    On the Committee for Antarctic Science and Policy, we dealt 
with the appropriate balance between scientific research and 
environmental protection in the context of the Antarctic 
Environmental Protocol. Our committee's work, I am pleased to 
say, played a role in supporting the implementing legislation 
that enabled the protocol to enter into force.
    I also served on the Committee to Develop an Environmental 
Management Science Program. We assisted the Department of 
Energy in developing this basic research program to help the 
Department underpin its massive cleanup effort. The role of 
EMSP, is in some ways, like the role of ORD. EMSP was created 
to support high-quality basic research in the service not of 
regulation, but of remediation. It was and is essential that 
the highest-quality basic research be supported by EMSP, but it 
was also essential, especially in those early days, that the 
stakeholders, both inside and outside of DOE, be involved with 
the development of EMSP's general strategies and priorities.
    Mr. Chairman and members of the committee, if confirmed, I 
will inherit a very sound and healthy organization. I've had 
the opportunity over the past several weeks to meet with some 
of the ORD personnel, and I'd like to tell you how impressed 
I've been with their knowledge, their professionalism, and 
their dedication. Much of the credit for this goes to my 
predecessor, Dr. Robert Huggett. He not only did a lot of 
``heavy lifting'' in instituting a formal strategic planning 
process, but in reorganizing the ORD laboratories under a risk 
assessment/risk management paradigm.
    As I have observed, the ORD strategic planning process is 
closely linked to the overall EPA planning process, and to 
GPRA, the Government Performance and Results Act. In addition, 
ORD is working hard to enhance not only its own internal 
research capabilities, but, through its supportive 
universities, to involve the Nation's best and brightest 
scientists and engineers in ORD's programs.
    In my opinion, it is essential that we continue on this 
positive path. If confirmed, I would make it my goal to do so. 
ORD's own ecological niche is to advance knowledge with a 
purpose. We must include in that portfolio a strong base of 
long-term core research to develop broadly applicable tools and 
information. ORD must also have research programs to address 
shorter-term problem-driven issues, motivated in many cases by 
current or pending regulation.
    This balanced portfolio strategy has been recommended by 
the National Research Council. One example of this balanced 
strategy in action is the issue of Children in the Environment. 
As one major element of that program, I understand that ORD is 
collaborating with the National Institutes of Health and has 
just funded eight Centers of Excellence in Children's 
Environmental Health at leading research institutions. These 
Centers will bring together the talents of some of the Nation's 
leading researchers in public health and environmental science, 
and will also actively involve communities and community 
groups.
    Mr. Chairman and members of the committee, there are 
several themes I want to outline for you briefly that must 
continue to characterize ORD's mission:
    No. 1, the highest quality science and a strong and stable 
long-term program of core research; No. 2, a problem-driven 
research program, with its priorities set in close cooperation 
with the regulatory offices; No. 3, development and maintenance 
of an outstanding cadre of scientists inside EPA; and No. 4, 
close collaboration with other agencies, universities, and the 
private sector.
    For myself, if confirmed, I will only do what my late 
parents asked of me, my best. It is time, I believe, to cement 
the institutional and organizational changes that have been 
made, and to involve all of ORD's people, as well as as many of 
our external stakeholders as possible, in the next round of 
strategic planning.
    In my opinion, ORD has vitally important work to do in 
helping to address and identify, through research, the 
environmental issues our Nation and the world face. If 
confirmed, I would be committed to making ORD an organization 
that bright young scientists want to work in, where 
intellectual excitement and commitment to important national 
goals are inextricably woven into the fabric of what we do 
every day.
    If confirmed, I look forward to working with you and your 
colleagues and your staff to achieve these goals, and I would 
be pleased to answer any questions you might have.
    Thank you.
    Senator Chafee. Thank you, Dr. Noonan.
    Are you willing, at the request of any duly constituted 
committee of Congress, to appear in front of it as a witness?
    Ms. Noonan. Absolutely, sir.
    Senator Chafee. Do you know of any matters which you may or 
may not have thus far disclosed which might place you in any 
conflict of interest if you are confirmed?
    Ms. Noonan. No, sir, I do not.
    Senator Chafee. I believe in this ORD, the position you 
have been nominated for, and just as others have said here, so 
often we are asked, ``Are the programs which we are talking 
about based on sound science?''
    Does your work lead you into consideration of the global 
warming problems that I think are upon us, but many don't think 
can be justified, that any action, really, is required?
    Ms. Noonan. Senator, EPA is an active participant in the 
U.S. Global Change Research Program, which has a broad 
portfolio of research activities aimed at answering a lot of 
questions about the global environment, including the issue of 
global warming. The program involves about 12 agencies; EPA is 
an active player. Yes, sir, we do have a good portfolio of 
research and of very active scientists involved in those 
research programs.
    Senator Chafee. Well, I hope you will give your personal 
attention to those matters.
    Ms. Noonan. I certainly shall.
    Senator Chafee. I am deeply disturbed over the fact that 
many in the Congress believe that there's nothing there, that 
there's nothing to it, that all the CO<INF>2</INF> that's being 
spewed into the atmosphere doesn't really make any difference. 
I tend to believe it does. But there's nothing like having some 
scientific evidence to support the views that one has.
    Mr. Bracy, you mentioned that you're getting geared up for 
this conflict resolution effort. Now, you hang your hat right 
here in Washington?
    Mr. Bracy. I go back and forth. We have hired a director, 
Dr. Kirk Emerson, who is a mediation specialist. I live here, 
but I go back and forth to Tucson quite frequently.
    Senator Chafee. It's hard for many people to realize that 
Mo Udall is still alive. He's bedridden, in effect, is he?
    Mr. Bracy. It's very sad.
    Senator Chafee. It's Parkinson's, is it?
    Mr. Bracy. It's the last stages of Parkinson's Disease. It 
isn't pretty.
    Senator Chafee. Well, most of us saw him in his prime. I 
can remember when he came, I believe, within one vote of being 
elected majority leader, didn't he?
    Mr. Bracy. Yes, sir. Very close.
    Senator Chafee. And he had some views on that result, too.
    [Laughter.]
    Senator Chafee. Well, I commend you for taking on this.
    I have to ask you the same questions that I asked of Dr. 
Noonan, namely, are you willing, at the request of any duly 
constituted committee of Congress, to appear in front of it as 
a witness?
    Mr. Bracy. Yes, sir.
    Senator Chafee. Do you know of any matters which you may or 
may not have thus far disclosed which might place you in any 
conflict of interest if you are confirmed?
    Mr. Bracy. I know of none.
    Senator Chafee. And you, sir, you get no salary? All you 
get is your expenses, air transportation, so forth?
    Mr. Bracy. Yes, sir. Middle seats, usually.
    [Laughter.]
    Senator Chafee. Middle seats?
    Mr. Bracy. Middle seats.
    Senator Chafee. Except if a Congressperson is occupying 
them.
    [Laughter.]
    Senator Chafee. Well, I want to thank you for what you're 
doing. I'm interested in this conflict resolution. There was a 
professor at Harvard Law School who has been rather active in 
this. It's encouraging to find out that there are a lot of 
people waiting for you to get started; in other words, you're 
going to have some business when you open your doors.
    Mr. Bracy. I've been amazed, Senator, by the response to 
this. There have been a number of newspaper articles--we 
haven't rushed out to seek a lot of publicity because it's not 
necessary, but the New York Times and the Washington Post and 
other major news organizations have now caught on to this, so 
there have been a few big articles in the news media. The 
response has just been amazing from people who are interested 
in it, and organizations that might want to be involved. As I 
say, potential clients are lined up at the door.
    So I can only conclude that the committee was correct in 
its assessment that the legal system needs help. I hope we can 
succeed. We will work closely with you and your staff. It's a 
new area. We're plowing new ground, but we hope we can make 
some progress.
    Senator Chafee. I have only one suggestion in connection 
with your annual report. Maybe you publish another report that 
goes along with it, but I couldn't see any financial data in 
here----
    Mr. Bracy. I think on the back page, Senator.
    Senator Chafee. Well, have I got the right one?
    Mr. Bracy. Yes, I believe there is financial data, perhaps 
on the last page, the cover page--I don't have it in front of 
me.
    Senator Chafee. Oh, I've got a different one.
    Mr. Bracy. Senator, perhaps I can give you a short summary. 
Our corpus was authorized at $40 million, but Congress gave us 
$19 million to start.
    Senator Chafee. OK.
    Mr. Bracy. We have had a 10 percent reinvestment program, 
and in addition, Congress liked our scholarship program and 
gave us an additional $1.75 million for it last year, so we are 
at about $24 million in our corpus right now. That's Account A, 
which is an education trust fund account. That's all invested 
in Treasuries.
    The new bill which you approved, Senator, S. 399, created a 
second account for us, which is Environmental Conflict 
Resolution. You gave us an initial capital investment of $3 
million for staff, equipment, etc., plus $1.25 million for 5 
years. And you gave the other Federal agencies contract 
authority to hire us for services--EPA, for example, to pay for 
the services. Hopefully, it's somewhat like the concept that 
you created in other bills to replenish an existing fund.
    Senator Chafee. Right.
    Mr. Bracy. That's how we are managing it. That's how we 
expect it to operate. I may be back 2 years from now to tell 
you that it didn't work exactly as we thought, but hopefully it 
will.
    Senator Chafee. How do your fellow Trustees get selected?
    Mr. Bracy. The process is all Presidential appointments, 
but with the Senate having two appointees and the House having 
two appointees which they recommend to the President, and he 
then appoints. I was recommended by the House of 
Representatives for my initial appointment; I was recommended 
initially by Speaker Foley, subsequently by Speaker Gingrich 
and Minority Leader Gephardt, to the President. The President 
renominated me.
    Senator Chafee. I see.
    OK. Well, thank you both very much. I would like to move 
these along as quickly as possible.
    Ms. Noonan. Thank you, Mr. Chairman.
    Senator Chafee. I appreciate your both coming. Thank you 
very much.
    Ms. Noonan. Thank you, sir.
    Mr. Bracy. Thank you.
    [Whereupon, at 9:43 p.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
Statement of Terrence L. Bracy, Nominated to be Member of the Board of 
               Trustees of the Morris K. Udall Foundation
    Mr. Chairman and members of the committee, I am pleased and honored 
to be nominated for another term on the Board of Trustees of the Morris 
K. Udall Foundation. Since beginning its active life 4 years ago, I 
have had the privilege of chairing a Foundation which carries on the 
vision of one of the greatest public servants this century has known--
Mo Udall. While awarding Mo the Medal of Freedom, President Clinton 
said:
    ``His landmark achievements such as reforming campaign finance, 
preserving our forests, safeguarding the Alaskan wilderness, and 
defending the rights of Native Americans were important, indeed. But he 
distinguished himself above all as a man to whom others--leaders--would 
turn for judgment, skill and wisdom. Mo Udall is truly a man for all 
seasons and a role model for what is best in American democracy.''
    Unfortunately, Mo is immobilized by Parkinson's disease and was 
unable to be present to hear such praise. Yet even though he has been 
out of the public eye since 1991, his reputation seems to grow. The 
Foundation receives communications and inquiries from all over the 
country seeking information about a man people obviously miss and whose 
core values of civility, integrity, and consensus they seek. He has 
charted a path the Foundation has tried faithfully to follow.
    During 30 years in Congress, Mo Udall was a champion of better and 
more responsive government and of the environment, a man of honor and 
vision. He was also my mentor and friend. So it has been a singular 
honor and matter of great pride to chair the Foundation that bears his 
name.
    Senators will recall that the Udall Foundation is both similar to 
and different from its predecessors in the Federal family: the Truman, 
Madison, and Goldwater Foundations.
    We are similar in that we are educational entities that award 
college scholarships, fellowships and internships to further public 
goals. The Udall Foundation's focuses are the environment and Native 
American affairs.
    We differ in that our Foundation was given a broader mandate--but, 
unfortunately, less money--than the others. Congress also told us to do 
policy work in the areas of Native American health care and 
environmental conflict resolution, to hold annual conferences on 
important national issues and to work with the Udall Center at the 
University of Arizona to generate new research in our fields. Congress 
authorized $40 million for these purposes, but appropriated only $19 
million for beginning activities. Four years later, our corpus has 
grown to almost $24 million because of a 10 percent reinvestment 
program and an additional appropriation by Congress last year of $1.75 
million. Since our establishment, we have accomplished the following:
    <bullet> The Foundation has awarded 220 scholarships to college 
juniors and seniors planning careers in the environment or Native 
American health care. Interest in Udall scholarships has grown rapidly, 
and today more than 1,200 colleges and universities participate. The 
demand is such that the Board would like to raise the annual number of 
awards from 75 to 100 and the stipend from $5,000 to $7,500.
    <bullet> We have initiated the first Native American Congressional 
internship program. This year we graduated and sent back to their 
tribes the third class of Udall interns with an enriched knowledge of 
Congress and the executive branch. Congressional interns, all of whom 
are college graduates, are split evenly between Republican and 
Democratic offices; three slots have been made available at the White 
House. Interns are lodged at George Washington University and are 
provided a per diem and, upon successful completion of the program, a 
stipend of $1,200. The program also provides regular counseling, travel 
to historic sites and special meetings with national leaders. The 
evidence thus far suggests that our graduates are having a dramatic 
impact on their tribes.
    <bullet> The Foundation has begun a program to support top doctoral 
candidates in their dissertation years. Last year, we began by 
authorizing the gift of $24,000 each to two of the Nation's leading 
graduate students after a national competition. The first year was 
judged a success, yielding two potentially publishable theses covering 
new ground in environmental research. The Board has decided to continue 
the program this year and expand it over time as our financial 
resources grow.
    <bullet> We have sponsored two widely reported national conferences 
on environmental issues, and another conference, this October, will 
focus on Native American health care.
    <bullet> The Foundation has conducted extensive preliminary 
planning for a program that will begin this year called ``Parks in 
Focus.'' In cooperation with the Boys and Girls Clubs, the National 
Park Service and two private concerns, Cannon and Kodak, we will take 
inner-city children into our national parks for long weekends. They 
will be given cameras and will engage in photography contests. Their 
photos then will be displayed in their schools. This effort with grade 
school children will supplement our educational programs which focus on 
college and graduate students.
    <bullet> Finally, we have undertaken a searching analysis of the 
methods of environmental conflict resolution and its possible use by 
Federal agencies. The Foundation's efforts included convening a large 
national conference on the subject and conducting simulations to test 
negotiating methods. We concluded in a report to this committee that 
this approach holds great promise, particularly in the settlement of 
lands disputes in the West.
    As the Chairman knows, our research led to a request by Senator 
John McCain that the Foundation undertake a formal role as the Federal 
mediator in environmental disputes. In consultation with the White 
House, Senator McCain introduced S. 399, which was subsequently 
approved by this committee and the full Senate and House and signed by 
President Clinton in January of this year. The law creates within the 
Udall Foundation a new Federal entity known as the U.S. Institute for 
Environmental Conflict Resolution.
    The Institute will be located with the Foundation in Tucson, 
providing a neutral site within the Federal establishment but outside 
the ``beltway'' where public and private interests can seek common 
ground and settle environmental disputes.
    The Institute is intended to give yet another boost to the growing 
environmental conflict resolution movement, to move away from a period 
of confrontation and litigation to a new area where we follow Mo 
Udall's lead and strive for consensus.
    It is not just an idea whose time has come. It is one that is long 
overdue.
    Environmental conflicts have escalated over the past decade, 
particularly over natural resources policy, public lands management and 
the regulation of public policy. Some 500 environmental lawsuits are 
filed in Federal courts each year, and an increasing number are being 
filed in State courts as the body of State environmental law grows. 
Federal agencies are increasingly involved as parties in these 
proceedings based on their role as public planners, managers, 
regulators and enforcers.
    What we are doing is putting together a new and simpler way to work 
out our problems. It should not only streamline the process but save 
money, as well.
    Pending funding, the Institute will be operational in October.
    Mr. Chairman, to head a Foundation named for Mo Udall has been one 
of the great privileges of my life. It is a most pleasurable if 
sometimes awesome and intimidating task. I hope my performance has 
lived up to his expectations and to yours. I would very much appreciate 
the opportunity to continue to serve.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

Statement of Norine E. Noonan, Nominated to be Assistant Administrator 
     for Research and Development, Environmental Protection Agency
    Mr. Chairman and members of the committee, thank you for this 
opportunity to present myself and my qualifications for the position of 
Assistant Administrator for Research and Development (ORD) of the 
United States Environmental Protection Agency. I am deeply honored that 
President Clinton has nominated me for this position.
    The position of Assistant Administrator for Research and 
Development is one of the principal science positions in our 
government. It is critical to our national goal of understanding, 
preserving and protecting our country's environment for the citizens of 
today and for future generations. It is, therefore, with great humility 
and with a sense of great responsibility that I appear before you ready 
to accept this task.
    Let me tell you a bit about myself. I am currently Vice President 
for Research and Dean of the Graduate School at Florida Institute of 
Technology. I am also a professor of Biological Sciences at that 
esteemed institution. My career has had three distinct phases. After 
complying my doctorate in cell biology at Princeton University, I 
accepted a position as a charter faculty member in the College of 
Veterinary Medicine of the University of Florida. My research centered 
on the process that turns mammalian cells from normal to malignant and 
how this process affects the membranes of the cell and nucleus. I was a 
successful researcher and teacher, receiving tenure and promotion. I am 
proud to say that several of my former veterinary students are 
themselves successful practitioners in the Melbourne area and one of my 
first students has just become the first University of Florida graduate 
to be elected president of the Florida Veterinary Medical Association.
    Family circumstances then brought me to Washington, DC in the early 
1980's. As a result of my lifelong interest in public policy, I sought 
and was offered an opportunity to work on Capitol Hill as an American 
Chemical Society Congressional Science Fellow. In fact, I worked in the 
Russell and then the Hart Office Buildings for the Senate Commerce 
Committee so this appearance brings me back to familiar territory. 
After that year on the Hill, I moved to the Office of Management and 
Budget as the budget analyst for the National Science Foundation. In 
1987, I was promoted to Branch Chief for Science and Space. In this job 
I had budget responsibility for all of NSF, NASA, and several other 
smaller agencies, as well as the lead role in preparing the analyses of 
all Federal R&D for the President's Budget. In addition, my branch had 
(and continues to have) a central role in reviewing and coordinating 
interagency R&D efforts in such widely varying areas as High 
Performance Computing and Communications, Science and Mathematics 
Education, and the U.S. Global Change Research Program. I am very 
familiar with all aspects of the budget development and deliberation 
process and with the need to set priorities within constrained 
resources. I have also developed a deep understanding of the entire 
Federal R&D establishment, particularly non-defense R&D activities, 
including environmental and human health R&D.
    For the past 6 years I have been a senior administrator and, once 
again, a faculty member at a research university. In this capacity, I 
have the responsibility for the entire research administration process 
on my campus, including technology transfer, and have first-hand 
knowledge of how Federal agencies deal with universities as performers 
of R&D. In addition to my responsibilities as Chief Research Officer, I 
have ``cradle to grave'' responsibility for nearly 1,000 graduate 
students on our main campus, about 30 percent of whom are doctoral 
students, and over 1,000 more at our off-campus graduate centers around 
the country. I have been intimately involved in fostering the linkage 
between university research and graduate education, and participating 
first hand in a national system that is the envy of the world, and one 
which produces not only our Nation's future scholars and innovators, 
but educates a significant percentage of the world's scholars and 
innovators. May I say here that the increased emphasis that ORD has 
placed on supporting this education process by starting a graduate 
fellowship program and by expanding the recruitment of post-doctoral 
students for its internal research enterprise is, in my view, of great 
importance to maintaining ORD's long-term future as a leader in core 
and in problem-driven environmental research. I am proud to say I 
played a small part in the early stages of the graduate fellowship 
program and, from what I have observed, it is progressing in a very 
positive direction.
    Over the past 6 years, I have also served on several study 
committees of the National Research Council. The work of two of these 
committees is worth noting here. On the Committee for Antarctic Policy 
and Science we dealt with the appropriate balance between scientific 
research and environmental stewardship in the context of the Antarctic 
Environmental Protocol. I am proud that our committee's work played a 
role in the passage of the implementing legislation that has enabled 
the Protocol to enter into force. I also served on the Committee to 
Develop an Environmental Management Science Program (EMSP). We assisted 
the Department of Energy in developing this research program to provide 
solid scientific underpinnings for its massive clean-up efforts. The 
role of EMSP is, in some ways, much like the role of ORD. EMSP was 
created to support basic research in the service, not of regulation, 
but of remediation. It was, and is, essential that the highest quality 
basic research be supported by EMSP, but it was also essential, 
especially in those early days, that the stakeholders both inside and 
outside of DOE be involved with the development of EMSP's general 
strategy and priorities. Like ORD, albeit on a smaller, more narrow 
scale, the EMSP represents science in the service of the agency's 
mission and has allowed DOE to approach many of its cleanup tasks on a 
firm scientific footing and move beyond what one of my committee 
colleagues termed, the ``muck, suck and truck'' cleanup philosophy.
    members of the committee, if confirmed, I will ``inherit'' a sound 
and healthy organization. I have had the opportunity to meet with some 
of the ORD personnel and have been very impressed with their knowledge, 
professionalism and dedication. Much of the credit for this situation 
goes to my predecessor, Dr. Robert Huggett, who did a lot of ``heavy 
lifting'' to develop a strategic plan that focuses R&D activities to 
address the greatest risks, to reduce uncertainty in risk assessment 
and to develop cost-effective approaches to risk prevention and 
management. Dr. Huggett also realigned the laboratory structure of ORD 
based on this risk assessment/risk management paradigm. As I have 
observed, the ORD strategic planning process is closely linked to the 
overall agency process and to GPRA. In addition, ORD is working hard to 
enhance not only its internal research capabilities but, through its 
support of universities, to involve the Nation's best and brightest 
scientists and engineers in ORD's programs.
    In my opinion, it is essential that we continue on this positive 
path and, if confirmed, I would make it my goal to do so. ORD's own 
``ecological niche'' is to advance knowledge with a purpose. ORD must 
include in its research portfolio a strong base of long term, core 
research to develop broadly applicable research tools and information 
on a variety of physical, biological, sociological, and economic 
processes. ORD must also have research programs to address shorter-
term, problem-driven issues motivated, in many cases, by current or 
pending regulatory activities. This balanced portfolio strategy has 
been recommended by the National Research Council. One example of this 
balanced strategy in action is the issue of children and the 
environment. A key research question that must be addressed is: to what 
extent are children a sensitive population? I understand that ORD has 
an extensive research program underway which will provide much needed 
information about the biological susceptibility and possible 
developmental effects of environmental hazards, such as pesticides, in 
children, as well as unique patterns of exposure of children to such 
hazards. As one major element of this program, I understand that ORD is 
collaborating with the National Institutes of Health to fund eight 
Centers of Excellence in Children's Environmental Health at leading 
research institutions. These centers will bring together the talents of 
some of the Nation's leading researchers in public health and 
environmental science, and will also actively involve communities and 
community groups. This is precisely the collaborative, coordinated 
approach that I believe has the greatest probability of yielding 
research that is both scientifically valid and useful to the regulatory 
process--no matter what the actual research results are.
    Mr. Chairman and members of the committee, there are several themes 
that must continue to characterize ORD's mission: (1) the highest 
quality science and a strong and stable long-term core research 
program; (2) a problem-driven research program with its priorities set 
in close cooperation with the client regulatory offices; (3) 
development and maintenance of an outstanding cadre of scientists 
inside EPA; and (4) collaboration with other agencies, universities and 
the private sector. These are not new. But I believe we must continue 
to pursue them because they are the right. For myself, if confirmed, I 
will do in this job only what my late parents asked of me: my best. 
It's time to cement the institutional and organizational changes that 
have been made and to involve all of ORD's people as well as many of 
our external stakeholders in the next round of strategic planning. In 
my opinion, ORD has vitally important work to do in helping to identify 
and address, through research, the environmental issues our Nation and 
the world face. If confirmed, I would be committed to making ORD an 
organization that bright young scientists want to work in, where 
intellectual excitement and commitment to important national goals are 
inextricably woven into the fabric of what we do every day. I thank you 
for the opportunity to appear before you today. If confirmed, I look 
forward to working with all of you, your colleagues, and your staff to 
achieve these goals.
    I'd be pleased to answer any questions you may have.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
 Responses by Norine Noonan to Additional Questions from Senator Baucus
    Question 1. During this committee's consideration of the Safe 
Drinking Water Act in the 104th Congress, sound science was discussed 
extensively and the EPA was directed to use sound science when 
developing standards for regulating contaminants in drinking water. Can 
you tell the committee how you define ``sound science'' and how you 
will ensure that sound science is the basis for the standards set by 
EPA?
    Response. In my view, ``sound science'' has three components: (1) 
quality, (2) relevance and (3) timeliness. First and foremost, the 
science that underpins any standards-setting process must be of the 
highest quality. If confirmed, I plan to ensure that the science 
performed in ORD and throughout EPA meets this criterion. I plan to 
accomplish this through the rigorous application of the peer review 
process. Second, relevance of the science to proposed standards is key 
to ensuring that the correct scientific questions are being addressed 
so that uncertainties in the standards-setting process are resolved to 
the extent possible. Last (but certainly not least), the scientific 
research for standards setting must be timely. This means that the 
science informs the decisionmaking processes and enables those 
decisions to be made based on the best available, relevant science. My 
personal goal, if confirmed, is to make sure that EPA's science is the 
soundest science available and that ORD is a true and valued partner in 
EPA's policymaking process.
    Question 2. Also in the Safe Drinking Water Act, the Congress 
directed the Agency to consider children and sensitive subpopulations 
when setting standards for drinking water contaminants, as opposed to 
the usual way of setting a standard based on the average adult male. As 
a scientist, can you explain for the committee the impact this 
provision has on protecting the health of those populations?
    Response. There is an growing body of scientific evidence that 
suggests that individual differences in metabolism, behavior and 
activity patterns, genetic makeup, physical environment, age or other 
factors may increase the risk posed by exposure to environmental 
agents. Within ORD, there is ongoing research designed to provide the 
information needed to assess how risk from exposure to environmental 
agents varies from person to person. The research focused on sensitive 
subpopulations is adding an important dimension to our understanding of 
this variability and the data from this research program will allow us 
to evaluate and, as appropriate, modify our risk assessment 
methodologies to better protect the health of those persons at highest 
risk.
    Question 3. In setting priorities within an agency with limited 
resources, often times it is the research and development budgets that 
are often at the bottom of the priority list because they are not of 
immediate concerns (sic). How do you intend to make research and 
development a priority within the agency?
    Response. It has been said that ``the future has no constituency.'' 
This statement might imply that ``the future,'' as represented by 
funding for research and development (R&D) activities might, indeed, be 
viewed as deferrable in times of limited resources. However, in my 
view, this is not a strategy that serves the Nation well. We must 
maintain our commitment to environmental research, otherwise we will 
lack the high-quality, relevant and timely knowledge on which to base 
future environmental policy decisions. Sound science must inform 
policymaking processes in both the present and the future.
    The ORD Strategic Plan identifies ``twin towers'' of core research 
and problem-driven research. If confirmed, I intend to maintain this 
approach since I believe that it is an excellent way of ensuring that 
the work that ORD does is of value to EPA's overall mission. ORD, in my 
view, already has a high ``value-added'' for the agency's mission. I 
will strive to maintain and increase the value of ORD's work--not only 
to the EPA, but to the Nation as a whole.
    Question 4. As the science advisor to the Administrator, what is 
your advise (sic) on research priorities? What environmental threats 
concern you most?
    Response. The environmental threat that concerns me the most is not 
paying enough attention to the many critical environmental issues that 
face us. The worst thing that we as a Nation could do would be to 
reduce our investment in or our emphasis on high-quality environmental 
research. Indeed, I believe that research is the key to understanding 
and managing many of our most pressing problems. The ORD portfolio of 
core and problem-driven research is constructed in a way that will not 
only advance the state of our knowledge (which enables us to be 
proactive) but also to address in a scientifically rigorous way many of 
our most pressing current problems. As the science advisor to the 
Administrator, I would advise her to continue on the path EPA has set 
for itself--support for science that is credible, relevant and timely, 
of highest quality as judged through a rigorous peer review process, 
and, thus, science which can effectively address a wide spectrum of 
critical health and environmental problems.


        NOMINATIONS OF GRETA J. DICUS AND JEFFREY S. MERRIFIELD

                              ----------                              


                       THURSDAY, OCTOBER 1, 1998

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:02 a.m. in 
room 468, Dirksen Senate Office Building, Hon. John H. Chafee 
(chairman of the committee) presiding.
    Present: Senators Chafee, Smith, Baucus, and Lautenberg.

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. I'd like to have everybody's attention, 
please.
    This is the meeting of the Environment and Public Works 
Committee for hearings on the nominations of Mr. Jeffrey 
Merrifield and Ms. Greta Joy Dicus for positions on the Nuclear 
Regulatory Commission.
    I'm delighted to welcome everyone here, especially our two 
nominees. I'll also welcome Senator Smith, who will be coming 
here very shortly to introduce Mr. Merrifield. Senator Smith is 
a very prominent member of this committee, chairman of our 
Superfund Subcommittee. And Senator Bumpers I understand will 
introduce Ms. Dicus.
    It's my pleasure to report that both nominees have 
impressive backgrounds and are highly qualified for the 
positions before them.
    The President has nominated Ms. Dicus for reappointment. 
She has been on the Nuclear Regulatory Commission previously 
from February 1996 to January 1998, when her term expired.
    Pending her reappointment to the NRC, she is currently an 
outside expert at the Defense Nuclear Facility Safety Board. 
From 1994 to 1995, she served as a member of the board of 
directors for the U.S. Enrichment Corporation. From 1980 to 
1994, she worked in progressively responsible positions in the 
Division of Radiation Control and Emergency Management at the 
Arkansas Department of Health, serving as chief of licensing 
from 1982 to 1984, and director of the division from 1985 to 
1993.
    Ms. Dicus received a B.A. in biological sciences from Texas 
Women's University in 1961, and a master's degree in radiation 
biology from the University of Texas Southwestern Medical 
School in 1967.
    The President has nominated Mr. Jeffrey Merrifield to serve 
as commissioner of the NRC. Mr. Merrifield currently serves as 
counsel to the U.S. Senate Subcommittee on Superfund, Waste 
Control, and Risk Assessment--in other words, a subcommittee of 
this very committee. He has held that position since 1995.
    Serving in this position, Mr. Merrifield has worked 
diligently on Superfund reform for the past 3\1/2\ years. If 
there's anybody in this Senate side of the capital that knows 
about Superfund, it certainly is Mr. Merrifield.
    He has worked on the Resource Conservation and Recovery Act 
and the Toxic Substance Control Act.
    Prior to his current position, Mr. Merrifield served from 
1925 [sic] to 1995 as an associate in the law firm of McKenna & 
Cuneo.
    Before his private sector service, he served as legislative 
assistant to Senator Robert Smith, drafting legislation, 
testimony, and statements on energy, transportation, and 
environmental issues.
    Before joining Senator Smith's office, Mr. Merrifield 
worked as a legislative assistant to former Senator Gordon 
Humphrey.
    Mr. Merrifield received his B.A. magna cum laude in 
political science and history from Tufts University. He also 
holds a J.D. from Georgetown University Law Center.
    He is accompanied here by his wife, Diana, and his oldest 
son, Graham.
    The Nuclear Regulatory Commission is a bipartisan, 
independent regulatory commission responsible for ensuring 
adequate protection of the environment, public health and 
safety, and common defense and security with respect to the use 
of nuclear materials for civilian purposes in the United 
States.
    The position of NRC commissioner offers challenges which I 
believe both Mr. Merrifield and Ms. Dicus are prepared to face.
    I look forward to hearing today's nominees describe their 
backgrounds and what they hope to accomplish if confirmed.
    Now I notice that both Senator Smith and Senator Bumpers 
are here. Perhaps if you would come forward, each of you 
gentlemen, and give your statements on behalf of the nominees, 
that would be fine.
    Senator Bumpers, if you'd like to start, we welcome you 
here, Senator.

STATEMENT OF HON. DALE BUMPERS, U.S. SENATOR FROM THE STATE OF 
                            ARKANSAS

    Senator Bumpers. Thank you very much, Mr. Chairman.
    Mr. Chairman, is it a genuine pleasure to be here this 
morning and have this opportunity to introduce to the committee 
Greta Joy Dicus.
    In 1993, the President had a great wisdom to nominate Greta 
as a member of the U.S. Enrichment Corporation's board of 
directors. A little more than 2 years later, she was nominated 
and subsequently confirmed as a commissioner of the Nuclear 
Regulatory Commission. Recently, she was nominated to serve a 
new term.
    Greta has served the people of the United States in 
exemplary fashion, and she richly deserves a second term on the 
NRC as it enters a very important phase of its existence.
    Greta is eminently qualified. One only has to look at her 
very impressive resume to know that.
    In addition to serving as an original member of the board 
of directors of the Uranium Enrichment Corporation, she was the 
director of the Division of Radiation Control and Emergency 
Management at the Arkansas Department of Public Health from 
1985 to 1994.
    She has also served as chairman of the Central States Low-
Level Radiation Waste Commission, and was Arkansas' liaison 
with the U.S. Nuclear Regulatory Commission.
    Mr. Chairman, as you know, while NRC's role in the 
licensing of new nuclear power plants has been greatly 
diminished, simply because there is a lack of demand for new 
plants, the NRC plays an extremely important role in ensuring 
that our existing reactors are operated safely. As the age of 
our reactors advance, this role becomes that much more 
pronounced.
    Greta has been a role model to all of those who would 
consider public service as a career, and I therefore, for that 
reason and many more, strongly urge this committee to act on 
her nomination as expeditiously as possible to serve a full 5-
year term.
    I feel compelled, in the interest of candor, to say that 
she is not perfect. She made one classic mistake--she was born 
in Arkansas and chose to go to school in Texas for her 
education.
    [Laughter.]
    Senator Bumpers. Where I come from, that is almost 
unforgivable.
    [Laughter.]
    Senator Bumpers. Thank you very much, Mr. Chairman.
    Senator Chafee. Thank you, Senator.
    I don't know whether--can you wait just a few minutes?
    Senator Bumpers. How many minutes?
    Senator Chafee. All right----
    Senator Bumpers. I'm not in a big rush, Mr. Chairman.
    Senator Chafee. All right. I thought we'd have Senator 
Smith's comments, and then there may be questions from the 
panel.
    Senator Bumpers. Sure.
    Senator Smith. Mr. Chairman, if Senator Bumpers has to go, 
go ahead and proceed with the questions.
    Senator Chafee. OK. Are there any questions?
    Senator Baucus. I don't want him to leave. He's so 
entertaining, I always like to have him around.
    [Laughter.]
    Senator Bumpers. You and I both have our work cut out for 
us.
    Senator Baucus. We do, and that's why I'm not going to stay 
very long.
    Senator Chafee. All right. Well, I guess there doesn't seem 
to be any questions, Senator. We appreciate you coming by to 
put in this strong endorsement for Ms. Dicus.
    Senator Bumpers. Thank you very much for allowing me to do 
this, Mr. Chairman.

 OPENING STATEMENT OF HON. ROBERT SMITH, U.S. SENATOR FROM THE 
                     STATE OF NEW HAMPSHIRE

    Senator Smith. Thank you, Mr. Chairman. It is a little 
unusual to sit on this side of the table, but it is a privilege 
for me today to speak on behalf of nominee Jeff Merrifield for 
the NRC.
    Jeff was one of a handful of staffers that I guess you 
could say I inherited from Senator Humphrey in 1990. When you 
take over an office from an--it's easy when you defeat 
somebody, but when you take over an office full of staff and 
you're asked to review them all carefully and select some of 
them, sometimes you want them, sometimes you don't. But in the 
case of Jeff Merrifield, it was a great find to have him stay 
with me throughout--with a brief interruption, but throughout 
my tenure in the Senate.
    He was born in Westerly, RI, which didn't hurt him, I don't 
think, and then he spent most of his childhood in Antrim, NH, 
so I think he covered the bases with you and me.
    As you said, in 1985 he graduated from Tufts University. In 
1986, he joined the staff of Senator Humphrey, where he worked 
on energy and environmental issues for 4 years before Senator 
Humphrey left the Senate.
    During the time that Jeff worked for both Senator Humphrey 
and for me, he put himself through Georgetown Law School at 
night. I think anyone who is a staffer here knows how difficult 
that is with the hours that the staff here has to put in, in 
addition to that, going to law school. Frequently, he had to 
return here back to the Senate after attending law school 
classes in the evening. Sometimes it was late at night.
    After that, after graduating in 1992, Jeff left the Senate, 
left my office, to work for McKenna & Cuneo, a law firm here in 
town, where he was a litigator on environmental and government 
contracts cases.
    After a while, though--I don't know whether it was the fact 
that the Republicans regained the Senate or what the main 
reason was, but in 1995 Jeff did return to act as my counsel 
for the Senate Subcommittee on Superfund, Waste Control, and 
Risk Assessment.
    As you know, Mr. Chairman, he was the lead staffer for me 
in developing Superfund reauthorization legislation. You and I 
worked very closely with him and with Tom Gibson, as well, and 
you know his skills in that regard and his expertise.
    He has been involved in a number of other major pieces of 
legislation, some before my time in the Senate and some after, 
but certainly the Price Anderson reauthorization, the Oil 
Pollution Control Act, clean air reauthorization efforts to 
reauthorize both Superfund and RCRA, and the Intermodal Surface 
Transportation Efficiency Act, ISTEA-I.
    In addition to his duties on the committee, Jeff has been 
extensively involved in assisting me on Armed Services 
Committee matters, as well. I chair the Subcommittee on 
Strategic Forces, and there is a lot of oversight regarding 
environmental management, DoD, and DoE facilities. Jeff has 
been very helpful in that regard in that role.
    In December, Jeff and his wife, Diana, will celebrate their 
10th wedding anniversary. They have two sons, Graham and 
Trevor. Graham is here with us today, very quiet. Good kid--for 
now, anyway.
    And, if confirmed--a matter of interest--Jeff will be the 
second-youngest commissioner in history at 34, so it is quite 
an honor for New Hampshire.
    And I also would like at this time to thank Senator Baucus 
and Senator Lautenberg publicly and their staffs for their 
support and cooperation in this matter. There wasn't one shred 
of partisanship here, and I think it says a lot about the 
capabilities of Jeff to have that kind of support, which I know 
Jeff appreciates, and I do, as well.
    So I'm pleased to be here in support of the nomination of 
Jeff Merrifield for the Nuclear Regulatory Commission.
    Senator Chafee. Well, thank you very much, Senator Smith. 
Obviously, I have, as have other members of the committee, 
gotten to know Mr. Merrifield well, particularly during the 
Superfund negotiations and hearings and other activities, and I 
share your high respect for the job he has done.
    I must confess, I've never heard of Atrim, NH. Is that----
    Senator Smith. Antrim.
    Senator Chafee. Antrim?
    Mr. Merrifield. Antrim. It's named for a town in Ireland.
    Senator Chafee. Antrim?
    Mr. Merrifield. Antrim.
    Senator Chafee. I take it it's a relatively small town?
    [Laughter.]
    Mr. Merrifield. Population 2,300.
    Senator Chafee. Population 2,300.
    Well, thank you very much, Senator.
    Senator Baucus, do you have any statement?

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Yes. I just wish Jeff the best. We've all 
worked with him and we know that he's very competent. We wish 
not only him but his wife, Diana, and his eldest son, Graham, 
and the rest of his family the very best for the future.
    Mr. Chairman, we're accustomed to seeing Jeff at the table 
as a very competent advisor on matters before the committee. We 
are not accustomed to him yet as a member of the Nuclear 
Regulatory Commission, and that will, of course, place him in a 
much different role, one where we will be asking different 
kinds of questions than we were asking before. I expect in the 
second capacity he'll do just as well as he has in the first.
    Serious issues face the Nuclear Regulatory Commission--the 
role of nuclear power in reducing greenhouse gases, for 
example; disposal of nuclear waste. Those major problems won't 
go away, and it will take someone of Jeff's tenacity and 
perception and doggedness, frankly, to help resolve them, and I 
think we'll do well with his service, and I again wish him the 
very best.
    Senator Chafee. Thank you, Senator.
    Senator Lautenberg, do you have any questions of Senator 
Smith?
    Senator Lautenberg. If I may be indulged, Mr. Chairman, I'd 
like to make a statement, not of Senator Smith----
    Senator Chafee. Well, I'll tell you what we might do. If 
the questions aren't of Senator Smith, we might excuse him and 
then----
    Senator Lautenberg. Sure.
    Senator Chafee [continuing]. Perhaps then you can make your 
statement, or else we can have the two witnesses--the two 
nominees come forward and make their statement.
    Senator Lautenberg. If I might, I'd welcome to the table, 
Mr. Chairman----
    Senator Chafee. All right. Why don't the two nominees come 
forward, and then, Senator Lautenberg, why don't you make your 
statement.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you.
    Mr. Chairman, I'm pleased that you're holding this meeting 
today, this hearing, and I want to welcome Ms. Dicus and Mr. 
Merrifield. There are two vacancies, one of which has been open 
for over a year, way too long. Because it is--we were out of 
here yesterday, and I didn't have a chance to do some of the 
things that I wanted to do before we got here, but I did want 
to talk about the NRC a little bit because of the critical 
nature of this regulatory agency.
    For instance, we saw at Chernobyl what can happen with 
unsafe nuclear power plants and poor regulation. The world got 
a peek at what can happen when something goes wrong at a 
nuclear power plant.
    On Monday past, I visited with a boy in New Jersey who was 
brought here with seven other young people to Paul Newman's 
camp up in Connecticut, and during that time they got some 
treatment and got pointed in the right direction.
    Well, unfortunately, out of the eight boys who came, only 
one survived, and he's the young fellow living in New Jersey, 
now 14 years old. And he is thriving, but it is a living 
reminder of what can happen if there is an accident in a 
domestic nuclear plant.
    The NRC commissioners stand between 105 operating power 
plants and America and the public to assure that we don't have 
a Chernobyl-like accident in America. It's a major 
responsibility, and I know that both of these candidates will 
be taking their responsibility seriously.
    Ms. Dicus has had a chance to be there.
    And nuclear power in New Jersey is an extremely important 
factor. Of our electricity, 60 percent is generated from 
nuclear power companies, compared to 20 percent nationally. And 
in the most densely populated State in the country--and I was 
listening to Antrim. I know that there's an Antrim county and 
2,300 people. When we look at like statistics for the State of 
New Jersey for that same amount of geography--as the Senator 
from Montana knows, I always talk about how many people we have 
in just a little space. Heaven forbid any kind of an accident, 
whether rural or urban.
    So there are a few States that have as big a stake in good, 
proactive safety-conscious NRC commissioners. And NRC has been 
active in overseeing compliance with its regulations in the 
nuclear industry in New Jersey, and when Salem Nuclear Power 
Plants One and Two were shut down in 1995, the NRC played a 
vigilant role in ensuring that the operator of the plant met 
vigorous health and safety standards before they were allowed 
to resume operations.
    Due to that work with plant operators, both of these units 
were recently removed from NRC's watch list of problem plants, 
and that's reassuring to us.
    I want to know that plants in New Jersey are operating 
safely, and a large part of the responsibility rests with NRC.
    And so for me, obviously, Mr. Chairman, as it is for 
everybody, but it is particularly significant as to who it is 
that sits on our Nuclear Regulatory Commission, and these 
positions are extremely important. Nominees should have the 
expertise, experience, and independence necessary to 
effectively oversee the industry.
    So I look forward to hearing from our candidates this 
morning, and, again, I, too, know Mr. Merrifield and know that 
he is diligent and fairly thorough about his work, and so I 
would like to hear the testimony, Mr. Chairman, and I'd like 
the opportunity thereafter to ask a couple of questions.
    Senator Chafee. Fine. Senator Baucus, you have no 
statement?
    Senator Baucus. No, thank you, Mr. Chairman. Thank you.
    Senator Chafee. All right. We'll proceed with the 
statements. There is a statement for the record by Senator 
Inhofe.
    [The prepared statement of Senator Inhofe follows:]
Statement by Hon. James Inhofe, U.S. Senator from the State of Oklahoma
    Thank you Mr. Chairman for calling today's confirmation hearing for 
Greta Dicus and Jeff Merrifield to be Commissioners at the NRC. The NRC 
Commission has not been fully staffed for too long and I am glad the 
administration has nominated these individuals and we are moving them 
through the process quickly.
    This is a very important time for the NRC, some long needed reforms 
are underway and the Commission is beginning to deal with the issue of 
license renewals. We need all five Commissioners on the job and I 
believe both of you will work diligently on the challenges ahead.
    Ms. Dicus, I have only heard good things about your brief tenure on 
the Commission and I have confidence in your ability to meet the 
challenges facing the NRC.
    Jeff, I have appreciated the work you have done on Superfund and I 
think your talents will be put to good use at the NRC.
    We held our first NRC oversight hearing this past July and our next 
hearing is scheduled for January 28, I look forward to you both 
testifying at that hearing. Thank you.

    Senator Chafee. Ms. Dicus, do you want to proceed with a 
statement?

STATEMENT OF GRETA JOY DICUS, NOMINATED BY THE PRESIDENT TO BE 
     REAPPOINTED AS COMMISSIONER OF THE NUCLEAR REGULATORY 
                           COMMISSION

    Ms. Dicus. Yes. Thank you.
    Mr. Chairman and members of the committee, it is, indeed, a 
wonderful privilege and honor for me to appear before you as 
one of President Clinton's two nominees to be a member of the 
Nuclear Regulatory Commission.
    Many of you are familiar with my professional background, 
and it has been repeated today, so I'm going to give an 
extremely abbreviated comment about that.
    As Senator Bumpers mentioned, I did go to school in Texas, 
even though I'm a Native Arkansan, and that included a master 
of arts degree in radiation biology from the University of 
Texas Southwestern Medical School in Dallas. And also my 
undergraduate degree is in biological sciences from Texas 
Women's University, with a double minor, one in chemistry and 
the other one in government history.
    When I first appeared before this committee as my previous 
nomination to the NRC was under consideration, I explained that 
the NRC's mission was to ensure that the civilian uses of 
nuclear materials in the United States are carried out with 
adequate protection of the public health and safety, the 
environment, and national security.
    My term as a commissioner has not changed my understanding 
of the NRC mission, and I will continue to work, if confirmed 
to a second term, to further the accomplishment of the NRC's 
mission.
    During the previous hearing, Senator Chafee and Senator 
Smith expressed support for assuring NRC was positioned to 
effectively consider that nuclear power plant license renewal 
applications, if submitted, are efficiently and effectively 
considered.
    I am pleased to say that, just prior to the end of my first 
term, all commissioners had unanimously approved a policy 
statement providing for improved management of adjudicatory 
hearings, including those for license renewal.
    This policy statement was published in August of this year. 
The framework outlined in that policy statement has already 
been utilized in establishing a hearing schedule for the first 
license renewal application, which was filed by Baltimore Gas 
and Electric Company to renew the operating licenses for their 
Calvert Cliffs Power Plants.
    These hearing improvements have great potential to provide 
an expeditious consideration of license renewal applications 
and concerns of members of the public related to those 
applications.
    In addition, an application for renewal of Oconee Nuclear 
Station, units one, two, and three, was received by NRC from 
the Duke Energy Corporation, and the same policy statement 
would also be used by the Licensing Board if a hearing is 
granted in that proceeding.
    During my first term, the Commission initiated a number of 
actions to improve the regulatory framework of the agency, 
particularly with respect to performance assessments of nuclear 
power plants. Much remains yet to be done to see these improved 
programs finalized and implemented, and during the second term 
on the Commission, if I am reconfirmed, I would continue to 
press to improve the effectiveness and efficiency of the 
Commission's activities in furtherance of NRC's regulatory 
mission.
    During my first term on the Commission, it was clear to me 
that many challenges face the Agency, as the nature of the 
nuclear industry changes, involving both power plants and the 
use of radiological materials in other beneficial ways.
    I stated during my first confirmation hearing that we 
should utilize a fair and open process in all decisions, while 
at the same time maintaining our regulatory independence.
    I worked faithfully to make decisions with those principles 
in mind during my first term, and will continue to do so if 
confirmed for a second term.
    It is clear that an efficient, fair, and open process 
regarding our regulatory decisions will assure that the 
industry understands and that the public accepts NRC's 
regulatory decisions.
    I want to again express to you my appreciation for this 
opportunity to discuss my renomination to a second term as 
commissioner of the NRC. Obviously, I'm available to answer any 
questions that you may have.
    Senator Chafee. Thank you very much, Ms. Dicus.
    Now, Mr. Merrifield, if you'd like to give a statement. I 
know you have a statement here. Obviously, that will be, all of 
it, in the record. If you want to summarize that, that would be 
fine, too.

STATEMENT OF JEFFREY S. MERRIFIELD, NOMINATED BY THE PRESIDENT 
  TO BE APPOINTED AS A COMMISSIONER OF THE NUCLEAR REGULATORY 
                           COMMISSION

    Mr. Merrifield. Thank you very much, Mr. Chairman.
    Mr. Chairman, members of the committee, thank you for the 
honor of appearing before you today as one of President 
Clinton's two nominees to be a member of the Nuclear Regulatory 
Commission.
    I also want to say thank you to all of the members here 
today for your very kind comments. It is very much appreciated.
    Finally, Mr. Chairman, I want to thank you for scheduling 
this hearing so promptly. I know it is a very quick time line, 
and we have only a few days left in the session, and so the 
speed with which you were able to convene this is very much 
appreciated.
    Senator Chafee. While you're saying that, I would announce 
that it would be my intention to--unless there are questions 
that are submitted that aren't answered in time--if there are 
written questions, I would ask you both to get them back 
quickly. It would be my intention to bring up these nominees 
tomorrow at a business meeting we're having at 9:30 unless 
something goes wrong, so I would make that announcement now and 
hope that we can get a good turnout to act in everything we 
have before our business committee, including the nominees.
    All right, Mr. Merrifield, won't you continue, please?
    Mr. Merrifield. Thank you, Mr. Chairman.
    When I first came to work in the Senate for former Senator 
Gordon Humphrey of New Hampshire in 1986, my first job was 
answering the mountain of constituent mail that he received 
regarding Seabrook Station Nuclear Power Plant. Of the 
thousands of letters that Senator Humphrey received, some of 
them were from individuals who disagreed with positions taken 
by the NRC.
    Yet, even where those individuals disagreed with the NRC, 
very few, if any, of our constituents called into question the 
integrity and objectivity of the NRC or its commissioners. I 
believe that is very telling.
    During the entire time I have spent in the Senate, I have 
consistently heard the message that the NRC is an agency that 
has earned the trust of the public, and it can be relied on for 
fair and scientifically-based decisionmaking.
    To prepare for this hearing, I took the time to read the 
record of the nomination hearings of other commissioners over 
the last few years. In his nomination statement 7 years ago, 
former NRC Chairman Ivan Selin made the following statement:

    In my view, when it comes to licensing a nuclear facility, 
the judgment on safety of the technical experts, both in-house 
and independent experts, deserves great weight. So does the 
endorsement of the NRC's decisions by reviewing courts. But in 
the long run, none of these will matter if the American public 
does not have the confidence in the competence, the integrity, 
and the candor of the regulators who are making the decisions.

    I would like to associate myself completely with former 
chairman Selin's statement. If I am fortunate enough to be 
confirmed by the Senate, I will use his statement as a guiding 
principle in fulfilling my duties as an NRC commissioner.
    Despite the positive reputation that it has developed over 
the years, the NRC cannot take a solitary role in maintaining 
full public confidence in the safety of nuclear power. Indeed, 
the nuclear industry must also assume equal responsibility for 
taking the steps necessary to maintain the trust of the 
American public.
    Following the March 28, 1979, incident at Three Mile 
Island, President Carter asked Admiral Hyman G. Rickover, the 
father of our nuclear Navy, to analyze the lessons to be 
learned from this incident.
    I believe there is one passage in his report that is 
particularly instructive:

    Safe design, construction, and operation of nuclear power 
plants owned and operated by utilities will not result from 
expanding the NRC, reorganizing the NRC, or passing more laws, 
nor will it be derived from establishing new, diverse, non-
expert oversight groups. If commercial nuclear power plants are 
to be operated safely, the organizations that own and operate 
the plants, the utilities, must know what they are doing and 
commit themselves to take the steps necessary to achieve 
nuclear safety. If the utilities do not establish stringent 
standards, institute rigorous training programs, and police 
themselves, there is little hope for assured safety operation 
of commercial nuclear power.

    Mr. Chairman, I believe that statement was correct then, 
and almost 20 years later it is still correct.
    Since this statement was made, the NRC has evolved from a 
nuclear power plant and material licensing agency to the 
regulator of an operating nuclear industry. In the next few 
years, the NRC will be making a number of critical decisions 
regarding plants that may be relicensed, as well as others that 
will be decommissioned.
    Irrespective of whether these facilities are relicensed or 
decommissioned, the NRC will need to ensure that these 
activities are accomplished in a manner that is fully 
protective of the health and safety of the individuals who live 
and work near these facilities.
    Over the last few months, there has been a renewed 
congressional interest in conducting oversight of the NRC. 
While there are some who think that congressional scrutiny is 
to be greeted with fear and loathing, I believe that a frank 
and straightforward dialog between a regulated agency and its 
congressional oversight committee can be positive for both.
    If I am given the privilege of being confirmed to this 
position, I will be pleased to come back here to testify at any 
time.
    In summary, I believe we're entering a very dynamic and 
critical period for the NRC. I am eager to play a role in 
addressing these important issues, and am hopeful that my 
experience and background can contribute to the competence and 
integrity we have come to expect from the NRC.
    Thank you very much, Mr. Chairman. I am pleased to answer 
any questions you may have.
    Senator Chafee. Well, thank you very much.
    I want to ask you both a standard question. Are each of you 
willing, at the request of any duly constituted committee of 
the Congress, to appear in front as a witness?
    Ms. Dicus. Yes.
    Mr. Merrifield. Yes, Mr. Chairman.
    Senator Chafee. Do you know of any matters which you may or 
may not have thus far disclosed which might place you in any 
conflict of interest if you are confirmed in this position?
    Ms. Dicus. No, I do not, Mr. Chairman.
    Mr. Merrifield. No, Mr. Chairman.
    Senator Chafee. Let me ask you this. Currently, as I 
understand it, about 20 to 25 percent of the power generated in 
the United States is nuclear power. Does that sound about 
right?
    Ms. Dicus. That's correct. Yes.
    Mr. Merrifield. About 20 percent.
    Senator Chafee. And obviously in other countries it is way 
greater than that, and I think in France and Germany, for 
example--I don't know about England, but certainly in those two 
countries a far higher percentage.
    Are we drawing too many road blocks? Everybody is for 
safety, and I don't want anybody to say we're not for that, 
but, I mean, are we throwing too many road blocks in the way of 
nuclear plants being erected in this country or relicensed? 
What do you think? Why--is it just too expensive? We've got 
less-expensive gas than Germany does, so, therefore, 
economically it doesn't pay for the construction of nuclear 
plants? Why aren't we, in the United States--why don't we have 
as much power produced by nuclear power as the other nations 
do?
    Did you want to take a crack at that, Mr. Merrifield?
    Mr. Merrifield. Well, I think you have touched on some of 
the reasons for it.
    When we had--and this is the case we went through when 
Seabrook was being built. The cost of money was very high. 
There were over-runs. There were a lot of issues raised in 
terms of the safety of that particular facility.
    Today, the price of gas-powered electricity is, frankly, 
lower than it would be if you had to go out and build a new 
nuclear power plant. We, nonetheless, have a number of new 
certified designs, so at some point down the road there may be 
a decision by utilities to move forward and build new 
facilities.
    The NRC's role, as you know, Mr. Chairman, is different. It 
evolved from that of the earlier agency, the Atomic Energy 
Commission. The intention of the NRC is for oversight and to 
ensure that public health and safety and the environment are 
protected. It is not the role of the NRC to cheerlead for the 
nuclear industry, nor to maintain too close a relationship.
    And so, while there may be many out there who are very 
enthusiastic about nuclear power, the role, if confirmed, of 
the commissioner is to make sure that the high confidence in 
the safety of that power is maintained.
    Senator Chafee. Well, I agree with that, but I think, at 
the same time--and I'm not saying this is true, but I think, 
certainly in the Seabrook thing, it seemed like it was a moving 
target. And I don't want to replay the Seabrook thing, but 
what--it seems to me that if the go-ahead is given to build a 
plant, then they're a go-ahead, but am I wrong in saying that 
the Nuclear Regulatory Commission seems to constantly impose 
more and more requirements so that the--and thus running up the 
cost? Is that an unfair----
    Mr. Merrifield. Well, one of the things that has changed, 
Mr. Chairman, since Seabrook was built is we now have a one-
step licensing process, so once you go ahead and you obtain the 
license for your facility, they can move forward in the 
construction. That type of a change, which was made by 
Congress, would inevitably lead to a more streamlined process 
for building those plants.
    I think the point, which I agree with you, that you're 
getting at--I think I agree with you--is the obligation of the 
Agency is to ensure that public health and safety are 
protected. That does not mean that the Agency needs to be 
dilatory, and I think the public has an expectation--and when I 
say ``the public,'' I mean both the folks who live and work 
near the plants, but as well as individuals who are investing 
in those plants--that the NRC make its decision as quickly as 
possible, yet at the same time maintaining that full public 
confidence.
    Senator Chafee. What do you say, Ms. Dicus?
    Ms. Dicus. I concur completely with everything Mr. 
Merrifield has said. I might add just a little bit, too.
    Part of my understanding of some of the problems that the 
commercial nuclear power industry did get into was some 
prolonged licensing actions, and that obviously had a 
tremendous effect on cost.
    Two things that have occurred--and I think he has alluded 
to both of them--is, of course, the one-step licensing process, 
which should and will shorten licensing, and therefore make the 
outcome much more probable if a utility decides that they want 
to go with a nuclear option.
    And the second thing, as mentioned, are the certified 
standard designs--we have two of them already. A third one is 
almost ready--which makes a much more predictable outcome.
    Senator Chafee. Senator Lautenberg.
    Senator Lautenberg. Yes. Thanks, Mr. Chairman. And thanks 
to each of you for your statements.
    I am concerned, Mr. Chairman, about being ready for action 
tomorrow. There are several questions that I have that we'll 
submit in writing, and I hope that the nominees will have a 
chance to get them done.
    You brought up a good question, Mr. Chairman, and that is: 
why not more nuclear? I'd ask you, first, what's the impact, do 
you think, on, let's say, nuclear versus fossil fuel energy 
production? Is there more to worry about when you think about 
coal and other fuels, or when you think about nuclear and the 
waste disposal problem?
    Mr. Merrifield, or whatever.
    Ms. Dicus. OK. I'll go first on that one.
    Senator Lautenberg. Please.
    Ms. Dicus. It is clear that, with the fossil fuels, there 
are emissions to the atmosphere that are troublesome to us, and 
with the nuclear option you do not have those emissions.
    I have been told that if we lost our commercial nuclear 
power plants, we will have to double our efforts on the 
greenhouse effect to meet the standards that we're trying to 
meet. So clearly, from that perspective, nuclear is a viable 
option for us.
    The issue of waste disposal is a problem that has to be 
addressed for the nuclear industry. I think it is one of their 
challenges now to have that problem addressed. I'm convinced 
that nuclear waste, both high-level waste and low-level waste, 
can be effectively and safely disposed.
    Senator Lautenberg. Do you know where?
    [No response.]
    Senator Lautenberg. Mr. Merrifield, do you want to----
    Mr. Merrifield. I don't have really much to add. I agree 
with Commissioner Dicus.
    Senator Lautenberg. OK. Because we know--look what has 
happened. And I don't know whether we can blame the regulations 
for the problems. Seabrook, Shoreham, $5 million, Mr. Chairman. 
Was it $5 million or even more? Finished the plant and never 
opened. That makes producing nuclear energy fairly expensive--
build them and close them.
    So I, too, though, had the same nagging question that the 
chairman has. It is a much more renewable source of energy or 
fuel, but then how do you deal with the other problem? Ms. 
Dicus, when you have a chance, if you could whisper in my ear 
about where we'd put the stuff, I'd appreciate it.
    And so we have a concern about safety that overrides almost 
everything else, because people are aware that's what caused 
the shutdown in Shoreham. That's what caused the shutdown at 
New Hampshire.
    And can we ever totally ensure that we can operate nuclear 
plants without--with total safety, without fear of an accident?
    Ms. Dicus. We can ensure, to the best of our ability, that 
we can do that, and I think----
    Senator Lautenberg. Would you take that as a resident 
nearby, ``best of our ability,'' do you think?
    Ms. Dicus. Say again? I'm sorry.
    Senator Lautenberg. Would you accept that, do you think, if 
you and your children lived next door, that to the best of your 
ability----
    Ms. Dicus. I think--well, I'd like to address it in this 
way. The commercial nuclear power industry in this country has 
an extraordinary safety record. Even with the accident that 
occurred at Three Mile Island, where there was some release of 
radioactive material, no member of the public living next to or 
close to the reactor received radiation exposure anywhere near 
approaching our regulatory limits.
    So I think with that sort of track record that we have, I 
think we can assure that our plants are operated safely, and 
the Nuclear Regulatory Commission is ensuring that by its 
stance in the way it tries to deal with its power plants.
    Mr. Merrifield. If I may, I think I agree with Commissioner 
Dicus. I mean, the statement ``trying to maintain the highest 
standards'' really, I think, goes to the effect of you can 
never be 100 percent certain that what you are doing is going 
to absolutely protect everyone, but you need to strive for that 
100 percent and get there as close as you can and maintain 
that.
    Now, the other comment you made was going to the whole 
issue of cost. Is this a power option that is going to be 
available?
    Again, I think the one-step licensing program, where once 
you get your construction license you can move forward and 
build that plant, thereby eliminating the second license, the 
operating license, which is what hung up Shoreham and what hung 
up Seabrook, certainly is going to change the nature of how 
these plants are going to operate.
    In addition, as you know, the economic climate is different 
now. When Seabrook was being built, when Shoreham was being 
built, those were the days when we were all faced with 14 and 
15 percent interest rates, which were exorbitant amounts. The 
cost of money was a significant element in the excessive cost 
of those facilities.
    Today, if a plant were being built, given the 30-year loan 
at prime rate, the nature of that would certainly be different.
    In addition, with the new approved licenses that the NRC 
has given, we have two very brand new plant designs. The cost 
of building those presumably would be better. Weighed against 
that, again, is the very low price in the cost of natural gas 
right now. Those seem to be, from a cost basis, the most 
economically efficient means of doing power right now.
    If there is a change in the price of gas, that may very 
well make nuclear energy more available as an option for future 
construction.
    I am told that actually the current generating plants are 
the second-most efficient, second-least expensive--aside from 
New Hampshire and a few other States, where we have very 
exorbitant rates as a result of nuclear power--but overall, on 
a national average, nuclear power is, I believe, the second-
lowest generating cost to coal-fired plants.
    Senator Lautenberg. But I don't think it was the cost, 
because in each case these plants were practically finished. 
Certainly, Shoreham was finished, and so the cost had already 
been absorbed. And there were opportunities, as you know, under 
law--bankruptcy or creditor reorganization, and somebody takes 
a hit, but the facility is there.
    The question I believe that arose, more than anything else, 
was safety in the nature of the way these plants were located, 
etc.
    Mr. Merrifield. When I mentioned cost, I meant in terms of 
current utilities making a decision to build a new plant, 
looking back at those lessons in the cost. That was the analogy 
I was attempting to make, that there is some leeriness of 
entering into that now, given the history of the more-recent 
history of building some of these plants and the excessive 
costs that were related to those.
    Senator Lautenberg. Mr. Chairman, shall I submit the other 
questions in writing, then? Is that what you're suggesting?
    Senator Chafee. I was just going to give Senator Smith a 
shot here.
    Senator Lautenberg. I'm sorry.
    Senator Chafee. OK. Senator Smith, have you got some 
questions?
    Senator Smith. Just a couple.
    In listening to both of your remarks regarding the cost and 
the fact that we've gotten a better handle on the costs of 
construction now, for a lot of reasons--interest rates is 
certainly one. Another would be the fact that the approval 
process takes place before we start building, which why on 
earth we would do other wise in the earlier days I'll never 
know, but we learned the hard way about that, certainly, at 
Seabrook.
    But, to me, the arrows are going in two different 
directions, and I don't think--we may never get a chance to 
find out whether the cost is going to be less or not, because 
at this point we're not building any more.
    So let me ask you this question. I think where the stress 
is going to come and where your challenge is going to come as 
commissioners is in the recommissioning, the relicensing, if 
you will, of the older plants, because we're not getting any 
more. And so I'd like you to both comment on that in terms of, 
you know, we've got--obviously, you're not going to compromise 
safety, but I think there is going to be a lot of pressure if 
we see the declining number of plants.
    There are going to be some that are going to be coming off-
line, indeed, during both of your tenures, and so I think you 
are going to see there will be more pressure on you to 
relicense.
    Just comment, if you would, both of you, on how you see 
that developing. Go ahead, Ms. Dicus.
    Ms. Dicus. OK. On the relicensing, as I mentioned in my 
oral comments, there are two applications in now, and the 
Commission has set up a fairly robust renewal process. It's 
scheduled to take about 2\1/2\ years to renew the first 
license.
    There has been debate as to whether it should take that 
long or whether it should be longer. Clearly, you don't want 
to--as you try to move quickly, you don't want to sacrifice 
safety.
    Some of the reason it will take this long and some of the 
reasons that we're dealing with it are processes that have to 
be done by law--for example, the NEPA process--and the need to 
have a hearing when you amend a license of that sort.
    I think in time, as we move through--as the NRC moves 
through the continued renewals--and I think the NRC can 
anticipate getting more renewals--the time might be able to be 
shortened somewhat.
    Again, there are processes involved, and some of these do 
take some time, but I think this can be helpful.
    When I was on the Commission, we were excited to get that 
first application for renewal in.
    Mr. Merrifield. Yes, Mr. Chairman, I think there are going 
to be a very large number of plants that appear to be coming up 
for relicensing. Of the 105 or so plants that we have now, 
there may be as many as 75 or 80 of those, maybe more, that may 
ultimately--the owners of those facilities may ultimately seek 
to renew those licenses. Others, for a variety of reasons, 
those owners will seek to decommission those.
    I think it is about balancing public health and safety. I 
think it is the obligation of the Agency to act in as expedited 
a fashion as it can while, as Commissioner Dicus mentioned, 
meeting all applicable laws and requirements.
    The fact is that decisions made by that Commission affect 
people. They affect people who live and work near those plants, 
who are very concerned about their safety. At the same time, 
they also affect the ratepayers, the people who are paying for 
the electricity.
    If the Commission delays in dilatory fashion relicensing 
those plants, other owners may seek not to obtain relicensing, 
may choose not to go through it, and ultimately will shut down 
their plants. Others who have chosen to go through the 
relicensing process will have to live with a long record of 
uncertainty.
    If that happens, ultimately the cost will be born by the 
ratepayers, who will either have to pay for more-expensive 
replacement plants or will have to pay for additional rates.
    So, I mean, it is a balance, but I think the Agency needs 
to work quickly.
    Senator Smith. The point I was trying to develop a little 
bit is: if you were approving at whatever rate, one a year, or 
whatever, any rate, new state-of-the-art nuclear power plants 
and they were going on line, then the stress or the pressure on 
you to relicense the old ones would be less, I think, overall.
    Now, it is the opposite. We're not putting any new state-
of-the-art plants on line, and so you always--you hear the 
criticism anyway that the NRC is over-zealous in its 
regulation, it's not being fair, standards we can't meet.
    So I don't know. Maybe I'm wrong, but I just see, down the 
road, this getting into a larger problem as these plants become 
necessary to go off-line, and we're not building new ones, and 
therefore, unless we make it up with oil and gas, oil and coal, 
or gas-fired plants, then where are we?
    And so I guess I'm just trying to sense what your biggest 
challenge would be on that end. I know the waste end is always 
a challenge. But in terms of the construction end, whether you 
view that as your challenge.
    I mean, you're going to get pressure as these plants begin 
to get older, and, you know, you try to extract as much life as 
you can out of them with nothing else coming down the pike, and 
we do need energy. And if, you know, the other atmospheric 
problems continue to stay on the front pages, it will even be 
more pressure.
    So I guess I was just looking for a response in that 
regard, whether you view that as a big challenge, or do you 
just feel like you'll just take them off-line, period, if you 
have to and you will let somebody else worry about where the 
energy is made up.
    Ms. Dicus. I wouldn't foresee the NRC renewing the license 
of a plant that it honestly believed had aging problems that 
would affect the safety. There might be some pressure because 
we need the energy or because of concerns on meeting the 
emission standards that we're trying to meet, but it is clear, 
as I said--you know, not only should we not go forward quickly 
at the expense of safety, but we've got to ensure that the 
relicensing of a plant can be relicensed because it is safe to 
operate. We can't compromise that.
    Mr. Merrifield. With 20 percent of the Nation's energy 
baseload, the role of those existing plants is very important 
and will continue to be, and there will be many, many of these 
plants that will come up for relicensing and presumably could 
very well be relicensed.
    The role of the Commission is to act as an adjudicatory 
body, to receive the information from the licensee 
demonstrating that that plant is safe, to look over that 
evidence, and to decide.
    And, as Commissioner Dicus has said, if the facts indicate 
that the stresses on that plant--on the concrete and steel that 
make up the important elements of that containment vessel--if 
those are not up to snuff, then that plant should not be 
relicensed, irrespective of the percentage of power it has for 
a State.
    On the other hand, if it is safe and the Commission can be 
satisfied that that is the case, then the Commission should 
move forward quickly to give the assurances so that the owners 
of that facility and the ratepayers know that they will have 
that plant operating for a long period of time.
    Senator Smith. Last question. Is electricity deregulation a 
good or a bad thing for nuclear energy?
    Ms. Dicus. I think it is one of the challenges that our 
commercial nuclear utilities are going to have to deal with in 
order to ensure that the nuclear plant can be competitive in 
that market.
    Mr. Merrifield. I think it depends on where you are. I 
think different plants have different circumstances. Some 
plants have very low operating costs and will be extremely 
competitive in a deregulated environment. There are other 
plants which have very high base costs, very high--you know, 
Seabrook is--not to keep going back to Seabrook, but Seabrook 
Station Nuclear Power Plant, the users in New Hampshire do pay 
pretty high rates for their power. In a deregulated 
environment, obviously, that will have to be looked at. Some 
plants will be more competitive than others.
    I think if you talk to the folks in the industry, they will 
say, ``We believe that we can be out there competing against a 
whole lot of those plants,'' and I think they are. I think 
generally they are supportive of a deregulated environment.
    Senator Chafee. Senator Lautenberg.
    Senator Lautenberg. Yes. A couple of things, Mr. Chairman, 
and then I'll submit the rest for written response.
    I think Senator Smith raised an important question about, 
you know, where we go on license renewal and so forth.
    The fact of the matter is that I believe that we're seeing 
more electricity generated by co-generators and people who are 
finding ways to produce energy at cheaper levels, and the fact 
that this distributes through a network makes the whole game 
quite a bit more competitive.
    Would you know, or venture a view, on whether or not an old 
plant, an aging plant, can be brought up to current standards, 
or are some of them, if the aging process is so significant 
that they would not be able to continue to operate?
    I look at the things we've found ways to reinvent, and work 
quite well--I mean, airplane engines and all kinds of things. 
Would you venture a view on whether or not these plants can be 
salvaged, or do they arrive at a point where there is just no 
possibility of giving them the later techniques and the later 
equipment, etc., etc.?
    Ms. Dicus. Some of the--basically, that's a decision that 
the utility makes when it looks at renewal as to any items that 
have to do with aging that need to be upgraded, and they look 
at that as to whether or not economically--and they make an 
economic decision that it's worth doing or they feel that they 
can do it.
    For example, I think Calvert Cliffs, they are going to 
replace their steam generators, and they made that decision to 
do that to be able to relicense those plants and have them 
operate safely.
    So it is an economic decision the utility makes.
    Senator Lautenberg. I think that's right. You don't even 
have to bother, Mr. Merrifield.
    The important issues in the next century between NRC and 
the nuclear industry, could you give me a summary of what you 
think those might be?
    Ms. Dicus. Waste, license renewal, and new applications for 
new plants.
    Senator Lautenberg. Do you have anything to add, Mr. 
Merrifield?
    Mr. Merrifield. Yes. I think the other major issue for the 
industry is they are currently required to pay the cost of the 
operation of the NRC, and there is some dispute about whether 
those costs that are being imposed are appropriate or fair, and 
that will be an ongoing debate.
    Senator Lautenberg. Do you get the feeling that the NRC 
staff or organization could be reduced without impairing its 
operations?
    Mr. Merrifield. I don't know. I mean, that's one of the 
issues that I certainly will be looking into if I am confirmed.
    One of the things that I would say is there has been a 
significant look throughout the Government--the Vice 
President's initiative to right-size the Government to make 
sure we're fulfilling our mission to the American public in the 
most efficient manner. That has been done in a variety of 
different agencies.
    I don't know the degree to which that has occurred at the 
NRC, and would certainly work--if confirmed, would work with 
Commissioner Dicus and others to see if that happens.
    I know Chairman Jackson and others have hired outside 
consultants, Arthur Andersen and others, to assist them, and I 
think that probably is a positive move.
    Senator Lautenberg. Do you, Ms. Dicus, know whether the Y2K 
problem is one that the nuclear industry faces, and how serious 
it might be for them?
    Ms. Dicus. My understanding--and I don't have the latest 
information on this, but the NRC has been dealing with 
particularly the nuclear power plants, but other licensees, as 
well, on the problem.
    My understanding is--and I may have to get back to you on 
this to clarify. My understanding is that everything is pretty 
well under control and should not be a problem. The plant 
should be ready to deal with the issue, and the NRC's own plans 
to deal with the issue are right on track.
    But I do want to double check that for you.
    Senator Lautenberg. Are you familiar with that?
    Mr. Merrifield. Nationally, the Y2K problem is something 
that everyone has to face, and when--if I am confirmed, 
certainly would want to look into that when I get over the NRC.
    Senator Lautenberg. I'll ask one last question, Mr. 
Chairman.
    There are ongoing disputes between NRC and EPA. Mr. 
Merrifield, you've had experience with EPA working here. You're 
aware of the disputations that have arisen?
    Mr. Merrifield. I'm aware of the dispute between the two 
agencies.
    Senator Lautenberg. How do you think we resolve these 
matters?
    Mr. Merrifield. Well, I think there was some talk, although 
it was not offered in the context of our Superfund markup, 
there was some talk that there needs to be a Congressional 
resolution to that issue to make a determination about how that 
should move forward.
    I think both of the agencies feel that they have a 
significant role to make in that determination, and it may very 
well be up to Congress to finally set clear who, indeed, should 
be the decisionmaking there.
    Senator Lautenberg. Mr. Chairman, I thank you very much, 
and I thank the witnesses.
    Senator Chafee. Senator, do you have further questions? As 
I mentioned before--now that there is a vote going off--as I 
mentioned before, it would be my intention to bring up these 
nominations tomorrow. We're all conscious of getting out of 
here, and I just don't want these to hang over if I possibly 
can avoid it for all those months.
    Under the Nuclear Regulatory Commission--and Ms. Dicus has 
experienced this--if you're not confirmed, reconfirmed, you go 
off. In other words, you can't hold on. So, in other words, her 
reappointment--her term expired, and----
    Senator Lautenberg. Are you off now?
    Senator Chafee. And so she's off now.
    Senator Smith. Her term expired June 30, didn't it?
    Ms. Dicus. Yes, it did.
    Senator Smith. I remember talking about that, that we could 
reasonably work this out in a few days.
    Senator Chafee. So, therefore, I'm anxious to proceed if at 
all possible with these nominees. If members have questions, I 
would ask that those questions be submitted by 2 p.m.
    Senator Lautenberg. Fair enough.
    Senator Chafee. That's a tight deadline, but then they can 
get their answers out very quickly. I know they will be 
anxious. They're just as anxious as I am, obviously, and I 
think we all are to get these nominees confirmed, if that's the 
will of the committee and of the Senate.
    Senator Lautenberg. Mr. Chairman, I indicated earlier that 
I had a little concern about the pace at which we're moving 
here. That is somewhat mitigated by the fact that we'd like to 
go back to our States and do our work there.
    But this is a fairly narrow timeframe. These are such 
important appointments, and the operation of the Commission is 
an important thing, and I want to be cooperative, Mr. Chairman, 
and we will get our material in by 2 p.m., but I want to take a 
look at things, I want to review the statements that have been 
delivered here.
    Senator Chafee. That's certainly fair enough.
    Senator Lautenberg. Thank you.
    Senator Chafee. All right. That concludes the hearing, 
unless you--does anybody have further questions?
    [No response.]
    Senator Chafee. All right. I want to thank everybody, thank 
the witnesses and the nominees.
    [Whereupon, at 12:04 p.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
  Statement of Jeffrey S. Merrifield, Nominated to be a Commissioner, 
                     Nuclear Regulatory Commission
    Mr. Chairman, members of the committee, thank you for the 
opportunity to appear before you today as one of President Clinton's 
two nominees to be a member of the Nuclear Regulatory Commission. I 
want to thank you, Mr. Chairman, for scheduling this hearing so 
promptly on our nominations. It is a privilege to be here today.
    Coming, as I do, from New Hampshire, I am well aware of the role 
played by the Nuclear Regulatory Commission in protecting the health 
and safety of the public in the licensed use of nuclear materials. As 
you know, Seabrook Station Nuclear Power Plant, which received its 
operating license in 1990 (the 3rd most recently licensed plant), was 
the subject of significant public debate in my State.
    When I came to work in the Senate for former Senator Gordon 
Humphrey of New Hampshire in 1986, my first job was answering the 
mountain of constituent mail regarding Seabrook. Although I was a 
correspondent for only a brief period of time, the memory of all of 
those letters is still quite clear to me. As you can imagine, the 
opinion of our constituents ranged from vocal opponents to strong 
supporters of nuclear power. Frequently, their letters urged the NRC to 
act on one side or another of a particular regulatory decision.
    Of the thousands of letters we received, some of them were from 
individuals who disagreed with positions taken by the NRC. However, I 
remember very few, if any, that called into question the integrity and 
objectivity of the NRC or its Commissioners. I believe that is very 
telling. In the time I have worked in the Senate, both on and off the 
Environment Committee, as well as the time I spent as a litigator in 
the private sector, I have consistently heard the message that the NRC 
is an agency that has earned the trust of the public. Indeed, the NRC 
has developed a well deserved reputation that it can be relied upon for 
fair and scientifically based decisionmaking.
    To prepare for this hearing, I took the time to read the record of 
the nomination hearings of the other Commissioners over the last few 
years. In his nomination statement 7 years ago, former NRC Chairman 
Ivan Selin made the following statement:
    In my view, when it comes to licensing a nuclear facility, the 
judgment on safety of the technical experts--both in-house and 
independent experts--deserves great weight. So does the endorsement of 
the NRC's decisions by reviewing courts. But in the long run, none of 
these will matter if the American public does not have confidence in 
the competence, the integrity, and the candor of the regulators who are 
making the decisions.
    I would like to associate myself completely with former Chairman 
Selin's statement. If I am fortunate enough to be confirmed by the 
Senate, I will use his statement as a guiding principal in fulfilling 
my duties as an NRC Commissioner.
    Despite the positive reputation that it has developed over the 
years, the NRC cannot take a solitary role in maintaining full public 
confidence in the safety of nuclear power. Indeed, the nuclear industry 
must also assume equal responsibility for taking the steps necessary to 
maintain the trust of the American public.
    Following the March 28, 1979 incident at Three Mile Island, 
President Carter asked Admiral Hyman G. Rickover, the father of our 
nuclear Navy, to review this matter and provide his analysis of the 
lessons learned from this incident. I believe that there is one passage 
in his report that is particularly instructive:
    Safe design, construction, and operation of nuclear power plants 
owned and operated by the utilities will not result from expanding the 
NRC, reorganizing the NRC, or passing more laws. Nor will it be derived 
from establishing new diverse, non-expert oversight groups. If 
commercial nuclear power plants are to be operated safely, the 
organizations that own and operate the plants--the utilities--must know 
what they are doing and commit themselves to take the steps necessary 
to achieve nuclear safety. If the utilities do not establish stringent 
standards, institute rigorous training programs, and police themselves, 
there is little hope for assured safe operation of commercial nuclear 
power.
    Mr. Chairman, I believe that statement was correct then, and almost 
20 years later, it is still correct.
    Much has changed at the NRC over these last 20 years. Most 
importantly, the scope of the NRC's work has evolved from a nuclear 
power plant and material licensing agency to the regulator of an 
operating nuclear industry. Within the next few years, the NRC will be 
faced with a significant number of new challenges. As you know, there 
are a number of plant owners that have filed for renewal of their 
licenses and others who have decided to decommission their facilities. 
The NRC will have to take an active role in determining whether or not 
plant relicensing can be accomplished in a manner that is fully 
protective of the health and safety of the individuals who live and 
work near these facilities. Similarly, the interest of the public will 
continue to be preeminent in making decisions associated with 
facilities undergoing decommissioning.
    Another potential challenge for the NRC in the next few years is a 
proposal to have the NRC become an external regulator for a number of 
Department of Energy facilities. While there are some who believe that 
this will provide greater public confidence in DOE's cleanup program, I 
am not predisposed either way on whether the NRC should assume such a 
role. Like others, I am interested in reviewing the results of the 
external regulation pilot projects that will be made available by DOE 
over the course of the next year. It is certainly possible that these 
pilot projects will result in a recommendation to increase the 
interaction between the NRC and DOE. If this is indeed the case, this 
will be a significant issue that the NRC will need to grapple with over 
the next few years.
    Since the breakup of the former Soviet Union, the NRC has taken a 
greater role in the international arena to assist both Russia as well 
as former members of the Eastern Bloc to modernize their safety 
procedures, fuel handling practices and training. While there are some 
who question this role, we should be proud that the United States has 
an agency that the world looks to for leadership on these important 
safety and health issues. Given the significant cross-boundary impact 
that nuclear incidents can have, I believe that it is vital that the 
NRC continue to be looked at as a leader in this area.
    Over the last few months, there has been a renewed Congressional 
interest in conducting oversight of the NRC. While there are some who 
think that Congressional scrutiny is to be greeted with fear and 
loathing, I believe that a frank and straightforward dialog between a 
regulated agency and its Congressional oversight committee can be good 
for both Congress as well as the agency. If I am given the privilege of 
being confirmed for this position, I would be pleased to come back here 
to testify at any time you so desire.
    In summary, I believe we are entering a very dynamic and critical 
time period at the NRC. I would be excited and eager to play a role in 
addressing these important issues. If I have the privilege to be 
confirmed for this position, I am hopeful that my experience and 
background will contribute to the confidence and integrity that we have 
come to expect from the NRC.
    Thank you very much Mr. Chairman. I am pleased to answer any 
questions you may have.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
Responses by Jeffrey S. Merrifield to Additional Questions from Senator 
                                 Inhofe
    Question 1. You are aware of the many reform efforts undertaken by 
the Commission over the past few months. Many of these efforts, of 
course, came about as the result of interest and activity by this 
committee. Are you, generally speaking, in favor of these efforts?
    Response. While I am aware that there are changes being considered 
by the NRC, I am not familiar with the details of these reform efforts. 
Nonetheless, if I am confirmed, I intend to come up to speed on these 
efforts very quickly. As a general matter, I believe the Commission 
should continually strive to ensure that it operates in an efficient 
and cost effective manner, fully consistent with its mandate to protect 
human health and safety.

    Question 2. You are also aware that this committee has already 
announced plans for a series of hearings to oversee the NRC and its 
efforts toward reform. Can we count on the two of you being available 
to the committee as we move forward with our oversight 
responsibilities?
    Response. I am aware of your intention to hold an NRC oversight 
hearing sometime after the first of the year. As I stated in my 
statement, I believe that a frank and straightforward dialog between a 
regulated agency and its Congressional oversight Committee is positive 
for both. If I am given the privilege of being confirmed for this 
position, I would be pleased to come back here to testify at any time.

    Question 3. I'd like both of you to briefly comment on each of the 
following reform efforts currently ongoing at the agency and tell us 
what you will do to ensure that these changes are fully carried out 
during your tenure.
    Response. As a general matter, I do not have all of the details of 
these programs, but I generally support the concept of constant review 
and reform to improve the effectiveness of the regulatory system. 
Notwithstanding these efforts, nuclear safety must remain the focus of 
NRC activities.

    Question 3a. Efforts by the Commission to exercise its management 
oversight responsibilities by providing clear direction and 
expectations to Atomic Safety and Licensing Boards?
    Response. This is not an area I have studied, but I intend to do so 
if I am confirmed.

    Question 3b. Efforts by the Commission to establish a license 
renewal timetable of 30 months, including time for hearings if 
necessary?
    Response. Generally, I believe that it is positive for the 
Commission to establish clear time tables for its decisions and strive 
to meet them. As I am not a member of the Commission, I do not know 
whether 30 months is an appropriate period of time for a decision on a 
license renewal.

    Question 3c. The Commission's acceptance that the regulator's role 
is not to demand perfection, but to achieve ``adequate protection of 
public health and safety'' as called for in the Atomic Energy Act?
    Response. Although I am not familiar with the interpretation of 
this particular provision of the Atomic Energy Act, I would be pleased 
to look into this matter if I am confirmed by the Senate.

    Question 3d. Efforts to integrate and overhaul the agency's 
processes for assessment, inspection and enforcement?
    Response. It is my understanding that the integration of the 
assessment, inspection and enforcement processes is taking place. I 
further understand that the NRC and the nuclear industry are meeting 
soon to discuss this issue. If I am confirmed, I look forward to 
reviewing the results of this meeting to see if further regulatory 
improvements may be made.

    Question 3e. The Commission's recent announcement that it would 
suspend the SALP process indefinitely?
    Response. It appears to me that the NRC decision to suspend the 
SALP process has been done in concert with its effort to integrate the 
assessment, inspection and enforcement processes. If an effort is 
underway to streamline this process, a suspension of the SALP process 
would seem to make sense as part of its efforts to test the newer 
processes.

    Question 3f. The agency's new found commitment to dealing with a 
petition for rulemaking that would allow more flexibility for plants in 
making changes to their quality assurance plans?
    Response. I am not familiar with the details of the petition for 
rulemaking in the quality assurance area. Generally, the nuclear 
programs in the United States are known for their extensive quality 
programs. If confirmed, I would undertake an effort to review how the 
NRC deals with these programs.

    Question 4. As you know, the NRC's budget is completely paid for by 
a direct assessment on agency licensees. As public servants, it is your 
duty to ensure that any moneys collected by the Federal Government are 
used effectively and cost-efficiently. This committee and others in the 
Congress have expressed particular concern in the last year regarding 
long-standing criticisms of internal agency management practices. What 
will you do to initiate and/or support efforts to streamline the NRC's 
staff and processes?
    Response. I agree that as a public servant, it is my duty to ensure 
that any moneys collected by the Federal Government are used 
effectively and cost-efficiently. It is my understanding that the NRC 
has sought the assistance of an outside accounting firm to review 
agency management practices. I believe outside review of these 
practices can be helpful and useful. If confirmed, I look forward to 
reviewing the external analysis. As I stated previously, I believe the 
agency should continually strive to operate in an efficient and cost 
effective manner, consistent with its mandate to protect human health 
and safety.

    Question 5. Since 1994, the Commission has been aware that agency 
licensees are charged more than $50 million annually for activities 
unrelated to the NRC's regulation of them. To date, the Commission has 
made little effort to rectify this inequity. What are the two of you 
willing to do to ensure that licensees pay only for activities related 
to their own regulation?
    Response. I am aware that there have been concerns raised by agency 
licensees regarding charges that they believe are unrelated to the NRC 
regulation of their operations. While I have not had an opportunity to 
review these concerns in detail, I will certainly do so if I am 
confirmed.

    Question 6. There has been some indication that the Commission will 
suspend the agency's Watch List beginning next year. Would you be in 
favor of such a move?
    Response. As I am not a member of the Commission, I am not privy to 
its internal deliberations regarding a suspension of the Watch List. If 
I am confirmed as a member of the Commission, I would certainly review 
the Watch List process in concert with efforts regarding the 
integration of the assessment, inspection and enforcement functions.

    Question 7. In fiscal year 1999 Energy and Water Development 
Appropriations Conference Report the Congress provided buy out 
authority for the NRC to speed work force downsizing and restructuring 
the agency. We expect that these funds will be used to reduce 
duplication in the agency, improve the supervisor to employee ratio, 
and begin to consolidate functions within divisions.

    Question 7a. Are you prepared to use this authority granted to you 
as a new member of the Commission?
    Response. I believe that buy out authority can be a useful tool for 
managers of all Federal programs in efforts to right-size Federal 
agencies. As I am not currently on the NRC, I cannot comment whether or 
not this authority is appropriate at the NRC. If I am confirmed, and if 
I come to the conclusion that this should be utilized at the NRC, I am 
prepared to use that authority.

    Question 7b. In what way do you think the buy out authority will 
benefit the NRC?
    Response. I refer to my answer to the previous question.

    Question 8. NASA has just announced a new program with George Mason 
University which will provide a transition for senior managers and 
others who can afford to retire but do not want to give up the 
challenges of having a job. Those selected will become advisors to the 
commercial space and satellite industry. NASA is trying this program in 
the hope that senior employees will retire sooner without forced 
reductions or buyouts.

    Question 8a. Do you think that the NRC may want to begin a similar 
program?
    Response. I am aware of the NASA program. It certainly looks 
interesting, and if confirmed, I would be pleased to review it to see 
if it has applicability at the NRC.

    Question 8b. What steps do you foresee needed to develop such a 
program?
    Response. I refer to my answer to the previous question.
Nuclear Waste Questions
    Radiation Protection Standard

    Question 1. An area of significant concern to the committee is the 
establishment of an appropriate radiation protection standard for the 
permanent repository for nuclear waste. On April 29, 1997, members of 
the NRC testified before the House Subcommittee on Energy and Power of 
the House Commerce Committee.
    At that hearing Chairman Jackson was asked a question relative to 
the public health and safety afforded by the radiation standard. She 
stated,
    ``The [Nuclear Regulatory] Commission notes the standard in H.R. 
1270 of an annual effective does of 100 mrem to the average member of 
the general population in the vicinity of Yucca Mountain and views that 
standard as consistent with the protection of the public health and 
safety.''
    Do you support the point of view enumerated by Chairman Jackson 
relative to the radiation protection standard as it was included in 
H.R. 1270?
    Response. I have not had the opportunity to review the language 
included in H.R. 1270, nor have I had an opportunity to review the 
testimony made by Chairman Jackson relative to that legislation. I 
would be pleased to look into this matter if I am confirmed by the 
Senate.

    Question 2. When the Senate considered this issue in the context of 
S. 104, it included a standard which was more stringent than the one 
included in H.R. 1270. Is it your view that, if enacted, the standard 
in S. 104 also adequately protects health and safety of the public as 
well as the standard in H.R. 1270?
    Response. I have not had the opportunity to review the language in 
S. 104, nor have I had the opportunity to determine how it compares to 
the language included in H.R. 1270. I would be pleased to look into 
this matter if I am confirmed by the Senate.

    Question 3. As you know, EPA has the initial responsibility for 
promulgating and establishing such a standard; however, other agencies 
(DOE and NRC) also have a serious interest in assuring that the 
radiation standard is appropriately set. But as the process has 
unfolded, we understand that there has been a significant disagreement 
between the agencies as to the appropriate standard to apply. NRC and 
DOE have taken the position that the standard currently contemplated by 
EPA is not appropriate.

    Question 3a. Would you not agree that the EPA standard as currently 
favored by EPA is not workable? Please explain your rationale.
    Response. I am not fully familiar with the difference in approach 
between the NRC, DOE and the EPA in establishing a radiation standard 
for a permanent repository. However, if confirmed, there are two 
principles I believe are important:
    First, whatever standard is ultimately adopted, it must be 
protective of public health and safety.
    Second, while it would be beneficial for the agencies come to a 
mutual agreement on setting a standard, if they cannot do so, there may 
be a justification for Congressional action to settle these 
differences.

    Question 3b. Do you agree that a ground water standard as part of 
the overall standard is not appropriate in this circumstance?
    Response. I refer to my answer to the previous question.

    Question 3c. Do you agree that it is appropriate for the NRC in 
developing Part 63 to not include subsystem performance standards as a 
separate ground water standard?
    Response. I refer to my answer to question 3(a).

    Question 3d. In your view, is the standard currently proposed by 
the EPA consistent with the recommendations of the National Academy of 
Sciences, as required by Section 801 (a)(1) of the Energy Policy Act of 
1992?
    Response. I refer to my answer to question 3(a).
Viability Assessment Analysis

    Question 1. The Senate remains concerned over the timeframe 
required before a repository is operational at Yucca Mountain. As an 
important step, DOE is now currently conducting a viability assessment. 
That assessment is anticipated to be completed this Fall and delivered 
to the NRC. Following receipt of the viability assessment by NRC, the 
Commission will have a 3-month period to review the ``Licensing 
Application Plan,'' included in the assessment.
    Will you provide the committee with a commitment to expeditiously 
review the assessment and complete this specific task within 3 months? 
At the end of the 3-months, will you be able to inform DOE of any 
improvements in the ``Licensing Application Plan''? If not, for either 
questions please describe why that will not be possible.
    Response. Although I am not completely familiar with any 
constraints the Commission may face on this issue, I am fully committed 
to an expeditious review of these issues, consistent with protection of 
public safety. I would expect that the Commission would be accountable 
to inform DOE of any improvements required in their Licensing 
Application Plan.
                                 ______
                                 
Responses by Jeffrey S. Merrifield to Additional Questions from Senator 
                               Lautenberg

    Question 1. Please discuss your professional background, and how 
this will be an asset to the Commission, and to the regulation of the 
nuclear industry.
    Response. I began my professional career in the U.S. Senate in 
1986, working as a legislative assistant for Senator Gordon J. Humphrey 
(R-NH). In that role, I served as the Senator's legislative assistant 
for issues that related to his assignment on the Senate Environment and 
Public Works Committee, as well as energy issues in general. In this 
role, I acted as the Senator's advisor on issues associated with the 
oversight of the Nuclear Regulatory Commission. From 1986 until the 
time Senator Humphrey retired in 1990, I assisted Senator Humphrey in 
his efforts to ensure that safety requirements were not waived by the 
NRC during the construction of Seabrook Station Nuclear Power Plant. 
During this time period, Senator Humphrey led the fight to ensure that 
the 10-mile emergency evacuation zone at Seabrook was not reduced. In 
addition, I also staffed Senator Humphrey on the Reauthorization of the 
Price-Anderson Act, issues related to the Waste Isolation Pilot Project 
and the High Level Waste Repository.
    From 1990 through 1992, I was employed by Senator Bob Smith (R-NH) 
and played a similar role in advising him on nuclear issues that came 
before the Senate Environment Committee and before the U.S. Senate.
    From 1992 through 1994, I was an attorney in private practice with 
the Washington, D.C. based law firm of McKenna and Cuneo. At McKenna, I 
represented a broad range of clients on regulatory, corporate and 
litigation matters. In this role, I was involved with a number of 
activities pursuant to the Administrative Procedures Act, as well as 
compliance with a number of environmental laws including the Resource 
Conservation and Recovery Act (RCRA), the Toxics Substances Control 
Act, the Comprehensive Environmental Response, Compensation and 
Recovery Act (CERCLA) and the Clean Water Act (CWA).
    From 1995 through the present, I have acted as Senator Smith's 
counsel for the Subcommittee on Superfund, Waste Control and Risk 
Assessment. In this role, I crafted legislation regarding the 
reauthorization of CERCLA as well as amendments to RCRA.
    Senator Smith is also the Chairman of the Senate Armed Services 
Subcommittee on Strategic Forces. I have acted as one of Senator 
Smith's principal advisors on issues associated with the cleanup of 
Department of Defense and Department of Energy facilities that are 
contaminated by hazardous or radioactive waste. I have described these 
activities more specifically in my responses to questions 2 and 3. In 
addition to these activities, Senator Smith also directed me to track 
the series of pilot projects between the Department of Energy and the 
Nuclear Regulatory Commission regarding the possibility of external 
regulation by the NRC of DOE activities. The results of these pilot 
projects will be made available by the DOE over the course of the next 
1-2 years, and may involve additional oversight responsibilities by the 
NRC.
    I believe that if I am confirmed, my legislative and legal 
experience in the Senate will be an asset to the Commission. Having 
been the primary staffer on nuclear issues for two members of the NRC's 
oversight committee, I believe that I can share with the other 
Commission members a greater insight into the expectations that 
Congress has for the NRC. Having also served Senator Smith on a number 
of issues associated with the cleanup, safe transportation and storage 
of low level, transuranic, high level and mixed wastes under control of 
the Department of Defense and the Department of Energy, I believe that 
my background will serve me well if I am confirmed.
    In addition, since there are currently no attorneys on the Nuclear 
Regulatory Commission, and considering the fact that it acts 
essentially as an adjudicatory body, I believe that my experience would 
add to the diversity of the NRC, and hopefully provide a fresh insight 
into many of the issues currently under consideration by the 
Commission.

    Question 2. I understand that you have investigated Department of 
Energy and Department of Defense hazardous and radiological waste 
programs. Please identify the particular programs investigated, the 
reasons for the investigations, and the nature of your involvement in 
the investigations. Please identify any steps taken by the Department 
of Energy or the Department of Defense as a result of such 
investigations.
    Response. The investigations were focused on activities of the 
Department of Energy's Office of Environmental Management and the 
Department of Defense's Environmental Restoration program. Specific 
areas investigated included the degree to which DOE and DOD comply with 
requirements of Federal statutes such as RCRA, CERCLA and the Federal 
Facilities Compliance Act. Investigations also included the review of 
Federal policies and budgets. My role was not to direct the 
Departments' management of these programs but to support the Chairman 
of the Superfund, Waste Control and Risk Assessment Subcommittee by 
gathering information to support his decisions and actions in crafting 
environmental legislation.
    My specific involvement included meetings with Federal installation 
managers, site cleanup contractors, U.S. Environmental Protection 
Agency officials, State and local officials, and stakeholder and 
community groups; organizing and participating in Congressional 
oversight hearings; and drafting proposed legislation.
    As a result, several important legislative initiatives were 
successfully passed into law. For example, the Land Disposal Program 
Flexibility Act which eliminated duplicative and overlapping layers of 
regulation in the Resource Conservation and Recovery Act was passed in 
1996. In addition, Senator Smith included a series of CERCLA amendments 
in the National Defense Authorization Acts of 1995 and 1996 that 
streamlined the reutilization of facilities closed under the Base 
Closure and Reutilization Act. The amendments were intended to promote 
rapid reutilization of these facilities while at the same time meeting 
existing cleanup standards and requirements. Finally, as a direct 
result of hearings held by the Senate Armed Services Committee, 
Secretary Richardson recently announced plans to reexamine the 
Department of Energy's policy on offsite disposal of low level 
radioactive waste. This new policy will ensure that DOE low level and 
mixed low level radioactive wastes are disposed of only at licensed 
facilities. It is anticipated that the new policy will promote greater 
competition for such disposal among existing licensed contractors, 
resulting in savings to the taxpayers.

    Question 3. I understand that you have participated in the review 
of hazardous waste cleanup efforts at the Department of Defense. Please 
identify the particular cleanup efforts you reviewed, the reasons for 
your review, and the nature of your involvement in the investigations. 
Please identify whether any of these cleanups involved mixed waste, or 
radioactive waste. Please identify any steps taken by the Department of 
Defense as a result of the review.
    Response. As stated in my answer to question 2, the investigations 
were focused on activities of the Department of Defense's Environmental 
Restoration program. The cleanup efforts reviewed, the reasons for the 
reviews, and my role in the investigations are the same as indicated in 
my answer to question 2.
    Several of the programs investigated have responsibility for 
cleanup of low level radioactive and mixed wastes. For example, I 
reviewed the radioactive waste management programs of the Department of 
the Navy through numerous meetings with Navy personnel and discussing 
Naval fuel loading, transportation, storage, and processing activities. 
During my visits to Puget Sound Naval Shipyard and the Portsmouth Naval 
Shipyard, I encountered sites where the Navy was managing mixed waste 
and radioactive waste.
    I have participated in the review of programs carried out by the 
Office of Naval Reactors, which includes the decommissioning of surplus 
reactor training facilities. The Office of Naval Reactors has 
established an aggressive decommissioning program to decontaminate and 
close its surplus nuclear facilities. My reviews focused on the cleanup 
and decontamination standards adhered to at Navy closure sites and the 
processes utilized to maximize protection of worker safety and health 
and protection of public health and the environment.
    Again, as I stated in my answer to question 2, my role was not to 
direct the Departments' management of these programs but to support the 
Chairman of the Superfund, Waste Control and Risk Assessment 
Subcommittee by gathering information to support his decisions and 
actions in crafting environmental legislation.

    Question 4. What are your views about the adequacy of NRC 
regulations? Do you think they are too burdensome? Too lax? Please 
identify specific regulations you believe should be modified, and 
explain your reasons for believing that they require modification.
    Response. I do not have a specific opinion regarding whether the 
existing NRC regulations are too burdensome or too lax. If I am 
confirmed as an NRC Commissioner, I intend to quickly become more 
familiar with these regulations and how they may be improved.
    I am aware that many stakeholders have raised a number of concerns 
about the NRC regulations. Many of the concerns appear to be focused on 
the reactor oversight program, specifically on the inspection and 
performance assessment processes; the enforcement program; license 
renewal; license transfers; the transition to a risk informed and 
performance based framework; and other areas requiring timely 
decisions. I understand that the NRC has a number of improvements 
underway to reduce the burden on licensees and make more timely 
decisions while still ensuring adequate protection of public health and 
safety. If confirmed, I plan to evaluate the adequacy of NRC's 
regulations and the ongoing efforts to improve them in order to better 
understand what further modifications may be necessary.

    Question 5. I understand that you are a member of the Federalist 
Society. Please describe this Society's mission, and whether the 
Society has adopted any positions that pertain to regulating the 
nuclear industry. Please also describe the activities you have 
performed as a member of the Society.
    Response. The Federalist Society is a social and educational 
organization of lawyers that is similar to the American Bar 
Association. To quote the Federalist Society ``purpose'' statement: 
``The Federalist Society for Law and Public Policy Studies is a group 
of conservatives and libertarians interested in the current state of 
the legal order. It is founded on the principles that the state exists 
to preserve freedom, that the separation of governmental powers is 
central to our Constitution, and that is emphatically the province and 
duty of the judiciary to say what the law is, not what it should be. 
The Society seeks both to promote an awareness of these principles and 
to further their application through its activities.''
    Since I have been a member of the Federalist Society I have 
attended a number of social functions including lunches and dinners. I 
do not hold a membership in any office of the Federalist Society.
    According to the staff at the Federalist Society, the Society has 
never taken a position, either formal or informal, pertaining to the 
regulation of the nuclear industry.
                               __________
 Statement of Greta Joy Dicus, Nominated to be a Commissioner, Nuclear 
                         Regulatory Commission
    Mr. Chairman, members of the committee, it is indeed a great 
privilege and honor for me to appear before you as one of President 
Clinton's two nominees to be a Member of the Nuclear Regulatory 
Commission (NRC). Many of you are familiar with my professional 
credentials and qualifications from previous appearances before you, so 
I will give an abbreviated version of my background.
    My educational background includes a Master of Arts degree in 
Radiation Biology from the University of Texas, Southwestern Medical 
School in Dallas Texas and my undergraduate degree was in Biological 
Sciences, with minors in Chemistry and Government History, from Texas 
Woman's University in Denton, Texas. After a career in research and as 
a State official in the State of Arkansas, eventually serving as 
Director of the Division of Radiation Control and Emergency Management 
for the Arkansas Department of Health, I was nominated and confirmed by 
the U.S. Senate as an original member of the Board of Directors of the 
United States Enrichment Corporation. I served on the U.S. Enrichment 
Corporation Board until my term ended in March 1995. I was subsequently 
nominated and confirmed as a member of the U.S. Nuclear Regulatory 
Commission, commencing a term in February 1996 which was completed on 
June 30 of this year.
    When I last appeared before this committee as my previous 
nomination to the NRC was under consideration, I explained that NRC's 
mission was to ensure that civilian uses of nuclear materials in the 
United States are carried out with adequate protection of the public 
health and safety, the environment, and national security. My term as a 
Commissioner has not changed my understanding of the NRC mission and I 
will continue to work if confirmed to a second term to further the 
accomplishment of NRC's mission.
    During the previous hearing Senators Chafee and Smith expressed 
support for assuring NRC was positioned to effectively consider that 
nuclear power plant license renewal applications, if submitted, are 
efficiently and effectively considered. I am pleased to say that just 
prior to the end of my first term, all Commissioners had unanimously 
approved a policy statement providing for improved management of 
adjudicatory hearings including those for license renewal. This Policy 
Statement was published on August 5, 1998. The framework outlined in 
that policy statement has already been utilized in establishing a 
hearing schedule for the first license renewal application, filed by 
Baltimore Electric and Gas Company to renew the operating license for 
their Calvert Cliffs power plant. These hearing improvements have great 
potential to provide an expeditious consideration of license renewal 
applications and any concerns of members of the public related to the 
applications. In addition, an application for renewal of the Oconee 
Nuclear Station, Units 1, 2, and 3 was received by NRC from Duke Energy 
Corporation on July 6, 1998, and this policy statement would also be 
used by the Licensing Board if a hearing is granted in that proceeding. 
During my first term, the Commission initiated a number of actions to 
improve the regulatory framework of the agency, particularly with 
respect to performance assessments of nuclear power plants. Much 
remains to be done to see these improved programs finalized and 
implemented and during a second term on the Commission I would continue 
to press to improve the effectiveness and efficiency of the 
Commission's activities in furtherance of NRC's regulatory mission.
    During my first term on the Commission, it was clear to me that 
many challenges face the agency as the nature of the nuclear industry 
changes, involving both power plants and the use of radiological 
materials in other beneficial ways. I stated during my first 
confirmation hearing that we should utilize a fair and open process in 
all decisions, while at the same time maintaining our regulatory 
independence. I worked faithfully to make decisions with those 
principles in mind during my first term and will continue to do so if 
confirmed for a second term. It is clear that an efficient, fair, and 
open process to reaching regulatory decisions will assure that the 
industry understands, and that the public accepts, NRC's regulatory 
decisions.
    I want to express to you my appreciation for this opportunity to 
discuss my renomination to a second term as a Commissioner on the NRC. 
I would be pleased to answer any questions at this time.
                                 ______
                                 
  Responses by Greta Dicus to Additional Questions from Senator Inhofe

    Question 1. You are aware of the many reform efforts undertaken by 
the Commission over the past few months. Many of these efforts, of 
course, came about as the result of interest and activity by this 
committee. Are you, generally speaking, in favor of these efforts?
    Response. I supported those efforts that were initiated while I was 
on the Commission, and in general, I am in favor of efforts that 
improve the effectiveness and efficiency of the agency. Many of the 
efforts are not complete and will be continuing. Such improvements as 
the recently issued Policy Statement on the Conduct of Hearings will 
require continued Commission attention to assure proper implementation. 
Additionally, the Government Performance and Results Act has provided a 
framework for the agency to begin improving our ability to institute 
and monitor reforms. I believe we owe it to both the Nation and our 
stakeholders (licensees, public interest groups, ratepayers) to assure 
we reform as necessary to maintain an organization that can protect the 
public health and safety without undue costs or delays. I, therefore, 
do support reforms that would assist the agency in achieving these 
goals.

    Question 2. You are also aware that this committee has already 
announced plans for a series of hearings to oversee the NRC and its 
efforts toward reform. Can we count on the two of you being available 
to the committee as we move forward with our oversight 
responsibilities?
    Response. I assure the committee that if I am confirmed by the 
Senate I will be available to individual members or the entire 
committee as necessary to allow the committee to conduct its oversight 
responsibilities.

    Question 3. I'd like both of you to briefly comment on each of the 
following reform efforts currently ongoing at the agency and tell us 
what you will do to ensure that these changes are fully carried out 
during your tenure:

    Question 3(A). Efforts by the Commission to exercise its management 
oversight responsibilities by providing clear direction and 
expectations to Atomic Safety and Licensing Boards?
    Response. (A) Particularly during the later part of my first term I 
was concerned with the performance of our Licensing Boards. Throughout 
my first term I reviewed adjudicatory matters and increasing found 
distressing the length of time some proceedings were taking to reach 
finality. As I mentioned in my prepared remarks for the committee, one 
outgrowth of the concern of myself and my fellow Commissioners was a 
recently issued policy statement providing additional guidance on the 
conduct of hearings. I believe the members of the Commission are 
committed to looking for improvements and improved performance in terms 
of the efficiency with which we reach adjudicatory decisions. If 
confirmed, I intend to continue to monitor these issues as the 
Licensing Boards implement the new Commission hearing policy.

    Question 3(B) Efforts by the Commission to establish a license 
renewal timetable of 30 months, including time for hearings if 
necessary?
    Response. (B) I believe the Commission can meet the 30 month 
schedule for license renewal. In fact, I have some hope that as we gain 
experience with the renewal process we will find future renewals can be 
issued in shorter timeframes. It must be recognized that some 
components of this 30 month cycle arise from statutorily mandated 
opportunity for hearings and NEPA reviews. Adequate time must be 
allowed for these reviews and for the staff to conduct sufficient 
technical reviews to reach an informed decision on the acceptability of 
the proposed renewal application. Nevertheless, it is not unreasonable 
to expect NRC to be able to meet a 30 month schedule for this process.

    Question 3(C) The Commission's acceptance that the regulator's role 
is not to demand perfection, but to achieve ``adequate protection of 
public health and safety'' as called for in the Atomic Energy Act?
    Response. (C) The Commission recognizes its role to assure adequate 
protection of public health and safety, and has performed this 
responsibility exceedingly well. Because of this responsibility as well 
as the complexities of the technology and the potential ramifications 
of a nuclear accident, the reviews that NRC performs are necessarily 
thorough. I do not believe ``perfection'' is the standard by which 
licensees should be regulated. I and my fellow Commissioners have 
always remained sensitive to the need to conduct regulatory reviews in 
a timely manner and have exercised increased oversight of staff 
activities to ensure continued timeliness and efficiency in review 
processes. If confirmed, I will continue to exercise such oversight to 
ensure that proper protection of public health and safety is 
maintained.

    Question 3(D) Efforts to integrate and overhaul the agency's 
processes for assessment, inspection and enforcement?
    Response. (D) The Commission has undertaken a significant effort to 
integrate its various processes for assessing the performance of 
licensees, inspection and enforcement. This integrated review effort 
should result in a more efficient and objective assessment process by 
incorporating the desirable attributes of existing processes while 
eliminating duplicative and nonvalue-added components of the process. 
Public comments will be sought on the revised assessment process, which 
includes inspection and enforcement aspects. While it is expected that 
this new process will be a significant improvement over those used in 
the past, I will continue to strive to ensure that assessment processes 
are adequately serving the public need, and make appropriate changes 
when necessary.

    Question 3(E) The Commission's recent announcement that it would 
suspend the SALP Process indefinitely?
    Response. (E) The Commission suspended the SALP process 
indefinitely in order to utilize the resources that would have been 
directed toward SALP reviews, for the completion of the integrated 
review of assessment processes. In the interim, results obtained via 
other NRC assessment processes will be made publicly available to 
ensure that the public is kept adequately informed of licensee 
performance. I am very supportive of the integrated review, the 
development of which began during my first term on the Commission. By 
early 1999, progress on the integrated review should be sufficient for 
my fellow Commissioners and me to make final determinations on the 
format for future evaluations and monitoring of licensee performance.

    Question 3(F) The agency's new found commitment to dealing with a 
petition for rulemaking that would allow more flexibility for plants in 
making changes to their quality assurance plans?
    Response. (F) The NRC is committed to promptly consider all 
petitions for rulemaking. In the area of Quality Assurance the staff, 
several years ago, implemented a ``graded quality assurance'' pilot 
program intended to allow licensees flexibility in making changes to 
their quality assurance plans without first receiving NRC approval. 
This program is ongoing. The staff is also continuing its review of a 
recent petition for rulemaking regarding changes to quality assurance 
programs. I am supportive of all initiatives that are technically 
sound, prudent, and worthwhile, and continue to encourage frank dialog, 
and timely and efficient reviews of such initiatives. As a general 
matter, I am always willing to listen to new and innovative suggestions 
for ways to reach the agency's goal of protection of the public health 
and safety without unnecessary costs to licensee, ratepayers and 
taxpayers.

    Question 4. As you know, the NRC's budget is completely paid for by 
a direct assessment on agency licensees. As public servants, it is your 
duty to ensure that any moneys collected by the Federal Government are 
used effectively and cost-efficiently. This committee and others in the 
Congress have expressed particular concern in the last year regarding 
long-standing criticisms of internal agency management practices. What 
will you do to initiate and/or support efforts to streamline the NRC's 
staff and processes?
    Response. I am strongly committed to ensuring that moneys collected 
by the Federal Government will be used by the USNRC effectively and 
cost-efficiently. During my first term, the Commission completed a 
strategic assessment and rebaselining that provided the groundwork for 
re-aligning and streamlining operation of the NRC. Realignment of 
agency management functions will significantly aid in meeting these 
goals. The creation of an Executive Council consisting of the Directors 
for Operations, Finance and Information will provide clear lines of 
responsibilities for these key areas. The Chief Financial Officer will 
provide a central management point for assuring cost effectiveness of 
USNRC operations. The creation of the Office of the Deputy Executive 
Director for Regulatory Effectiveness will provide a meaningful way for 
monitoring the Commission's success in meeting our goal of increasing 
effectiveness and to identify new avenues to further increase our 
effectiveness. Steps have been successfully taken increasing the span 
of responsibility of supervisors and managers including increasing the 
employee-supervisory ratio.
    It is important to note that changes are relatively new and time 
will be required to realize the full potential of these changes.

    Question 5. Since 1994, the Commission has been aware that agency 
licensees are charged more than $50 million annually for activities 
unrelated to the NRC's regulation of them. To date, the Commission has 
made little effort to rectify this inequity. What are the two of you 
willing to do to ensure that licensees pay only for activities related 
to their own regulation?
    Response. I believe the Commission has been making efforts in this 
area. The Commission is on record supporting an amendment to the Atomic 
Energy Act to remove that portion of NRC operations not directly 
related to regulation of NRC licensees from the license fee base and 
fund it through general appropriation. I concurred in this and continue 
to support this amendment as a matter of fairness and equity to NRC 
licensees. As a fundamental matter, there are activities undertaken by 
the NRC that are necessary and benefit the Nation generally, rather 
then specific licensees. Such activities might be more fairly funded 
through a mechanism other than user fees. At the same time the 
Commission has taken steps to streamline and prioritize its functions 
in these areas, for example, through the strategic assessment and 
rebaselining reviews of the Agreement State program and the Office of 
International Programs. While many of the NRC functions in these areas 
are statutorily required, I believe that the Commission actions to make 
these programs more effective and cost efficient together with 
Commission support for amending the Act to remove these activities from 
the licensee fee base represent significant steps to address licensees' 
concerns. These efforts will assure those activities fairly assessed to 
the licensees are conducted in the most efficient, cost effective 
manner.

    Question 6. There has been some indication that the Commission will 
suspend the agency's Watch List beginning next year. Would you be in 
favor of such a move?
    Response. Each of the Commission's assessment processes that have 
been implemented have served the agency and the industry well to assure 
adequate public health and safety. All were very effective in achieving 
their purposes at the time they were instituted and each of those 
processes continue to contain elements that are relevant today. It is 
the responsibility of the Commission to ensure that these assessment 
processes are maintained current and relevant with respect to the 
industry's operational performance and circumstances. My response to 
question 3(d) and (e) more fully describes agency efforts to assure 
that any duplicative, unnecessary or inefficient plant evaluation 
efforts are adjusted to create an efficient integrated system to 
monitor plant performance. If confirmed, I will continue to assess the 
usefulness of the watch list in the broader context of the overall 
integrated review of assessment processes.
    Question 7. In fiscal year 1999 Energy and Water Development 
Appropriations Conference Report the Congress provided buyout authority 
for the NRC to speed work force downsizing and restructuring the 
agency. We expect that these funds will be used to reduce duplication 
in the agency, improve the supervisor to employee ration, and begin to 
consolidate functions within divisions.

    (A) Are you prepared to use this authority granted to you as a new 
member of the Commission?
    Response (A). I would be fully prepared to use buyout authority to 
reduce supervisor to employee ratios and to improve the efficiency of 
the agency operations.

    (B) In what way do you think the buyout authority will benefit the 
NRC?
    Response (B). Obviously, having established a goal of reducing the 
management to employee ration, it would be of benefit to the NRC if 
buyout authority can be used to reach this goal without the disruption 
that forced reductions in force could introduce. I do, however, have 
concerns about processes that inevitably result in our losing some of 
our most experienced managers. On the other hand, to rely on attrition 
alone may not meet our restructuring goals and forced reductions also 
have negative implications, particularly if they have the unintended 
effect of depriving the agency of its future leaders. I, therefore, do 
believe that buyout authority is a valuable tool that, if used 
judiciously, can help make for a smooth transition to a leaner agency.

    Question 8. NASA has just announced a new program with George Mason 
University which will provide a transition for senior managers and 
others who can afford to retire but do not want to give up the 
challenges of having a job. Those selected will become advisors to the 
commercial space and satellite industry. NASA is trying this program in 
the hope that senior employees will retire sooner without forced 
reductions and buyouts.

    (A) Do you think that the NRC may want to begin a similar program?
    Response (A). Although I am not familiar with NASA's new program 
with George Mason University, based on the information provided in the 
question, I would not object to evaluating the merits of implementing 
such a program at the NRC if current efforts to streamline are 
unsuccessful. As you know, like NASA, the NRC is in the process of 
reducing the number of managers in its organization. As part of this 
effort, an agency goal is to substantially reduce the number of Senior 
Executive Service (SES) managers by January 1999. This will be 
accomplished, in large part, by reorganization efforts currently 
underway. I am firmly committed to streamlining the agency to the 
extent that it does not decrease public health and safety. If NRC's 
current efforts are unsuccessful, I would be willing to consider 
alternate methods of streamlining the agency, such as implementing a 
program similar to NASA's new program.

    (B) What steps do you foresee needed to develop such a program?
    Response (B). Specific steps needed to develop such a program would 
be developed and considered during the course of evaluating the merits 
of the program.
Nuclear Waste Question
    Radiation Protection Standard

    Question 1. An area of significant concern to the committee is the 
establishment of an appropriate radiation protection standard for the 
permanent repository for nuclear waste. On April 29, 1997, members of 
the NRC testified before the House Subcommittee on Energy and Power of 
the House Commerce Committee.
    At that hearing Chairman Jackson was asked a question relative to 
the public health and safety afforded by the radiation standard. She 
stated,
    ``The [Nuclear Regulatory] Commission notes the standard in H.R. 
1270 of an annual effective does of 100 mrem to the average member of 
the general population in the vicinity of Yucca Mountain and views that 
standard as consistent with the protection of the public health and 
safety.''
    Do you support the point of view enumerated by Chairman Jackson 
relative to the radiation standard as it was included in H.R. 1270?
    Response. I concur in the Chairman's statement that the standard in 
H.R. 1270 is consistent with the protection of the public health and 
safety, but would add my expectation that this standard, if enacted, 
would be implemented together with NRC's existing requirement that 
licensees make every reasonable effort to maintain exposures to 
radiation as far below the dose limits as is reasonably achievable 
(ALARA). In practice, the implementation of the ALARA requirement by 
NRC licensees has resulted in worker and public doses resulting from 
licensed operations that are well below applicable regulatory limits. 
It should be noted that, as a general practice in radiation protection, 
the basic radiation protection limit of 100 mrem/y is apportioned when 
there is a possibility of exposure to multiple licensed sources of 
radiation (``constraints''). In the case of the Yucca Mountain site, 
however, its extreme remoteness makes it unlikely that members of the 
public in its vicinity will be exposed to other licensed activities. 
Therefore, application of the standard in H.R. 1270 when combined with 
the existing requirement for ALARA is acceptable in this case. With 
these understandings, the standard is consistent with the 
recommendation of the International Commission on Radiological 
Protection (ICRP) and the National Council for Radiation Protection and 
Measurements (NCRP) for members of the general public. The ICRP and 
NCRP are independent scientific organizations which provide 
scientifically based recommendations for radiation protection which are 
generally followed worldwide.

    Question 2. When the Senate considered this issue in the context of 
S. 104, it included a standard which was more stringent than the one 
included in H.R. 1270. Is it your view that, if enacted, the standard 
in S. 104 also adequately protects health and safety of the public as 
well as the standard in H.R. 1270?
    Response. The standard in S. 104 is expressed in terms of the 
maximum lifetime risk of fatal cancer to an average member of the 
critical group that is not to exceed 1 in 1000. This is equivalent to 
an average annual dose of about 30 mrem/y. I would note the difference 
between the specified exposed populations in H.R. 1270 & S. 104, i.e., 
an average member of the general population in the general vicinity of 
the site is specified in H.R. 1270 vs. the specification of an average 
member of the critical group in S. 104. Notwithstanding the differences 
in the specifications of the exposed populations, the standard in S. 
104, is also protective of the public health and safety.
    Question 3. As you know, EPA has the initial responsibility for 
promulgating and establishing such a standard; however, other agencies 
(DOE and NRC) also have a serious interest in assuring that the 
radiation standard is appropriately set. But as the process has 
unfolded, we understand that there has been a significant disagreement 
between the agencies as to the appropriate standard to apply. NRC and 
DOE have taken the position that the standard currently contemplated by 
EPA is not appropriate.

    (A) Would you not agree that the EPA standard as currently favored 
by EPA is not workable? Please explain your rationale.
    Response (A). I would agree that EPA standards go beyond those 
necessary to protect the public health and safety and have the 
potential to introduce prohibitive and unnecessary expense for those 
responsible for meeting those standards. To this extent those standards 
may be unworkable.

    (B) Do you agree that a ground water standard as part of the 
overall standard is not appropriate in this circumstance?
    Response (B). Briefly stated, my view is that NRC's proposed 
radiation protection standards for radioactive waste disposal are 
consistent with ICRP and NCRP recommendations for radiation protection, 
are scientifically defensible and are protective of the public health 
and safety. There is nothing in the ICRP and NCRP recommendations that 
would support creation of a separate standard for ground water because 
their recommended standards for limiting radiation exposure are not 
dependent upon the route of exposure. Therefore, there is no scientific 
radiation protection justification for a separate standard for ground 
water. In my judgment, EPA's proposed standards go beyond those 
recommended by the National Academy of Sciences especially with respect 
to establishing a separate standard for ground water.

    (C) Do you agree that it is appropriate for the NRC in developing 
Part 63 to not include subsystem performance standards as a separate 
ground water standard?
    Response (C). See response to Radiation Protection Standard 
Question 3(B) above.

    (D) In your view, is the standard currently proposed by the EPA 
consistent with the recommendations of the National Academy of 
Sciences, as required by Section 801 (a)(1 ) of the Energy Policy Act 
of 1992?
    Reponse (D). See response to Radiation Protection Standard Question 
3(B) above.
Viability Assessment Analysis
    The Senate remains concerned over the timeframe required before a 
repository is operational at Yucca Mountain. As an important step, DOE 
is now currently conducting a viability assessment. That assessment is 
anticipated to be completed this Fall and delivered to the NRC. 
Following receipt of the viability assessment by NRC, the Commission 
will have a 3-month period to review the ``Licensing Application 
Plan,'' included in the assessment.
    Question 1. Will you provide the committee with a commitment to 
expeditiously review the assessment and complete this specific task 
within 3 months? At the end of the 3-months, will you be able to inform 
DOE of any improvements in the ``Licensing Application Plan''? If not, 
for either question please describe why that will not be possible.
    Response. I share the Senate's concern regarding the timeframe 
required to open a repository at Yucca Mountain. As you know, the 
Department of Energy (DOE) is currently scheduled to complete the 
Viability Assessment (VA) this fall. There is no plan by DOE to issue 
it in draft for comment, and NRC's review of DOE's VA is not an 
explicit statutory requirement. However, NRC expects to be asked by 
Congress to comment on DOE's VA. NRC's independent licensing view may 
be useful input to potential Congressional decisions about the future 
of the national program.
    I strongly support an expeditious review of the VA by the NRC. 
Early feedback to DOE resulting from reviews of draft and/or final VA 
documents will be a continuation of NRC's ongoing issue resolution 
activities during the pre-licensing phase. Early feedback has already 
been given to DOE in fiscal year 1996-1998. In my view, the final 
objectives of the VA review, as outlined below, should be completed 
within 3 months after receipt of the VA. These objectives are 
threefold: (1) to identify progress in the development of information 
necessary for a complete license application; (2) to identify potential 
licensing vulnerabilities that could either preclude or pose a major 
risk to licensing; and (3) to identify major concerns with DOE's test 
plans, design concepts and Total System Performance Assessment, that if 
not resolved by DOE, might result in an incomplete or unacceptable 
license application. Following the completion of the objectives, the 
NRC would promptly forward its results to the DOE for its 
consideration. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 NOMINATIONS OF WILLIAM CLIFFORD SMITH, ISADORE ROSENTHAL, AND ANDREA 
                              KIDD TAYLOR

                              ----------                              


                       WEDNESDAY, OCTOBER 7, 1998

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
406, Senate Dirksen Building, Hon. John H. Chafee (chairman of 
the committee) presiding.
    Present: Senators Chafee, Baucus, and Lautenberg.

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. Good morning.
    The purpose of this hearing is to review the nomination of 
Dr. Isadore Rosenthal to be appointed a member of the Chemical 
Safety and Hazard Investigation Board. The second nomination is 
for Dr. Andrea Kidd Taylor also to be appointed a member of the 
Chemical Safety Board. The third nomination is that of Mr. 
William Clifford Smith to be appointed as a member of the 
Mississippi River Commission.
    I'm pleased to welcome those who are here today, in 
particular, our three nominees. Also, we expect some Senators 
here who will introduce, I believe we're expecting Senator 
Specter, who is going to introduce Dr. Rosenthal. Senator Levin 
will introduce Dr. Taylor. And Senator Breaux and Congressman 
Tauzin, I believe, will introduce Mr. Smith.
    It's my pleasure to report that all three nominees have 
impressive backgrounds and are well suited for the positions 
for them. The President has nominated Dr. Rosenthal as a member 
of the Chemical Safety Board, a position he's highly qualified 
to assume.
    Since 1990, Dr. Rosenthal has been a senior member of the 
Wharton Risk Management and Decision Process Center at the 
University of Pennsylvania, where he teaches a course in the 
MBA program. He's also a member of the board of the University 
of Pennsylvania's Environmental Research Institute.
    Prior to that, from 1953 to his retirement in 1990, he 
served on a number of research, development and new business 
ventures in corporate staff positions at Rohm and Haas Company. 
Dr. Rosenthal received his B.A. from New York University, an 
M.S. from Pursue, and a Ph.D. from the University of 
Pennsylvania.
    The President has also nominated Dr. Andrea Kidd Taylor to 
be a member of the Chemical Safety Board. Dr. Taylor has been 
an Occupational Health Policy Consultant and Industrial 
Hygienist for the United Automobile Workers since 1989. Prior 
to that, she was with the Maryland Committee on Occupational 
Safety and Health. And prior to 1984, was a Coordinator/
Industrial Hygienist at the Workplace Safety and Health Program 
at Coppin State College in Baltimore.
    In addition to her professional achievements, Dr. Taylor 
has been a member of the President's Advisory Committee on Gulf 
War Veterans Illnesses. She's a member of both the American 
Industrial Hygiene Association and the American Public Health 
Association. Dr. Taylor received a B.S. from Howard University, 
an M.S. in public health from the University of Alabama in 
Birmingham, Doctor of Public Health degree from Johns Hopkins 
School of Hygiene and Public Health.
    Mr. William Clifford Smith has been nominated by the 
President to be a member of the Mississippi River Commission. 
Mr. Smith is president and CEO of T. Baker Smith and Son, a 
private company that provides civil engineering, land 
surveying, and environmental services. He's worked in this 
position since 1962 and has been directly responsible for the 
general management, direction and supervision of all 
professional services.
    He's served as a member of the Board of Commerce and 
Industry for the State of Louisiana. Prior to that, a member of 
the Coastal Zone Commission for the State. He is a member of 
the board of directors of Louisiana Intercoastal Seaway 
Association, and a member of the Gulf Intracoastal Canal 
Association. He received his Bachelor of Science degree in 
Civil Engineering from Louisiana State University.
    The Chemical Board is completing its first year of 
operation. It was authorized by the Clean Air Act Amendments of 
1990, but fiscal year 1998 was the first year for which it 
received appropriated funds. The Board was modeled after the 
National Transportation Safety Board and given the mission of 
investigating industrial chemical accidents to identify the 
causes and, more importantly than that, to recommend steps to 
enhance the safety of chemical operations. Members serve 5-year 
terms.
    The Mississippi River Commission's duty is to implement 
construction and operate the Mississippi River and Tributaries 
Project. Doing this involves the development and execution of 
the flood protection program comprised of levee construction, 
river dredging and river distribution.
    The three positions at hand offer challenges which I 
believe all of our nominees are prepared to face. It's my hope 
that we can work it out to report the nominees tomorrow, if 
they pass muster here. And we'll have an opportunity to meet 
off the floor on Thursday morning.
    I would ask all Senators with questions to please submit 
them to the staff by noon today.
    Senator Lautenberg, do you have a comment?

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Mr. Chairman, first, to commend you for 
starting early. I'm glad I wasn't taking your airplane this 
morning, because I would have been left standing at the 
station.
    I'm so pleased to see that we're trying to fill the posts 
on the Chemical Safety Board, since I was the principal author 
there. Unfortunately, my State, not unlike yours, Mr. Chairman, 
is a State that has a proud industrial past that's left it with 
the problems of today as a result of that. And so I think we're 
making progress.
    As you noted, Mr. Chairman, the authorization was done a 
number of years ago. This is the first time we've gotten 
funding for it. It's a very important task. And I don't think, 
Mr. Chairman, we don't have anybody from New Jersey for the 
Mississippi River Commission, so I would say that we're content 
with, pleased, more than that, to support these nominees.
    [The prepared statement of Senator Lautenberg follows:]
 Statement of Hon. Frank R. Lautenberg, U.S. Senator from the State of 
                               New Jersey
    I would like to start by thanking the Chairman for holding this 
markup on such short notice. His great effort on behalf of these 
nominations is a sign of the wide support for the Chemical Safety and 
Hazard Investigation Board.
    I welcome all three of you, but I am especially glad to see Dr. 
Taylor and Dr. Rosenthal here. Your presence is a sign that the Board 
is becoming a well-established entity. That is a good sign for workers, 
for industry, and for the environment. It's a good sign for the 
country.
    Congress created the Chemical Safety Board in the 1990 Clean Air 
Act, modeling it after the National Transportation Safety Board. I 
became especially interested in the Board after a tragic explosion that 
took the lives of five men just a few miles from my house in 1995. At 
the time of the explosion at Napp Technologies, adequate funds had 
never been appropriated to the Board, nor had members been appointed.
    Our one response to such tragedies in those days was enforcement. 
Don't get me wrong--tough and fair enforcement is essential to 
deterrence. But it doesn't always get to the root of the problem. 
Enforcement alone can not prevent future tragedies.
    Identifying root causes to chemical accidents, and recommending 
measures to prevent them are an essential part of the equation as well. 
That's what the Board is for.
    I am very proud to have offered the amendment that provided the 
Board its first appropriations in Fiscal Year 1998. I am proud, as 
well, to have negotiated an increase in the Board's appropriations to 
$6.5 million--an increase which was included in the VA-HUD conference 
report. The Board is a very new organization. But for a new 
organization it's off to a great start.
    The Board opened its doors for business on Monday, January 5, 1998. 
On Wednesday of that week, an explosion at an explosives plant near 
Reno claimed the lives of four workers and injured six others. On 
Friday of that week, the Board was at the site of the accident, 
starting its investigation. The Board published its report of that 
accident last month.
    The report has been widely acclaimed and makes recommendations that 
should make the manufacture of explosives much safer.
    In all, the Board has initiated investigations of six accidents and 
is currently reviewing 13 other incidents. These are accidents that 
tragically resulted in 30 deaths in 16 States. Among them are two in 
New Jersey.
    One occurred last April in Patterson, my home town, when an 
explosion ripped through the Morton Specialty Chemical Company, 
injuring nine workers, two seriously. I understand the Board has 
completed the first phase of that investigation.
    The second New Jersey accident occurred in August at RBH 
Dispersions in Middlesex, mortally injuring one worker. Unfortunately, 
because the Board is just starting up--it isn't yet fully staffed, it 
isn't yet fully funded--it was unable to launch a full investigation 
and will only be able to review OSHA's investigation.
    But all in all, I would say the Board is off to a great start. I 
only wish that start had been 8 years ago, instead of 8 months ago.
    Finally, I think it's significant that we find before us today both 
Dr. Taylor, with her years of experience in the labor movement, and Dr. 
Rosenthal, with his decades of experience in the chemical industry.
    I think it's significant that they have both been endorsed by the 
chemical industry and labor. It shows what many of us believe--whether 
Democrat or Republican, industry or labor--a fully functioning Chemical 
Safety Board will be as good for the chemical industry as it will be 
for the employees and neighbors of the industry.

    Senator Chafee. Fine. I see Congressman Tauzin's here, and 
Mr. Congressman, if you'd like to come forward and make a 
statement. I suspect you're here on behalf of Mr. Smith. And if 
you'd like to make a statement, there may be others, Senator 
Specter is expected. And others perhaps.
    But we welcome you, Congressman, and if you'd like to 
proceed, we look forward to hearing your comments.

            STATEMENT OF HON. W.J. (BILLY) TAUZIN, 
        U.S. REPRESENTATIVE FROM THE STATE OF LOUISIANA

    Mr. Tauzin. Thank you very much, Senator. I understand 
Senator Breaux may also be here, and I want to thank you for 
allowing us to say a few good words for our dear friend. And 
Mr. Smith is not only a dear friend of mine, but also Senator 
Breaux's, longstanding.
    I was once introduced to the Supreme Court as a 
practitioner before the Supreme Court by a young man named 
Randy Pero, who's now a judge in Louisiana, who was an L.A. for 
a former Congressman from my district, Pat Caffrey. He was a 
dear friend, brought me to Washington, introduced me to the 
Burger Court. It was the first time the Chief Justice, sitting 
as the Chief Justice in the full court, was there. He was so 
overtaken by the majesty of the moment that he forgot the card 
that he was supposed to use to introduce me.
    And all these other young attorneys were there with their 
fathers and grandfathers in tuxedos and we two country boys 
were standing there, he having lost his card, overtaken 
completely by this incredible array of the entire Supreme 
Court. He said, Mr. Chief Justice, I'm a member of the Supreme 
Court. I want to introduce you to my friend, Billy Tauzin. He 
was supposed to talk about all my credentials, but couldn't 
remember any of them.
    He said, ``He's a good guy.''
    [Laughter.]
    Mr. Tauzin. I think it's recorded as the only moment that 
the Chief Justice ever laughed openly in court. And I think I 
stand as the only person ever confirmed to practice before the 
Supreme Court on the basis of that qualification.
    But it's a qualification I think that most defines our 
friend Clifford Smith. He is truly a good guy. He's one of the 
best. He has not only, as I said, been a personal friend, but 
he has been a fixture in our State in its commitment to its 
many opportunities and problems associated with the Mississippi 
River and the delta.
    Just last weekend, he participated, his son was on a panel 
at a huge national conference we had at Nicholls State, my 
Harvard on the bayou, in Louisiana, where we discussed the 
future of the incredible land loss in Louisiana along our 
coast, 35 square miles a year, that America witnesses every 
year. And it literally goes on in too many cases unnoticed.
    And his commitment to the river and to solving many of 
these problems associated with the drainage system and the 
river corridor and all its ports and transportation 
opportunities is one of long standing. He is eminently 
qualified. He has bipartisan support of Louisiana. As you know, 
Louisiana is now led by Republican Governor Mike Foster, who 
is, I think, the most popular Governor in America.
    Senator Lautenberg. Representative Tauzin, you bring both 
sides of the aisle with you.
    Mr. Tauzin. In fact, I do. I've been called a lot of 
labels--somebody called me a ``transvesticrat'' at one point. 
I'm not sure that's----
    [Laughter.]
    Senator Lautenberg. We don't use that kind of language 
around here. That's reserved for the House.
    [Laughter.]
    Mr. Tauzin. I do bring a bipartisan recommendation to you, 
and without taking any more of your time, I simply wanted to 
urge you, on behalf of this Nation, to confirm this good man 
for this very important duty as Commissioner on the Mississippi 
River Commission.
    Senator Chafee. Well, thank you very much, Representative 
Tauzin. You're nice to come over and we appreciate it. I know 
you have a busy schedule, so if you want to be excused, feel 
free to do so.
    Mr. Tauzin. Thank you, Senator.
    By the way, Mr. Chairman, I also know that you roughnecked 
out of Lafayette, LA. So I know you have sort of a bond with 
us.
    Senator Chafee. I do. It was a great experience, it was the 
end of my freshman year at college. And I went down there and 
worked in Barataria, which Dr. Smith and I talked about 
yesterday.
    Thank you very much for coming over.
    Mr. Tauzin. Thank you, Senator.
    Senator Chafee. Now, if the nominees would please come 
forward and take a seat at the table.
    Senator Lautenberg. Mr. Chairman, if I might, the record 
will reflect any statements, and I have no questions, except to 
say that I know in the case of Dr. Rosenthal and Dr. Taylor, 
these are very well qualified people, a lot of experience. I 
look forward to working with them over the years ahead and if I 
may, Mr. Chairman, I'll be excused.
    Senator Chafee. Thank you very much for coming. And it's my 
understanding Senator Baucus will be here shortly.
    Now, it's my understanding that Dr. Paul Hill, chairman of 
the Chemical Safety Board, is here. Is that correct? Did you 
want to step up? Did you want to introduce any of the members 
or make a comment?

 STATEMENT OF PAUL HILL, CHAIRMAN, CHEMICAL SAFETY AND HAZARD 
                      INVESTIGATION BOARD

    Dr. Hill. Yes, thank you, Senator. Because of the schedules 
in this hectic time period, Senator Levin and Senator Specter 
we understand may not be able to be here. On behalf of the 
board, I would like to present both Dr. Taylor and Dr. 
Rosenthal, with the full support of the other board members. We 
truly think they would be great additions to this board, and 
help us do the work that lies ahead.
    So I just briefly wanted to offer our support and ask your 
support as well.
    Senator Chafee. Fine. Thank you very much. And you're free 
to be excused, if that's what you'd wish.
    Now, why don't we start with Mr. Smith. Why don't you 
proceed. If you've got a statement, now's the time.

    STATEMENT OF WILLIAM CLIFFORD SMITH, NOMINATED TO BE A 
        COMMISSIONER OF THE MISSISSIPPI RIVER COMMISSION

    Mr. Smith. Mr. Chairman, thank you very much. It's an honor 
to be here before your committee as a nominee for the 
Mississippi River Commission.
    I would like to make a brief statement about the 
Mississippi River Commission and the Mississippi River and 
Tributary project and my qualification for the position which I 
have been nominated.
    The Mississippi River Commission, established by an act of 
Congress on June 28, 1879, consists of seven members, all of 
whom are appointed by the President of the United States, 
subject to the confirmation by the Senate. Three members are 
Corps of Engineers officers, one of whom serves as the 
president. One member is from the National Oceanic and 
Atmospheric Association. And three members are from the 
civilian sector, two of whom must be civil engineers.
    From its inception in 1879, the Commission has been charged 
with the vital task of planning and implementing a program of 
flood damage reduction projects and navigation improvements on 
the Mississippi River. More recently, project purposes have 
been expanded to include environmental restoration.
    This task continues to be conducted in connection with the 
many political institutions, individuals and public entities 
which have major interest in seeing that the water resource 
needs and opportunities of the Mississippi Valley are 
evaluated, planned, designed, constructed, and maintained.
    As established in 1879, the commissioners were to serve as 
advisors in planning and implementing water resource projects 
and programs on the Mississippi River between the Head of 
Passes below New Orleans, to its headwaters. Since 1928, the 
Commission has focused on the Mississippi River and Tributary 
Project authorized by the Flood Control Act of May 15, 1928, to 
be implemented under oversight of the Commission.
    The Mississippi River and Tributary Project extends 
generally from the confluence of the Ohio River to the Head of 
Passes below New Orleans, and covers portions of seven States. 
It receives water from all or parts of 31 States and parts of 
two Canadian provinces, or roughly 41 percent of the contiguous 
United States.
    Effective planning, design, construction and operation of 
the widespread and complex Mississippi River and Tributary 
Projects have been assigned greatly by the Commission's active 
consultation with the public, particularly on its semiannual 
lower Mississippi River inspection trips, and by the high 
degree of professionalism that has been developed in its staff.
    The Mississippi River and Tributary Project is truly of 
national significance. For example, a major flood on the lower 
Mississippi River would have catastrophic effects on the 
inhabitants of the Mississippi Valley and the economy of the 
Nation, were it not for the protection provided by the levees 
and other flood control works throughout the project area.
    Many have noted that the comprehensive project on the lower 
river provided for passage of major floods in 1973, 1983, 1997 
and other years without the extensive damage that was suffered 
in the upper river areas during the 1993 and 1995 flood events.
    In addition, the navigation improvements of the project are 
essential to the maintenance of the river for shipping import 
and export commodities between the inland ports and the world 
markets. In short, the navigation features of the Mississippi 
River and Tributary Projects are essential in peace time and 
vital to our national defense in times of emergency.
    The reorganization of the Corps of Engineers in April 1997 
has placed the entire length of the Mississippi River within 
one Division of the Corps of Engineers. The Commander of this 
Mississippi Valley Division of the Corps also serves as the 
president of the Mississippi River Commission. By the way, 
Major General Philip Anderson, who is the designee-president of 
the Mississippi River Commission, is here with me this morning.
    Senator Chafee. General, we welcome you, and appreciate 
your coming. As I was telling Mr. Smith yesterday, I have great 
admiration for the Corps, having seen your works extending from 
Dhahran in Saudi Arabia to the Mississippi River and elsewhere. 
And obviously also in my section of the country, where your 
folks have done a wonderful job.
    So we're very glad to see you. Thank you for coming.
    Mr. Smith. The reorganization of the Corps allows the 
management of the Mississippi River as a single and unified 
system and allows the Commissioners to more effectively serve 
as advisors to the division commander and the chief of 
engineers as authorized in the enabling legislation in 1879.
    The Commission has been active as advisor to the Corps on 
the Upper Mississippi River since the reorganization. The 
Commission conducted inspection trips on the Upper Mississippi 
River in August 1997 and August 1998, holding a series of 
public meetings in the St. Paul, Rock Island, and St. Louis 
Districts each year, in addition to the semiannual inspection 
trips and public meetings in the Memphis, Vicksburg, and New 
Orleans Districts.
    In regard to my personal qualifications, I am a 1958 
graduate of Louisiana State University with a Bachelor's Degree 
in civil engineering. I have been a partner in my father's firm 
since 1962, and operated and been directly responsible for the 
general management of the firm, and overall supervision and 
administration of all my employees.
    During my 40 years of professional experience, I have been 
involved with numerous significant public works and private 
industrial projects requiring civil engineering, land surveying 
and environmental services. I have been a registered civil 
engineer and land surveyor in Louisiana since 1958 and a 
registered civil engineer in Mississippi since 1985, and am 
involved in several professional organizations in the 
engineering field.
    I feel that with my diversified experience in my company's 
engineering field, I have the expertise to serve as a civil 
engineer member of the Mississippi River Commission.
    If confirmed to the position, Mr. Chairman, I would look 
forward to playing a key role in the continual improvement of 
the Mississippi River system and the Mississippi River and 
Tributary Project and applying the best of modern practices in 
water resources engineering. I would also look forward to being 
a member of a Commission that focuses not only on the 
traditional roles of safely passing the Mississippi River Basin 
floodwaters to the Gulf of Mexico, plus providing a safe and 
dependable navigable waterway, but also recognizing the 
Nation's environmental awareness and incorporate environmental 
restoration.
    Mr. Chairman, for your information, I have attached a 
complete biography on myself and a current list of the members 
of the Mississippi River Commission.
    This completes my prepared statement, and I will be more 
than happy to respond to any questions.
    Senator Chafee. I think what we'll do is we'll have the 
statements from each of the nominees, and then I have some 
questions for the individuals.
    Ms. Taylor, if you'd like to go next, please do.

 STATEMENT OF ANDREA KIDD TAYLOR, NOMINATED TO BE A MEMBER OF 
       THE CHEMICAL SAFETY AND HAZARD INVESTIGATION BOARD

    Ms. Taylor. Good morning, Mr. Chairman.
    I would first like to thank you and the members of the 
committee for allowing me the opportunity to speak to you 
regarding my nomination by President Clinton to fill a position 
on the Chemical Safety and Hazard Investigation Board.
    I currently work as an industrial hygienist and 
occupational health policy consultant for the International 
Union, United Automobile, Aerospace and Agricultural Implement 
Workers of America. The shorter term for that is the UAW. I've 
held this position in the UAW's Health and Safety Department 
for almost 10 years.
    In this capacity, I conduct workplace health and safety 
inspections and evaluate industrial hygiene data from various 
UAW-represented facilities around the country. Requests for 
these inspections are usually made by workers who are 
experiencing illnesses and health symptoms from possible 
exposures to various chemical and/or environmental hazards on 
their jobs.
    Working with the union local and its company's health and 
safety staff, I attempt to identify the source of employee 
exposures, review the appropriate industrial hygiene data if 
available, and make recommendations on the steps that need to 
be taken to control or reduce employee exposures, thereby 
reducing employee risks, health symptoms and complaints.
    Another aspect of my job involves educating employees and 
employers regarding the health hazards associated with their 
jobs and many of the industrial processes. Training is 
generally conducted through many of our jointly funded labor 
management health and safety programs. In addition, I edit the 
health and safety newsletter which is distributed nationally 
and internationally to subscribers.
    I am very excited about the possibility of becoming a 
member of the U.S. Chemical Safety and Hazard Investigation 
Board. The board's mission of investigating chemical accidents 
to independently identify the causes and make recommendations 
on how to improve chemical operations is basically a 
continuation of my current job responsibilities at the UAW. 
However, the impact and scope of the board is much broader.
    My hope is that the board's presence will add a new 
dimension to how chemical accidents are investigated and how 
recommendations are made to prevent such accidents from 
occurring in the future.
    I would like to share with you a recent incident that 
occurred at one of our UAW-represented facilities. On February 
2, 1998, an explosion occurred at York International in York, 
PA.
    Senator Chafee. I'll tell you, Dr. Taylor, just take a 
little gap right there before you get into this particular 
incident.
    We've been joined by Senator Breaux who I'm confident is 
here to say a word about Mr. Smith. He has a busy schedule, so 
Senator, if you'd like to make your comments.

 STATEMENT OF HON. JOHN BREAUX, U.S. SENATOR FROM THE STATE OF 
                           LOUISIANA

    Senator Breaux. I apologize, Mr. Chairman, thank you, and 
Dr. Taylor, I'm sorry. The chairman has been very generous 
letting me make a comment or two, and I appreciate it. I won't 
take much time.
    Mr. Clifford Smith who is at the table at the President's 
recommendation to serve on the Mississippi River Commission. I 
wholeheartedly and enthusiastically support him. I've known him 
for far too many years, we go back personally as well as 
professionally, in helping the people of south Louisiana.
    He is a professional engineer, and I take that to his 
credit, the type of people that will be very helpful to serve 
on the Mississippi River Commission. He has a wonderful insight 
as to the problems of the river system and the environment, the 
loss of wetlands. We've had many, many discussions and 
meetings, and his leadership in this area, in trying to bring 
around the business community to understanding the need for 
protection and flood control, and protecting the environment, 
that it all goes hand in hand.
    Too many people have thought it should be all navigation, 
all dams around the river, and no concern for the environment. 
I think what Clifford Smith has brought to the table is an 
understanding of all the things that have to go into good 
public policy.
    The other day, in the hurricane, Mr. Chairman, the 
Mississippi River actually was flowing north because of the 
strong winds from the Gulf of Mexico. Sort of an unusual 
engineering feat to have the Mississippi River flowing north. 
So I asked Clifford what caused that. He gave me a great 
engineering answer by just saying, what goes down must come up.
    [Laughter.]
    Senator Breaux. And I didn't challenge that engineering 
example from Clifford, but I think it just shows you how 
qualified he is to serve on this commission, and I 
enthusiastically look forward to working with him and thank you 
very much for letting me make a comment, Dr. Taylor.
    Senator Chafee. Thank you, Senator, very much for coming. 
We know you have a very busy schedule.
    So Dr. Taylor, if you'd like to proceed, because this was 
an interesting example you were just starting into.

           STATEMENT OF ANDREA KIDD TAYLOR--CONTINUED

    Ms. Taylor. Yes. Regarding the explosion at York 
International in York, PA, 1 worker was killed and 15 workers 
and 5 rescuers were injured. The tank, one of four that were 
clustered together, was not in use at the time of the 
explosion. When it ruptured, the tank ripped holes in two of 
the other tanks, causing more explosions and sent the fourth 
tank soaring into the air. It was found later on out in the 
community. Part of one tank blasted through the wall of a 
building.
    Fortunately, or unfortunately, the accident occurred at 
11:35 p.m. As bad as the accident was, it would have been a lot 
worse had it happened during the day. Most of the employees at 
this facility work on the day shift. Neighboring workplaces 
would have been up and running and people would have been 
walking or driving on nearby streets. The exact cause of this 
accident has still not yet been determined.
    Although I was not directly involved with investigating 
this particular incident, another member from the UAW Health 
and Safety staff was involved. I have, however, been involved 
with investigating other UAW facility fatalities. Mr. Chairman 
and members of the committee, I want you to know that losing 
even one life to a chemical accident or any other job hazard 
can be devastating to family members, co-workers, and the 
community at-large. Identifying the root cause of such 
accidents is not always easy.
    That is why prevention is important, and a key component of 
the board's mission, performing a vital function never before 
addressed in the Federal Government.
    I envision the board continuing to act as an independent 
agency in developing recommendations for preventing chemical 
accidents from the investigations that it conducts. I also 
believe the agency can, for the first time, produce a 
comprehensive accounting of the actual number of chemical 
incidents occurring in the United States today, so that safety 
efforts may be focused where the greatest problems exist.
    I also envision the board as partnering with Government, 
labor, industry, and the community at-large in identifying ways 
for preventing future incidents from occurring. As a non-
regulatory agency, it is essential that the board establishes 
and keeps open lines of communication with all of the 
aforementioned organizations.
    Filling the void that currently exists between Government 
agencies, industry, labor, and the community is a tremendous 
challenge for the board. The board's role, however, in assuring 
that commercial and industrial chemical processes are as safe 
as possible provides workers and the surrounding community with 
a sense of security and confidence that the Government cares 
and is responsive to their needs for a healthy and safe 
environment.
    Again, thank you for the opportunity to appear today before 
you. I would be pleased to address any questions.
    Senator Chafee. Thank you very much, Dr. Taylor.
    And now Dr. Rosenthal, if you'd like to proceed with your 
statement.

STATEMENT OF ISADORE ROSENTHAL, NOMINATED TO BE A MEMBER OF THE 
         CHEMICAL SAFETY AND HAZARD INVESTIGATION BOARD

    Mr. Rosenthal. Thank you, Mr. Chairman.
    You already summarized a good part of my career, and I have 
submitted a written statement that has some elaboration on your 
introduction. I would just like to briefly touch on one or two 
points in that statement.
    I believe my background in industry, the last 13 years of 
which dealt directly with safety, health and environment, and a 
good part of which was concerned with post-Bhopal and preparing 
my company and working within the industry to deal with this 
new awareness that the potential for chemical accidents was 
enormous. I've worked in that area both as a manager, I've 
contributed individually and published articles.
    Since my retirement from Rohm and Haas, I've had the 
opportunity to look at the management of major accidents and 
the perspective from insurance companies and other public 
agencies.
    I believe the board can fill a good part of the void that 
exists in our overall country's effort on prevention of major 
accidents. As I said in my prepared statement, I believe it's 
important for us to recognize that the key to prevention of 
accidents lies with industry itself, labor unions and public 
interest organizations, and that the role of the board will be 
to catalyze, synergize and fill any voids that exist within 
this concerted country effort.
    I applaud the excellent beginnings that Chairman Hill has 
started with the agency, and look forward to having the 
opportunity to contribute whatever I can to achieving its 
mission, which is the prevention of chemical accidents.
    Thank you, Mr. Chairman.
    Senator Chafee. Thank you very much, Dr. Rosenthal.
    We've been joined by the ranking member of this committee. 
Senator Baucus, do you have a statement?
    Senator Baucus. No statement, Mr. Chairman. I apologize for 
the delay. The subject, though, which you'll appreciate, is the 
environmental group. We're trying to find a way to encourage 
better environmental ties between the United States and China. 
I apologize for the delay.
    Senator Chafee. Great. Did you get it solved?
    Senator Baucus. Well, we inched forward. Thank you.
    I do look forward to finally having some members of the 
board, the Chemical Safety and Hazard Investigation Board. It's 
needed, and I'm pleased. This is a big day, Mr. Chairman. We're 
taking major steps toward getting people on the board. That's a 
very good step.
    Thank you.
    Senator Chafee. Senator, what I'd like to do is to move 
forward with these nominees, and if possible get them reported 
out, and if there's no objection, have them confirmed before we 
leave. And that's a tight schedule.
    I would ask if anybody has, if any members have questions, 
that they get them in before noon, so that we can get the 
answers to them. I don't know of any questions.
    Then Senator if it's agreeable, what I'd do is assemble our 
members on the floor after a vote, and there we'd have a quorum 
and try to move forward.
    Senator Baucus. I think that will work. I'm unaware of any 
problems on our side, or any questions on our side.
    Senator Chafee. I'd like to ask just a couple of questions. 
First, Mr. Smith, I really applaud the environmental approach 
that you're taking. I've long been concerned, and obviously you 
and as voiced by Representative Tauzin, have been greatly 
concerned about what's happening in the Delta there with the 
erosion and loss of those wetlands. I think Representative 
Tauzin, did he say 35 acres?
    Mr. Smith. Thirty-five-square miles a year, it's estimated, 
Senator.
    Senator Chafee. That's devastating.
    Mr. Smith. I believe it's about a Rhode Island a year.
    [Laughter.]
    Senator Chafee. I would urge you not to use that approach.
    It is very, very distressing. There are so many factors 
contributing to it, including things that I suspect even the 
nutria, which you and I discussed yesterday--is that the 
correct pronunciation?
    Mr. Smith. Yes, sir, nutria.
    Senator Chafee. You don't pronounce the i, do you?
    Mr. Smith. Right, sir, it's nutria.
    Senator Chafee. I don't know whether you've ever heard of 
them.
    Senator Baucus. I never have, Senator.
    Senator Chafee. They're a small----
    Senator Baucus. That's why you're the chairman.
    Senator Chafee. Well, I hope it's based on something firmer 
than that.
    [Laughter.]
    Senator Chafee. Nutria are these little animals that have 
escaped, they're not indigenous to Louisiana or the south. And 
they just have, they're sort of like a muskrat, I suppose you'd 
say.
    Mr. Smith. A big muskrat.
    Senator Chafee. I've been down there and seen them, and 
they're all over the place.
    Senator Baucus. What do they do?
    Senator Chafee. They apparently gnaw at the grasses that 
hold the soil together. And by consuming these grasses, then 
the essential ingredient to hold the soil together in the 
wetlands disappears, and thus the soil disappears. It's a 
contributor, I don't know whether it's a major factor.
    Mr. Smith. It is one of the many contributing factors. One 
of the huge problems, and again, I've lived there all of my 
life, and of course we're concerned, you're concerned. It's a 
survival concern to us, because we're losing so much land to 
the Gulf of Mexico.
    But I live between the Mississippi and the Atchafalaya, 
which is the worst deteriorating coastline in America. Yet on 
my western boundary is the mouth of the Atchafalaya, which is 
the only building delta in America. So the rivers, the 
controlling of the rivers has cutoff the natural flow of fresh 
water and silt throughout our area, and the rebuilding of the 
wetlands, as it used to do centuries ago.
    The leveeing of the rivers were important to keep us from 
flooding every spring. That was a very important thing to do. 
We wouldn't be there today if we were flooding every spring. 
But in doing that, it allowed this other deterioration problem 
to be created.
    Again, as an engineer, it's very frustrating that we've 
solved one problem but we've created another problem. However, 
that's an example of, by the way, the whole Mississippi River 
system, in my opinion. It's a dynamic system. It's changing all 
the time. And although we've spent many billions of dollars to 
control it and improve it, there are probably many things we 
will have to do in the future, because it's a living, dynamic 
system.
    But in our area, the problem is that we've cutoff the flow 
of the rivers. I think the rivers, with using the flows, using 
the silt, using the fresh water under controlled conditions, 
can reverse some of the things that are happening to it. We 
simply have to refine our projects and refine our designs and 
refine our thinking to use that resource.
    I really believe the rivers, which are the resources that 
we can use to solve some of our problems, frankly. And that's 
the challenge. That's kind of the new challenge, as I see it, 
for the entire country. And really for the Mississippi River 
Division of the Corps of Engineers and the Mississippi River 
Commission.
    Senator Chafee. I'm going to ask all three of you a 
question.
    Senator Baucus. Mr. Chairman, if I might, just following up 
a little bit. So you're not going to bring down the levees?
    Mr. Smith. No, sir. You're going to have to protect where 
people live. You're going to have to protect where the major 
physical improvements are. We live on what we call little 
ridges, 5, 6 feet above sea level. We're going to have to 
protect those and build flood control projects and pumping 
systems. And we're doing that as we speak.
    And then we're going to have to divert the rivers in 
specific areas under controlled conditions, but disperse the 
water and the silt as naturally as possible, once we've 
protected where people live and operate and so forth.
    Senator Baucus. So what percent of the delta would be 
restored to its natural state?
    Mr. Smith. I would hope that we could, well, first, we need 
to stop the deterioration. We need to minimize the 
deterioration. Whether we can actually build additional deltas, 
although right at the mouth of the Atchafalaya, we're building 
400 to 500 acres a year right now. But we could use those silts 
and what have you and reverse some of the activity that has 
happened to it.
    We probably can't, frankly, totally eliminate some of the 
deterioration. But we can certainly curtail the speed that 
we're losing land.
    Senator Baucus. So instead of 35-square miles a year, 
what's the goal?
    Mr. Smith. We would hope to get it to zero, frankly.
    Senator Baucus. By when?
    Mr. Smith. Well, depending on what kind of resources we 
could use, but it could take us 20 years, frankly, to get to 
that point. It's taken us 60 years to get to the point we are 
now.
    Senator Baucus. What's going to happen to the nutria?
    Mr. Smith. Well, the nutria, that again is a very unusual 
problem. The only predator, the natural predator of the nutria 
today in South Louisiana is the alligators. And we've got a lot 
of alligators. So we hopefully will proceed to develop the 
alligator population which will eat some of the nutrias.
    But the nutria is something that you can see, you can ride 
down the highways and go through some of the wetlands and see 
where there used to be a little pond 2 or 3 years ago, and now 
it's a big pond. And you can see the nutrias out there eating 
the grass. They're vegetarians, and they eat everything in 
sight.
    And again, marshlands, wetlands in particular, marshlands 
are 99 percent organic material. Whatever changes, salt water, 
fresh water, too much water, nutrias, whatever changes it, it 
deteriorates.
    Senator Baucus. Can't find some kudzu, can you?
    [Laughter.]
    Mr. Smith. We're also trying to teach Cajuns how to eat 
them.
    Senator Baucus. Are they tasty?
    Mr. Smith. In fact, Louisiana Wildlife has developed a 
program on how to cook nutrias and I've eaten it. Frankly, I 
can't hardly eat just the nutria meat, period. It's got to be 
mixed with something else. But when you do mix it, it's hard to 
tell that you're eating it.
    Senator Baucus. Thank you.
    Senator Chafee. Is the alligator population coming back 
strong?
    Mr. Smith. Yes, sir. As a matter of fact, that's a great 
example, in my opinion, of the endangered species, alligators 
20 years ago were endangered species in South Louisiana. And 
the trapping and hunting of alligators was outlawed. It was 
outlawed for about 10 years. Gradually, the population began to 
come back, and now we really have a tremendous amount of 
alligators in South Louisiana.
    Also, they've begun to farm alligators. They actually raise 
them in controlled conditions, too. But again, that's a big 
product.
    Nutrias were originally brought into the State because they 
are a fur-bearing animals. Fur for centuries has been a big 
activity in South Louisiana, catching and processing fur 
primarily for human wear. Of course, that market has 
deteriorated drastically, most of that market is now in foreign 
countries.
    That's why nutria were originally brought into the country.
    Senator Baucus. Where did they come from?
    Mr. Smith. South America. And they were brought in as an 
experiment that you could develop as a bigger fur-bearing 
animal, the mink or muskrat or what have you. And they are 
bigger, and they eat everything in sight. Again, it's something 
we never should have brought into our area. As the Senator 
explained, it's not a native to the country.
    We've also tried to use them in other areas for other 
purposes. They can't survive much north of Louisiana. Like a 
lot of our fur-bearing animals and a lot of our wildlife, we 
can actually export around the country, but we can't export the 
nutria.
    The alligator, though, has made a tremendous recovery. 
Really has.
    Senator Chafee. Eating the nutrias?
    Mr. Smith. Eating the nutria and the conservation efforts 
that have been put forward, and the limiting on hunting and 
trapping the alligators.
    Senator Baucus. I saw a bunch of alligators swimming around 
during Hurricane George, in the rivers.
    Senator Chafee. Let me just say that there are two 
questions that I have to ask each of you, and if you could 
answer in unison. Are each of you willing to, at the request of 
any duly constituted committee of the Congress, to appear in 
front of it as a witness.
    Mr. Smith. Certainly.
    Mr. Rosenthal. Yes.
    Ms. Taylor. Yes.
    Senator Chafee. Do you know of any matters which you may or 
may not have thus far disclosed which may place you in any 
conflict of interest if you are confirmed in the position 
you've been nominated for?
    Mr. Smith. No.
    Mr. Rosenthal. No.
    Ms. Taylor. No, sir.
    Senator Chafee. Now, I have a couple of questions for Dr. 
Taylor and Dr. Rosenthal. I just want to say that I certainly 
agree that prevention is the key. Both of you stressed that, 
particularly Dr. Taylor, from the previous work you've done. 
This isn't an organization that you're being appointed to, to 
just collect data and make reports. It's to prevent these 
accidents.
    So I would urge you to be vigorous in seeking prevention 
activities. We just don't want any of these horrible accidents. 
As you pointed out, Dr. Rosenthal, you mentioned Bhopal and 
these haven't been in the United States, but they've been 
horrible accidents that we've heard about here, and we want to 
do everything we can to avoid them occurring in our country.
    Senator do you have any questions?
    Senator Baucus. Just wondering, preliminary, are we at a 
point in America where, some of our plants are starting to get 
old, and with increased maintenance costs, and greater 
probabilities of something going wrong, and I mention that, 
because I think that's happening to our airlines. We have old 
fleets that require more maintenance, that are getting a little 
bit worrisome, frankly.
    I wonder if the same is true in the chemical industry, or 
in any of the industries you're going to be looking into. Is 
that a concern or is that not a concern, aging?
    Mr. Rosenthal. I believe it's a concern, but I think that 
by and large, while we have no definitive answers, as we look 
at what has happened in most chemical accidents, it has not 
been the failure of equipment because of aging, but rather 
failures due to absence of proper maintenance or training or 
system faults, that there's a set of problems that have existed 
with old and new plants. While they are made more sensitive by 
aging equipment, I think our emphasis has to be on trying to 
find a way through which we pay greater attention to 
prevention, training and the maintenance of systems that we're 
engineered in.
    I might say that by and large, I would make a statement, I 
think it's not too controversial, that in most cases, the 
systems were maintained with the original design basis, if we 
did what we knew we had to do when we designed the plants in 
training, maintenance, relatively few of the accidents would 
occur.
    Senator Baucus. So what goes wrong? We don't stick with 
what we started with?
    Mr. Rosenthal. I think that over a period of time, these 
are low probability events, they're kind of like we as 
individuals saying, well, if I don't get my weight down, 
something's liable to happen, but more immediately, we're faced 
with surviving, with going through our ordinary activities. We 
have to just achieve a better balance in paying attention to 
these low probability things, these things that don't, the 
first time you do something, it doesn't happen.
    Like all significant problems, there's no easy solution. 
But I believe the board can play a role in getting the labor 
industry to be more sensitive to the need to pay attention to 
the maintenance of the design bases of our systems.
    Ms. Taylor. I agree with Dr. Rosenthal. A lot of it depends 
on how equipment is designed and how it is maintained. And in 
addition to that, how well the workers or employees are trained 
on what to do, how to handle situations and how involved they 
are in the actual process, in the working of the systems.
    Senator Baucus. So you're saying basically more disciplined 
maintenance?
    Ms. Taylor. Not necessarily disciplined maintenance. But--
--
    Senator Baucus. Discipline to the systems?
    Ms. Taylor. The systems, right.
    Mr. Rosenthal. I think you can look at the process that has 
severe consequences. Generally, there are three or four 
barriers that have to go down before the accident occurs. We 
design it that way. We don't design the system so it's going to 
explode the first time someone makes a slight mistake.
    What happens, we get confident, and one barrier goes down, 
so we work with two barriers. And the system works fine for 10 
years, so we say, OK, we've just got to go on. It's a problem 
not only with just the people who manage the system, but also 
with labor.
    It's a heck of a job to shut a system down, not only 
because of lost production, but because if you're a worker in 
there, and working, it's hard to get it started up. So we tend 
to be heroes and just keep going a little past the point at 
which we ought to.
    Senator Baucus. Roughly analogous to the world financial 
crisis.
    Mr. Rosenthal. Yes.
    Ms. Taylor. I guess so.
    Senator Chafee. All right, thank you all very much. As I 
indicated previously, I want to move these along as rapidly as 
possible. If any questions--I would say this to each of you. If 
any questions are submitted, you should get the answers as 
rapidly as possible to us. I don't know whether any questions 
will be submitted, but they have to come in within the next 2 
hours, namely by noon, and we'd get them to you and ask you to 
get the answers back very rapidly. Because if there are 
unanswered questions hanging out there, then we can't go 
forward with the nomination.
    Thank you very much. That concludes the hearing.
    [Whereupon, at 10:15 a.m., the subcommittee was adjourned, 
to reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
 Statement of William Clifford Smith, Nominated to be a Member of the 
                      Mississippi River Commission
    Mr. Chairman and members of the committee: I am honored to appear 
before you as the nominee for member of the Mississippi River 
Commission.
    Mr. Chairman, I would like to make a brief statement about the 
Mississippi River Commission, the Mississippi River and Tributaries 
(MR&T) project, and my qualifications for the position for which I have 
been nominated.
    The Mississippi River Commission, established by Act of Congress on 
June 28, 1879, consists of seven members, all of whom are appointed by 
the President of the United States subject to confirmation by the 
Senate. Three members are Corps of Engineers officers, one of whom 
serves as president; one member is from the National Oceanic and 
Atmospheric Administration; and three members are from the civilian 
sector, two of whom must be civil engineers.
    From its inception in 1879, the Commission has been charged with 
the vital task of planning and implementing a program of flood damage 
reduction projects and navigation improvements on the Mississippi 
River. More recently, project purposes have been expanded to include 
environmental restoration. This task continues to be conducted in 
concert with the myriad of political institutions, individuals, and 
public entities which have major interests in seeing that the water 
resources needs and opportunities of the Mississippi Valley are 
evaluated, planned, designed, constructed, and maintained.
    As established in 1879, the commissioners were to serve as advisors 
in planning and implementing water resource projects and programs on 
the Mississippi River between the Head of Passes below New Orleans to 
its headwaters. Since 1928, the Commission has focused on the 
Mississippi River and Tributaries project, authorized by the Flood 
Control Act of May 15, 1928, to be implemented under oversight of the 
Commission. The MR&T project extends generally from the confluence of 
the Ohio River to the Head of Passes below New Orleans and covers 
portions of seven States. It receives water from all of part of 31 
States and part of two Canadian provinces, or roughly 41 percent of the 
contiguous United States. Effective planning, design, construction, and 
operation of the widespread and complex MR&T project have been assisted 
greatly by the Commission's active consultation with the public, 
particularly on its semiannual lower Mississippi River inspection 
trips, and by the high degree of professionalism that has been 
developed in its staff.
    The MR&T project is truly of national significance. For example, a 
major flood on the lower Mississippi River would have catastrophic 
effects on the inhabitants of the Mississippi Valley and the economy of 
the Nation were it not for the protection provided by the levees and 
other flood control works throughout the project area. Many have noted 
that the comprehensive project on the lower river provided for passage 
of major floods in 1973, 1983, 1997, and other years without the 
extensive damage suffered in the upper river area during the 1993 and 
1995 flood events.
    In addition, the navigation features of the project are essential 
to maintaining the river for shipping import and export commodities 
between inland ports and world markets. In short, the navigation 
features of the MR&T project are essential in peace time and vital to 
our national defense in times of emergency.
    Reorganization of the Corps of Engineers in April 1997 has placed 
the entire length of the Mississippi River within one Division of the 
Corps of Engineers. The Commander of this Mississippi Valley Division 
of the Corps also serves as President of the Mississippi River 
Commission. The reorganization of the Corps will allow management of 
the Mississippi River as a single and unified system and will allow the 
Commissioners to more effectively serve as advisors to the Division 
Commander and the Chief of Engineers as authorized in the enabling 
legislation in 1879.
    The Commission has been active as advisor to the Corps on the Upper 
Mississippi River since the reorganization. The Commission conducted 
inspection trips on the Upper Mississippi River in August 1997 and 
August 1998, holding a series of public meetings in the St. Paul, Rock 
Island, and St. Louis Districts each year, in addition to the 
semiannual inspection trips and public meetings in the Memphis, 
Vicksburg, and New Orleans Districts.
    In regards to my personal qualifications, I am a 1958 graduate of 
Louisiana State University with a Bachelor's Degree in civil 
engineering. I then became a partner in my father's firm, and the name 
of the firm was changed to T. Baker Smith & Son. Following my father's 
death in 1962, I have operated the company as president and sole owner 
and am directly responsible for the general management of the firm and 
overall supervision and administration of all company affairs.
    During my 40 years of professional experience, I have been involved 
with numerous significant public works and private industry projects 
requiring civil engineering, land surveying, and environmental 
services.
    I have been a registered civil engineer and land surveyor in 
Louisiana since 1958 and a registered civil engineer in Mississippi 
since 1985 and am involved in several professional organizations in the 
engineering field.
    I feel that with my diversified experience in my company's 
engineering field, I have the expertise to serve as a civil engineer 
member of the Mississippi River Commission.
    If confirmed to the position, Mr. Chairman, I would look forward to 
playing a key role in the continual improvement of the Mississippi 
River system and the MR&T project and applying the best of modern 
practices in water resources engineering. I would also look forward to 
being a member of a Commission that focuses not only on the traditional 
roles of safely passing the Mississippi River Basin floodwaters to the 
Gulf of Mexico, plus providing a safe and dependable navigable 
waterway, but also recognizes the Nation's environmental awareness and 
incorporates environmental restoration.
    Mr. Chairman, for your information, I have attached a complete 
biography on myself and a current list of members of the Mississippi 
River Commission.
    Mr. Chairman, that completes my prepared statement, and I would be 
pleased to respond to any questions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Statement of Isadore Rosenthal, Nominated to be a Member of the 
             Chemical Safety and Hazard Investigation Board
    Mr. Chairman, members of the committee, thank you for the 
opportunity and privilege to appear before you today as President 
Clinton's nominee to fill one of the remaining three positions on the 
Chemical Safety and Hazard Investigation Board. I want to thank you, 
Mr. Chairman, for scheduling this hearing on my nomination so very 
promptly.
    I have spent 38 years in the chemical industry with Rohm and Haas, 
a multinational chemical company, before I retired in 1990 and joined 
the Wharton Risk management and Decision Processes Center to do 
research on low probability--high consequence chemical process 
accidents. Both of these experiences have made me very aware of the 
risks associated with the chemical processes used by industry to 
produce the varied products that are vital to our citizens well being 
and our country's economy.
    Mr. Chairman, as you know, our fellow citizen's present serious 
concerns about potential chemical process accidents developed rather 
slowly. The catastrophic accidents at Foxborough (1974) and Seveso 
(1976), which led the European Union to enact a major process safety 
law (Seveso Directive), and even the terrible disaster in Mexico City 
(1984) did not generate widespread U.S. public concerns about major 
chemical accidents.
    This situation changed completely after the December 1984 disaster 
at Bhopal. Not only was the public's confidence in the chemical 
industry shaken; the chemical industry itself questioned whether its 
provisions for protection against major accidental releases were 
adequate. Bhopal and the subsequent disaster at the Phillips 
installation in Houston (1989) led to a series of initiatives by 
industry, labor, public interest organizations and State and Federal 
Governments. At the Federal level, these initiatives culminated in 
section 112(r) of the 1990 Clean Air act amendments which established 
the Chemical Safety and Hazard Investigation Board on which I hope to 
serve and laid the basis for the present process safety activities by 
OSHA and EPA.
    I was very aware of these developments since they all occurred over 
the last part of my career in industry, when I served as the Corporate 
Director of Safety, Health and Environmental Affairs of Rohm and Haas. 
During this period, I helped establish improved process safety programs 
within my company and worked within the Chemical Manufacturers 
Association (CMA) on industry wide initiatives such as the Community 
Awareness and Emergency Response and the Responsible Care programs.
    My activities within the company prior to 1990 and my subsequent 
research activities on major chemical accidents at Wharton also brought 
me into close contact with the excellent process safety initiatives 
carried out by labor unions such as OCAW and USWA, public interest 
groups such as the National Institute for Chemical Studies and the 
National Environmental Law Center, professional groups such as the 
Center for Chemical Process Safety of the American Institute of 
Chemical Engineers and academic institutions such as Texas A&M and MIT.
    I have had the occasion to hear the Board's Chairman, Dr. Paul 
Hill, informally discuss his vision for the Chemical Safety and Hazard 
Investigation Board. I fully agree with his emphasis on organizational 
excellence and Board actions that contribute to accident prevention. 
The Board should be judged on its contributions to measurable 
reductions in chemical process accidents, rather than the number of 
accident investigations it conducts.
    I also agree with Dr. Hill's observation that accident 
investigations per se will not lead to accident prevention unless the 
findings from an investigation are integrated with previous findings, 
translated into practical recommendations and effectively transmitted 
to the organizations and people who run our plants.
    The Board faces a great challenge in discharging even its narrow 
legally mandated responsibilities with necessarily limited resources. 
However in the course of meeting this challenge, the Board will have 
the opportunity to carry out other initiatives that do not require 
significant resources but will significantly contribute to the 
prevention of chemical process accidents.
    For example, consider the fact that the activities of the Board and 
other government agencies are only a small part of our country's 
overall efforts on chemical accident prevention. Industry, labor 
unions, public interest groups, academia, and professional societies 
must, and do play the major roles in this effort. However, I believe 
there are important voids in this overall effort. Many of these voids 
will be filled by the Board; most cannot.
    I think that the Board has the legal and moral authority to provide 
leadership for a joint effort to define these voids by all 
organizations and agencies working on any aspect of chemical process 
safety. In the process of doing this, it could also be ascertained 
whether the participating organizations have plans for filling these 
voids. Where this is not the case, and as appropriate, the Board could 
either issue recommendations on how these needs can be best be 
addressed or undertake to do some of the work itself.
    In summary, I believe that the Chemical Safety and Hazard 
Investigation Board, under Dr. Hill's leadership, has made a good start 
toward discharging its mandate. If I am confirmed, I think that my past 
experience would allow me to make a significant contribution to the 
Board's future accomplishments. I know that I would enjoy having the 
opportunity to try to do so.
    Thank you very much Mr. Chairman. I would be pleased to answer any 
questions you may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Statement of Andrea Kidd Taylor, Nominated to be a Member of the 
             Chemical Safety and Hazard Investigation Board
    Good morning. My name is Andrea Taylor. I would like to first thank 
you, Mr. Chairman and the members of the committee for allowing me the 
opportunity to speak to you regarding my nomination by President 
Clinton to fill a position on the Chemical Safety and Hazard 
Investigation Board.
    I currently work as an industrial hygienist and occupational health 
policy consultant for the International Union, United Automobile, 
Aerospace, and Agricultural Implement Workers of America (UAW). I have 
held this position in the UAW's Health and Safety Department for almost 
10 years. In this capacity, I conduct workplace health and safety 
inspections and evaluate industrial hygiene data from various UAW-
represented facilities all over the country. Requests for these 
inspections are usually made by workers who are experiencing illnesses 
and health symptoms from possible exposures to various chemical and/or 
environmental hazards on their jobs. Working with the union local and 
its company's health and safety staff, I attempt to identify the source 
of employee exposures, review the appropriate industrial hygiene data 
if available, and make recommendations on the steps that need to be 
taken to control or reduce employee exposures, thereby reducing 
employee risks, health symptoms and complaints.
    Another aspect of my job involves educating employees and employers 
regarding the health hazards associated with their jobs and many of the 
industrial processes. Training is generally conducted through many of 
our jointly funded labor-management health and safety programs. In 
addition, I edit a health and safety newsletter, which is distributed 
annually and internationally to subscribers.
    I am very excited about the possibility of becoming a member of the 
U.S. Chemical Safety and Hazard Investigation Board. The boards mission 
of investigating chemical accidents to independently identify the 
causes and make recommendations on how to improve chemical operations 
is basically a continuation of my current job responsibilities at the 
UAW. However, the impact and scope of the board is much broader. My 
hope is that the board's presence will add a new dimension to how 
chemical accidents are investigated and how recommendations are made to 
prevent such accidents from occurring in the future.
    I would like to share with you a recent incident that occurred at 
one of our UAW-represented facilities. On February 2, 1998, an 
explosion occurred at York International in York, Pennsylvania. One 
worker was killed and 15 workers and five rescuers were injured. The 
tank, one of four that were clustered together, was not in use at the 
time of the explosion. When it ruptured, the tank ripped holes in two 
of the other tanks, causing more explosions and sent the fourth tank 
soaring into the air. Part of one tank blasted through the wall of a 
building.
    Fortunately or unfortunately, the accident occurred at 11:35 p.m. 
As bad as the accident was, it would have been a lot worse had it 
happened during the day. Most of the employees at this facility work on 
the day shift. Neighboring workplaces would have been up and running 
and people would have been walking or driving on nearby streets. The 
exact cause of this accident has still not yet been determined.
    Although I was not directly involved with investigating this 
particular incident, another member from the UAW Health and Safety 
staff was involved. I have, however, been involved with investigating 
other UAW fatalities. Mr. Chairman and the committee, I want you to 
know that losing even one life to a chemical accident or any other job 
hazard can be devastating to family members, coworkers, and the 
community at-large. Identifying the root cause of such accidents is not 
always easy. That is why prevention is important and a key component of 
the board's mission, performing a vital function never before addressed 
in the Federal Government.
    I envision the board continuing to act as an independent agency in 
developing recommendations for preventing chemical accidents from the 
investigations that it conducts. I also believe the agency can, for the 
first time, produce a comprehensive accounting of the actual number of 
chemical incidents occurring in the United States today, so that safety 
efforts may be focused where the greatest problems exist. I also 
envision the board as partnering with government, labor, industry, and 
the community at-large in identifying ways for preventing future 
incidents from occurring. As a non-regulatory agency, it is essential 
that the board establishes and keeps open lines of communication with 
all of the aforementioned organizations.
    Filling the void that currently exists between government agencies, 
industry, labor and the community is a tremendous challenge for the 
board. The board's role, however, in ensuring that commercial and 
industrial chemical processes are as safe as possible provides workers 
and the surrounding community with a sense of security and confidence 
that the government cares and is responsive to their needs for a 
healthy and safe environment.
    Again, thank you for the opportunity to appear today before this 
committee. I would be pleased to address any questions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                   NOMINATION OF ROBERT W. PERCIASEPE

                              ----------                              


                       THURSDAY, OCTOBER 8, 1998


                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2 p.m. in room 
406, Senate Dirksen Building, Hon. John H. Chafee (chairman of 
the committee) presiding.
    Present: Senators Chafee, Warner, Inhofe, and Baucus.

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. This is a meeting of the Senate Committee 
on Environment and Public Works. It's a nomination hearing on 
Mr. Robert Perciasepe, who has been nominated by the President 
to be Assistant Administrator for Air and Radiation in the EPA.
    Welcome. Do you have members of your family here, Mr. 
Perciasepe?
    Mr. Perciasepe. No, Mr. Chairman, I do not.
    Senator Chafee. OK. We welcome you.
    I briefly want to discuss the process that we're going 
through here. We want to move a slate of last-minute 
nominations that have come up from the White House as quickly 
as possible. Obviously, time is running out. If all goes well 
with the hearing on Mr. Perciasepe, it would be my intention to 
have a markup after the first recorded vote following this 
hearing; in other words, I think there's going to be a recorded 
vote at about 2:30 today. If there are written questions 
submitted to you, Mr. Perciasepe, I would ask that you get them 
back immediately.
    Mr. Perciasepe has been at EPA since October 1993, when he 
assumed the position of Assistant Administrator for Water, as 
we know. Prior to serving with EPA, he was Maryland's Secretary 
of Environment. In that position he directed all aspects of 
pollution control and environmental protection in Maryland: 
air, water, management of hazardous and solid waste, control of 
sediment, erosion, storm water, and other activities such as 
that.
    He received his B.S. degree in Environmental Sciences from 
Cornell and a Master's degree in planning from the Maxwell 
School of Syracuse University. He has lectured at Johns 
Hopkins, Morgan State, and the University of Maryland.
    So, Mr. Perciasepe--I see we have been joined by the 
distinguished chairman of the subcommittee that deals with 
these matters.
    Senator Inhofe, if you have a statement, we would be 
delighted to hear it.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. I have a short statement, Mr. Chairman. I 
thank you, and I thank you for scheduling this on such short 
notice. It is my hope that we will be able to get this finished 
in this session, which is rapidly coming to a close.
    The process for this nomination has been somewhat 
contentious and confusing for everyone involved; however, this 
has not been any reflection on the man being nominated. I am 
glad that we have finally resolved the issue and suggest that 
we put all this behind us.
    I am pleased with the renomination of Robert Perciasepe to 
be the Assistant Administrator for Air. He did a great job as 
Assistant Administrator for Water, and I was very much pleased 
with his work. I had the opportunity to talk to Mr. Perciasepe 
last July on a lot of air issues; there are some areas where 
we're going to be together and some where we're going to be 
opposed, but we certainly have our dialog open, and I'm sure 
I'll be supporting his nomination.
    I appreciate your calling this hearing, Mr. Chairman.
    Senator Chafee. Thank you, Senator.
    Senator Baucus.

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Mr. Chairman, I appreciate your efforts and 
those of Senator Inhofe. Finally, we are going to get Mr. 
Perciasepe up and running at full steam, and I appreciate that 
and I know that he does. It's good for the country.
    I welcome you, Bob, to a new challenge. I know you'll do 
very well.
    I think it's important, Mr. Chairman, that we move this 
nomination very quickly in the remaining days of this Congress, 
and also that we move the other EPA nominees that this 
committee has favorably reported. Many of the nominees are 
currently in the role of Acting Assistant Administrators, and I 
believe they need to have the full advice and consent of the 
Senate in order to do their work.
    Bob Perciasepe is no stranger to this committee. I've had 
the pleasure of working with Bob over the last 5 years in his 
role as Assistant Administrator for the Office of Water at EPA. 
I will never forget the moment I first saw Bob before this 
committee, when he was working in another capacity--I think it 
was on the Chesapeake Bay in Maryland, and so forth--and I must 
say, Mr. Chairman, that I am hard pressed to name anybody else 
who has ever appeared before this committee who has been as 
impressive and knows his stuff as much as Bob did then, and 
still does now. I think he's one of the best public servants 
this country has been honored to have working for it.
    He has worked very effectively to develop some very 
important reforms in the Safe Drinking Water Act in the last 
Congress, and I think that bill is one of this committee's 
better accomplishments. Bob is a key part of our success. 
Furthermore, he has been instrumental in crafting the 
Administration's Clean Water Action Plan.
    As I said parenthetically, before coming to EPA, Bob served 
as Secretary of Environment for the State of Maryland. He was 
responsible for directing all aspects of pollution control and 
environmental protection, including water and air pollution 
control. So he certainly has the experience. As I said earlier, 
in addition to his experience, he has the competence and the 
creativity and the initiative, and that extra-special quality 
of effectiveness. He just knows how to get things done.
    On top of that, he has earned the respect not only of 
myself, not only for his integrity, but again, his commitment 
to public service. He was as determined as any of us to protect 
public health while making the process less burdensome for 
State and local governments and water suppliers. As a former 
State official, he certainly knows how important it is to get 
the job done without making it unnecessarily burdensome on the 
States.
    Really, this is a high moment for me to see Bob finally get 
the job that he deserves.
    Senator Chafee. Thank you.
    Now, Mr. Perciasepe, just before you start, before you 
gentlemen arrived I indicated that it was my intention to bring 
up this and a series of other nominations following the first 
vote, which might well be at 2:30. It would be in the 
President's Room, S-216, just off the Senate floor.
    So, Mr. Perciasepe, if you want to proceed. If you have a 
statement, go ahead. Don't make it too long, if you would, 
please, because there is this vote coming up at 2:30 which will 
require us to attend

 STATEMENT OF ROBERT W. PERCIASEPE, NOMINATED TO BE ASSISTANT 
      ADMINISTRATOR FOR THE OFFICE OF AIR AND RADIATION, 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Perciasepe. Thank you, Mr. Chairman. I would like to 
say a very few words.
    First, I appreciate the introductions, and I am happy to be 
here today, talking with all of you. And I plan to do much more 
of it than just today, and I want to make sure that you all 
know that.
    I do want to emphasize at the onset a little bit about my 
career. I know that you mentioned a couple of points on that 
already, and I just want to emphasize a few other ones.
    First and foremost is my personal commitment to public 
service. This has been my career. In the past, I have had 12 
years of experience at city government with the city of 
Baltimore, including being responsible for capital budgets and 
many other local government activities. You also mentioned my 
State service for Maryland and, obviously, my EPA service to 
date. The emphasis in my career has been on public service, and 
the emphasis has been on working with other people and that is 
something that is very important to me and I will continue with 
that in this job if you approve.
    You all know that my style is to recognize the importance 
of inclusive processes, bringing people together to resolve 
differences, both in the legislative arena as well as the 
regulatory arena. I am very anxious to continue that process in 
this new role.
    Senator Baucus, you mentioned the Safe Drinking Water Act. 
I, too, view that as very successful work that we have done 
together in this committee, and everybody here worked on that. 
That's the kind of successful problem solving and work that I 
hope we can continue to do. I view building bridges and working 
together as an important part of the process.
    When I look at the Air and Radiation job, I have just a 
couple of quick opening thoughts about areas of emphasis, and 
then perhaps we can have some time for questions and answers.
    I view one of the most important things that I can bring to 
this job over the next several years is to help set the country 
up for success with implementation of Clean Air programs. There 
are many implementation issues in the Clean Air Act and for our 
new public health clean air goals that require constant 
diligence in working with the States, developing sound science, 
developing the technical tools that we need to get the work 
done, working with environmental, public interest, and business 
groups and working with Congress. One of my highest priorities 
is going to be assuring that we're setting a course for the 
country that will assure continued success in air quality and 
pollution control for its citizens.
    Another thing that has been a hallmark of my efforts has 
been promoting common-sense regulation, and I intend to bring 
that kind of experience and orientation to the clean air 
program. These efforts are likely to include things such as 
flexibility in rules, market-based approaches, and working with 
State and local governments to enhance successful local 
decisionmaking.
    I know that climate change will be an issue, and I want to 
make sure that you all know that I am not, in any way, shape, 
or form, going to be implementing the Kyoto Protocol before it 
is ratified by the Senate. I will continue common-sense 
discussions with industry and others about making sure that our 
regulations do not go in the wrong direction, and that we 
continue energy and cost saving actions that we've been working 
on to achieve broader climate protection objectives.
    I want you also to know that I take very seriously the 
Government Performance and Results Act. I view management as 
one of my strengths. This is something that I have enjoyed 
doing for many, many years, going back to my city experience in 
budgeting, and I plan to bring that expertise to this job, 
including working on the Government Performance and Results Act 
and setting up measurable objectives.
    Radiation and Indoor Air is also part of my portfolio, and 
whether it be asthma or radon or working on protective 
standards for Yucca Mountain, I plan to put energy into these 
efforts to keep them moving forward.
    Let me just say in closing--and I'm trying to be very 
brief, I am sure you know there is a long list of issues for us 
to discuss and not enough time to cover them all. But I do have 
a few thoughts on the Clean Air Act. I have spoken to Senator 
Inhofe about his interest in looking at the Clean Air Act over 
the next year or beginning in the next Congress, and I want to 
say that we're ready and willing to work with the committee to 
discuss how we can make improvements to and strengthen of the 
Clean Air Act. We will be ready and prepared, and I will 
personally work with the committee and the subcommittee on 
those issues as they come up.
    So I think I'll just stop there and we'll do some questions 
and answers.
    Senator Chafee. All right, Mr. Perciasepe.
    Now, are you willing, at the request of any duly-
constituted committee of the Congress, to appear in front of it 
as a witness?
    Mr. Perciasepe. Yes, Mr. Chairman.
    Senator Chafee. And do you know of any matters which you 
may or may not have thus far disclosed which might place you in 
any conflict of interest if you are confirmed in this position?
    Mr. Perciasepe. No, I do not.
    Senator Chafee. I just want to say this, Mr. Perciasepe. 
We've worked with you on the clean water matters and on the 
safe drinking water, and that's been a cooperative and 
successful undertaking. It seems to me that--I would hope that, 
working in the clean air area, that you would come to this 
committee when you believe you are working with laws that are 
inflexible and should be modified. In other words, we're not in 
an adversarial position here; we're here to help you and help 
make these programs succeed. One of the things that comes to 
mind are these so-called problems that come up with 
nonattainment areas that fail to meet the 1-hour ozone 
standard, whether they should be bumped up to the 8-hour 
standard. Those are matters where, if the law doesn't make 
sense, then I would hope you would come and tell us about them.
    Senator Baucus.
    Senator Baucus. Mr. Chairman, I think that's a very good 
point.
    I urge you to work diligently in that area. When you see 
something is not working--I know that you have to clear matters 
through the executive process, but I would urge you to work 
through that process vigorously. Address problems sooner rather 
than later because it's going to be a lot worse than it is now. 
So I urge you to work very hard at that.
    Second, I agree with your statement that you will not do 
anything to implement the Climate Change Treaty because, after 
all, the Senate hasn't endorsed it. But on the other hand, I do 
think it makes sense to take common-sense actions, as you 
indicated. For example, as you may know, there's an 
organization--I think it's called the ``Pew Group,'' a group of 
U.S. companies, Enron----
    Senator Chafee. BP?
    Senator Baucus [continuing]. BP might be in there too, I 
guess that it is, who by and large recognize that the climate 
is changing; they say this publicly; and recognizing that human 
beings are causing a part of the climate change, and they 
themselves are taking it upon themselves to do what they can 
reasonably, together, to reduce emissions of greenhouse gasses. 
On their own, they're already doing some things. I think that's 
very constructive and I take my hat off to them for that.
    The treaty has not been agreed to. There is a huge problem 
that developing countries aren't pulling their fair share; 
that's something that we'll have to work out in some other 
forum, some other way, but in the meantime I do think it does 
make sense to use common sense, but without going ahead and 
implementing provisions.
    Mr. Perciasepe. Again, I would concur, and I have already, 
in the short time I have been working on air issues at EPA, 
been having discussions with business and industry groups, and 
particularly utilities, about what their plans are and how we 
can work together on common-sense measures to meet broad 
climate protection objectives. So I would assure you, Senator, 
that I'm going to pay attention to it; climate concerns come 
into our discussions quite often and I won't deter from 
thinking about those common-sense measures that we as a Nation 
should be doing.
    Senator Chafee. Senator Inhofe.
    Senator Inhofe. This is going to be going down as the 
quickest hearing we've had, I guess, on confirmations.
    Mr. Perciasepe, in Tuesday's hearing on acid rain we 
announced that we're going to be asking the GAO to do a study 
on the cumulative effect of the various air issues, where you 
have the PM, the ozone, the NO<INF>x</INF>, and all the rest of 
them, and I would ask you if you would be cooperative and do 
all that you can to supply them with the data to try to assist 
them in this effort.
    Mr. Perciasepe. Yes, we certainly would want to work with 
the General Accounting Office. Actually, the Clean Air Act 
Amendments of 1990 also asked EPA to look retrospectively at 
costs and benefits, back to 1970, which we have done, and we 
are now in the process of looking prospectively from 1990 out 
into the future. So there would be a dovetailing----
    Senator Inhofe. It could be a cooperative----
    Mr. Perciasepe. We're working on the cumulative impacts of 
the Clean Air Act, and if GAO, at the request of Congress, 
starts to look at that as well, we would definitely work with 
them.
    Senator Inhofe. Now, in the area of international 
pollution--you and I have talked about this, in Texas and 
Oklahoma in particular because of last May and the fires that 
were coming up--I know that the EPA received information from 
the State of Oklahoma, Department of Environmental Quality, 
back in June, and they're still waiting for a response. I would 
like to ask if you could participate in trying to get these 
responses out a little quicker than they have been in the past.
    Mr. Perciasepe. Yes. As you mentioned, we did talk about 
this before. I have shared with your staff the general policy 
that we have developed, and we are going to provide the 
appropriate discounting of those events.
    We have been working with NASA also to get the satellite 
imagery for that time period. We are just about done with that 
analysis, and we plan to share it with the States and start 
working with the individual States on specific issues. So I 
will continue to stay on top of that and work with Oklahoma.
    Senator Inhofe. That would be really helpful. I'm not 
saying it in a critical way, except that it seems to me that it 
could have been done a little quicker.
    And last, when I talked at the Annapolis Center you were 
the speaker right after me, and I announced on the clean air 
reauthorization that I was going to try to do this over a 
relatively short period of time compared to what it was before. 
But there are certain reasons why it should be a shorter period 
of time. Even though it would be the next Administration when 
we actually drafted the legislation, I would ask you, do you 
think our timeline is realistic? And could you work in 
cooperation with us in meeting that timeline?
    Mr. Perciasepe. Well, if you have hearings in the next 
Congress, as I said in my opening statement, we are anxious to 
work with the Congress.
    I remember--and I did catch your discussion that day; if I 
remember, you were talking about 4 years?
    Senator Inhofe. Yes.
    Mr. Perciasepe. If you can build a consensus about how the 
act needs to be improved and strengthened in the appropriate 
areas, with all the different stakeholders, and have an 
inclusive process--and we are out there working with you on 
it--it's conceivable that two Congresses from now, something 
could be done. But it will require a lot of work, and we're 
prepared to work with you in the next Congress as you start 
looking into the specific issues.
    Senator Inhofe. I thank you very much. Just to restate what 
I said in my opening statement, the problem we had with your 
nomination had nothing to do with you; it was a process and a 
precedent that I felt needed to be changed. I appreciate your 
help and the attitude you had during the course of that time. I 
look forward to supporting you.
    Mr. Perciasepe. Thank you.
    Senator Warner. Mr. Chairman.
    Senator Chafee. Yes.
    Senator Warner. If I may just briefly add my indication of 
strong support for the nominee in the position to which the 
President has nominated him. I first gained knowledge of the 
nominee way back when Senator Mathias and I did the landmark 
legislation on Chesapeake Bay, and you've been an instrumental 
part of making that program achieve, I think, a modest success 
thus far, although much remains to be done. You bring to this 
position credentials which reflect a lot of experience in the 
areas over which you will hopefully soon be confirmed and have 
the responsibility. I wish you luck.
    Mr. Perciasepe. Thank you, Senator.
    Senator Chafee. Well, this has been a lovefest, and a swift 
one at that.
    Senator Baucus. Mr. Chairman, I move that we favorably 
report the nominee.
    Senator Inhofe. I'll second that.
    Senator Warner. I'll second.
    Senator Chafee. Well, that's splendid. I'll tell you what, 
we really don't have enough members here, and we're going to be 
meeting at 2:30--Senator Warner, would you note this, please, 
that there's going to be a vote somewhere in the neighborhood 
of 2:30, but whenever the Senate vote is, following that, we 
shall meet in the President's Room. There is a series of 
nominations--not just this one of Mr. Perciasepe, but others. 
Certainly, I would like a good, swift attendance, and then we 
can get our work done.
    Senator Baucus. Mr. Chairman, this could well be our last 
hearing this year, this session, this Congress. I know I speak 
for all----
    Senator Chafee. Is that right? Well, I guess you're right. 
We don't have anything else scheduled.
    Senator Baucus. Well, I just want to say to you, speaking 
on behalf of all the members of this committee, that we 
appreciate the job you have done as Chairman.
    Senator Chafee. Aren't you nice? Thank you. Likewise, I 
appreciate the job you've done, as well.
    Senator Baucus. I only regret that Senator Kempthorne is 
not here on this final day, because it would otherwise be his 
last day.
    Senator Chafee. Well, I had a chance to say farewell to 
Senator Kempthorne. He presided earlier this morning, at 9:30, 
on a hearing dealing with the Snake and Columbia Rivers, and I 
was able to thank him for his work. We're going to miss him. 
He's done yeoman work.
    And indeed, Mr. Perciasepe, when you were talking about 
working on the Safe Drinking Water Act, I immediately was 
reminded of the work that Senator Kempthorne did there.
    So thank you, Senator Baucus, for your kind comments, and 
the meeting is adjourned.
    [Whereupon, at 2:25 p.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
     Statement of Robert W. Perciasepe, Nominated to be Assistant 
   Administrator for the Office of Air and Radiation, Environmental 
                           Protection Agency
    Thank you, Mr. Chairman. I would like to say a very few words.
    First, I appreciate the introductions, and I am happy to be here 
today, talking with all of you. And I plan to do much more of it than 
just today, and I want to make sure that you all know that.
    I do want to emphasize at the onset a little bit about my career. I 
know that you mentioned a couple of points on that already, and I just 
want to emphasize a few other ones.
    First and foremost is my personal commitment to public service. 
This has been my career. I have worked at city government, which is 
going a little bit further back, but I have 12 years' experience at 
city government, including doing capital budgets and many other local 
government activities. And then you mentioned my State service and, 
obviously, my EPA service to date. The emphasis on public service, the 
emphasis on working with other people is something that is very 
important to me and I will continue that in this job if you approve.
    Recently, you all know that my style is to understand the 
importance of inclusive processes, bringing people together to resolve 
differences, both in the legislative arena as well as the regulatory 
arena. I am very anxious to continue that process in this new role.
    Senator Baucus, you mentioned the Safe Drinking Water Act.
    I, too, view that as a very successful work that we have done 
together in this committee, and everybody here worked on that. That's 
the kind of work that I hope we can continue to do.
    I very much view building bridges and working together as part of 
the process.
    As far as the Air and Radiation job, I'd like to say just a couple 
of quick opening thoughts about areas of emphasis, and then perhaps we 
can do some questions and answers.
    I view one of the most important things that I can bring to this 
job over the next several years as to set up success for 
implementation. There are many implementation issues in the Clean Air 
Act and for our clean air goals that require constant diligence in 
working with States, developing sound science, developing the technical 
tools that we need to get the work done, working with stakeholders and 
working with Congress. One of my highest priorities is going to be 
assuring that we're setting the country up for continued success in air 
quality and pollution control.
    Another thing that has been a hallmark of my efforts has been 
promoting common-sense regulation, and I intend to bring that kind of 
experience and objective to the clean air program, or my time at the 
clean air program, including things like flexibility in rules, market-
based approaches, and working with State and local governments to 
develop local decisionmaking.
    I know that climate change will be an issue, and I want to make 
sure that you all know that I am not, in any way, shape, or form, going 
to be implementing the Kyoto Protocol before it is ratified by the 
Congress and by the Senate, and I want to make sure you know that. I 
will continue common-sense discussions with industry and others about 
making sure that we don't make regulations that go in the wrong 
direction, or that we continue cost savings and appropriate actions 
that we've been working on in terms of energy.
    I want you also to know that I take very seriously the Government 
Performance and Results Act. I view management as one of my strong 
suits. This is something that I have been doing for many, many years, 
going back to my city experience in budgeting, and I plan to bring that 
attitude to this job, including working on the Government Performance 
and Results Act and setting up measurable objectives.
    There is also Radiation and Indoor Air as part of the portfolio, 
and whether it be asthma or radon or working on Yucca Mountain, I plan 
to put a lot of energy into these things to keep them moving forward as 
the country needs them to move forward.
    Let me just say in closing--and I'm trying to be very quick here, 
because you know it's a long list--Senator Inhofe and I have talked 
about this. I want to look at the Clean Air Act over the next year or 
beginning in the next Congress, and I want to say that we're ready and 
willing to work with you on looking at how we can make improvements and 
strengthenings of the Clean Air Act. We will be ready and prepared, and 
I will personally work with the committee and the subcommittee on those 
issues as they come up.
  Responses by Robert Perciasepe to Additional Questions from Senator 
                                 Inhofe
    Question 1. What are the top three priority areas under the Clean 
Air Act that you plan to work on in the next year?
    Answer. As the Assistant Administrator for the Office of Air and 
Radiation (OAR), my priority goals for he next few years can be 
described in the following four broad categories:
    (A) To pave the way for successful implementation of the new NAAQS. 
In order to realize the expected health benefits from these standards, 
they need to be implemented efficiently and effectively. This process 
must seek input from industry, governors, mayors, and the public health 
and environmental community. This means improving processes such as 
Title V and new source review (NSR) so they can world as expected and 
it means providing guidance and technical assistance and support to 
States so everyone is working together to the same end. It also means 
providing certainty to industry so they can plan and prepare for 
compliance. We are also continuing to use flexibility and cost-
effective measures so that these new standards can provide public 
health benefits at the least cost. This task will require a great deal 
of communication and coordination between all levels of government, 
industry, and other stakeholders.
    (B) To set new Tier II mobile source emission standards that will 
continue progress. We reported in the Tier II Report to Congress that 
we submitted in July, 1998 that new Tier II emission standards are both 
necessary and feasible. Because vehicle miles traveled and light duty 
truck sales are going up and the price of gasoline is at an all-time 
low, the progress we've made in the last 70 years in reducing tail-pipe 
emissions will erode unless we set standards that can take us into the 
next two decades. In this way, we can work to ensure that mobile 
sources continue to provide some of the technological solutions to our 
air pollution problems. We also need to reduce the sulfur levels in 
gasoline so that catalytic converters and new engine technologies can 
perform optimally.
    (C) To set in motion a program to reduce air toxics in urban areas. 
Since the 1990 CAAA, are have made tremendous progress reducing toxic 
air pollutants under the MACT program. As required by the Act, now it 
is time to assess the residual risks that may still remain. Also as 
required by the Act, we are to assess urban air toxics because it is in 
urban areas where many sources of toxic air pollution are located and 
where many people live. Under the urban air toxics program we are 
planning to assess the type and amount of toxic pollutants people are 
being exposed to and to prepare the appropriate response, which might 
include a national maximum achievable control technology (MACT) 
standard, local controls, or exposure reduction, depending on the 
findings.
    (D) To continue progress both nationally and internationally on 
making the Kyoto Protocol acceptable for ratification. We have had 
tremendous success bringing energy-efficient technologies to the market 
under our Energy Star and Greenlights partnership programs. However, we 
also realize that energy-efficient technologies will not be sufficient 
on their own. Therefore, we have been advocating and discussing with 
developing nations and others the concept of an emissions trading 
program to achieve the emission reductions in a cost-effective manner. 
This will require working closely with Congress on concepts such as 
early credits for action.

    Question 2. As you know, we plan to move forward with Clean Air Act 
Reauthorization in the next Congress. Which aspects of the current law 
do you believe need to be addressed legislatively?
    Answer. I understand that you we interested in holding hearings 
next year to examine the Clean Air Act. I believe it would be useful 
for the hearings to examine the current implementation of the Act to 
determine whether the various programs are working well and to explore 
whether programs could be improved. As you know, the Office of Air and 
Radiation has worked very hard within the bounds of the current statute 
to craft creative regulatory solutions to the inevitable problems that 
surface during the course of implementation. I believe that we should 
continue to explore regulatory solutions as much as possible before 
deciding whether or which statutory changes are necessary. I think the 
coming hearings will be one excellent forum for airing these issues, 
and I look forward to working on them with you and your staff.

    Question 3. In your brief tenure, how would you describe the 
interactions and relations between the Regional Offices and the Air 
program in Headquarters and Research Triangle Park? What areas need 
improvement and how do they compare to the Water Office in general?
    Answer. In general, I believe that the relations between 
headquarters and the Regional Offices in the air program are good. 
There is, of course, an inherent tension in our relations with the 
Regions. This is the tension between the need for national consistency 
on the one hand and the need for flexibility and local solution, on the 
other. I believe that the Air programs have a strong Regional 
management process which deals well with this inherent tension. Each 
year the Air Office provides the Regional Offices with guidance on 
national priorities. Each Region then develops a Memorandum of 
Agreement with us that represents a balancing of those national 
priorities with specific Regional needs. Out of this process we have 
been able to develop creative solutions to problems across the Nation.
    I would also like to note that the Air Office has made a strong 
commitment to the Government Performance and Results Act (GPRA) 
process. For some two years now this office has been negotiating 
outputs and measures with the Regions and States. As result of the 
investment of time we've made the State Commissioners are comfortable 
with the measures we're adopting.
    I recently met with all of the Regional Air Division Directors and 
believe that they are strong team. From my experience in the Water 
Office, I have instituted weekly conference calls with the Directors to 
ensure that they understand national priorities and needs, and that I, 
in turn, understand local concerns and priorities. I am also 
considering establishing a ``coordinating committee'' between the 
national, regional, tribal, and State programs that would meet 
regularly to improve coordination on program management.

    Question 4. In your brief tenure, how would you describe the 
interactions and coordinations between the Air Office and OECA?. What 
areas need improvement and how do they compare to your experience as 
the Assistant Administrator for Water? How do you see OECA working with 
your department to ensure greater compliance by moving the emphasis to 
compliance as opposed to enforcement?
    Answer. During my tenures in both the Office of Air and Radiation 
(OAR) and the Office of Water (OW), I have found that it is important 
to develop effective teamwork between the program office and the Office 
of Enforcement and Compliance Assurance (OECA). The teamwork is 
necessary as regulations me developed to ensure that they are 
enforceable. Teamwork is also important to ensure that enforcement and 
compliance activities are consistent with the policies of OAR.
    During my tenure as Assistant Administrator for Water, I tried to 
build an effective working relationships with OECA on a number of 
projects For example, we worked to ensure that the release of OECA's 
animal feeding operations (ASO) guidance was coordinated with the 
release of the USDA's/EPA's ASO Strategy. I also established a 
mechanism that required regular meetings and discussions to ensure 
better communication and coordination,
    During my brief tenure as Assistant Administrator for Air and 
Radiation, I have already seen that OAR and OECA can have a very close 
and effective working relationship, as shown by their excellent work in 
the heavy duty diesel engine enforcement action. In addition to levying 
a fine appropriate to the seriousness of this violation the team's 
efforts resulted in a settlement that is fair to all parties and keeps 
the focus on protecting the environment, rather then strictly on the 
penalty.
    I am committed to become personally involved in fostering teamwork 
between OECA and OAR, particularly on permitting and new source review 
matters. Achieving our air quality goals requires effective enforcement 
and implementation, but it is important that we also provide sufficient 
flexibility to enable industry to compete in a global setting. Making 
rules enforceable and flexible is one of our most important challenges.
    I am particularly concerned that we design our rules to minimize 
impacts on small businesses, and that we do everything we can to assist 
small businesses in understanding and complying with our rules. OECA 
has made great strides in these areas, and my goal is to see that kind 
of progress continues. I am convinced that as we are move in this 
direction, compliance will be the norm and the need for enforcement 
action will be greatly reduced.

    Question 5. Since 1992, the air permits rule to define minimum 
requirements for approval of State Title V programs has been the 
subject of much controversy, including lawsuits. Specifically the 
provisions governing the procedures sources and States had to follow 
when revising a Title V permit. I understand that EPA has been meeting 
with the stakeholders to debate issues surrounding the permit revision 
process in an attempt to meet the needs of all parties. It is my 
understanding that when the States, industry, and EPA's Air Office find 
common ground, the Office of Enforcement and OGC insist on placing 
additional procedural requirements, with limited environmental benefit, 
to the rule. Having the background in the water permit program, how do 
you plan to resolve the air permitting issues so that all stakeholders 
can maintain common ground and the Agency can move toward implementing 
a reasonable program without wasting additional valuable resources?
    Answer. Recently, I received my first detailed briefings on the 
Title V air permitting program, and believe that I need several more 
intensive briefings before we reach the point of having regulatory 
improvements I am comfortable putting forward. These additional 
briefings are necessary for me to understand the issues more 
thoroughly, as well as the history behind decisions that have been made 
to date. States, industry officials, and environmental groups have 
expressed a number of concerns which EPA needs to explore further 
before finalizing the Title V permit revisions regulation. The Title V 
issues are very challenging and warrant further consideration since a 
viable permit program is critical to implementing and ensuring 
compliance of the requirements of the Clean Air Act and protecting 
human health and the environment. Balanced against these benefits is 
the potential burden to industries that require operating flexibility 
and a streamlined process to compete in a global economy. EPA is 
striving to design a permit program that strikes the balance between 
these objectives and which avoids saddling industries with unnecessary 
red tape when making a change or addition at a facility. I intend to 
spend a lot of time over the next few months in order to give the Title 
V issue the time and effort that it demands.

    Question 6. Regarding NAAQS, EPA should coordinate the effort to 
regulate emissions contributing to regional haze with the ongoing 
implementation of the Clean Air Act and the NAAQS implementation 
schedule set forth by President Clinton. How do you intend to assure 
this coordinated implementation in a cost-effective and flexible manner 
for both the State regulators and the regulated community?
    Answer. We agree that every effort should be made to ensure that 
regional haze requirements are well coordinated with efforts to 
implement the new PM-fine and ozone national ambient air quality 
standards (NAAQS). The final rule for regional haze will incorporate 
the revised deadlines contained in the Transportation Equity Act for 
the 21st Century (TEA-21). By clearly establishing schedules for 
submission of State implementation plans (SIP) for regional haze which 
are dependent on the schedules for attainment and nonattainment 
designations for the PM-fine NAAQS, TEA-21 supports EPA's goal of 
ensuring the programs are well coordinated. In addition, we intend to 
implement the regional haze rule and PM-fine standards in ways that 
foster and encourage coordinated regional planning efforts. We believe 
that any control strategy decisions arising from these efforts need to 
be responsive to both sets of requirements, thereby avoiding redundancy 
and conflicts. The Grand Canyon Commission's efforts, and the follow-on 
work by the Western Regional Air Partnerships are good examples of 
State regulators and stakeholders working together to seek flexible, 
cost-effective solutions. We intend to continue to encourage these 
efforts to provide guidance and assistance as these regional efforts 
proceed.

    Question 7. Considering that the court action on ETS was highly 
critical of the EPA for forcing science to fit the justification for 
regulatory action, how do you plan to ensure that good science is used 
and the results of good science are used to prevent unjustified 
regulations from being promulgated?
    Answer. I believe EPA regulations and non-regulatory activities 
need to be based on sound science, and I am committed to continue to 
make sure the best research is behind our problematic decisions and 
policies. The Agency recently reinforced it's policy that ``all major 
scientifically and technically based work products related to Agency 
decisions normally should be peer-renewed'' by publishing the Science 
Policy Council Peer Review Handbook in January 1998. Regarding the 
court action on environmental tobacco smoke (ETS), I stand behind the 
science we used in developing our risk assessment--a report which was 
endorsed by the independent Science Advisory Board of the EPA.
    It should be noted that EPA has no regulatory authority over ETS. 
Restricting smoking in public places is primarily a State and local 
issue, and is typically addressed in clean indoor air laws enacted by 
States, counties and municipalities. Our ETS-related work involves the 
dissemination of information to the public regarding the risks from ETS 
and we have published recommendations to help people take actions to 
prevent involuntary expose to secondhand smoke.
    I also refer you to the statement regarding this matter issued by 
Administrator Browner on September 15, when she said, ``It is a widely 
accepted scientific fact that second-hand tobacco smoke poses 
significant risks to public health. The court's decision was based on 
procedural concerns regarding technical aspects of EPA's study. In the 
appeal, EPA will defend its scientific review process, which is widely 
recognized as thorough, factual and fairs The 1993 risk study was 
reviewed and approved by 18 independent, leading scientists in the 
field.''
    Additionally, it is important to note that Americans concerned 
about their health and the health of their children should continue to 
avoid exposure to second-hand smoke. The court's decision last July did 
not challenge EPA's findings that the adverse health effects are real 
and significant for children. Since EPA's 1993 risk study, several 
health studies have confirmed the serious risks posed by second-hand 
smoke, including a study conducted by the California Environmental 
Protection Agency released last year.
    We look forward to the appellate court's review of this matter and 
to a decision that is in the best interest of protecting public health 
and the environment.

    Question 8. Since 1970, the Clean Air Act has been the exclusive 
Federal statutory and regulatory framework for controlling and managing 
air emissions. Recent development in the Clean Water Act's program on 
total maximum daily loads raises the prospect that those authorities 
may be used to leverage additional controls on air emissions to deal 
with air deposition. Do you believe there is any basis under the Clean 
Water Act to control pollutants released into the air as opposed to 
directly into the water?
    Answer. There is growing evidence that air deposition is a 
significant source of water pollution to some waterbodies. Recent 
reports by States indicate that atmospheric deposition is the leading 
source of pollutants to impaired Great Lakes waters and the third 
leading source of pollutants to impaired lakes. In response to this 
evidence, EPA is working to better understand the relationship between 
air and water pollution and is evaluating approaches to better defining 
linkages between impaired waters and emissions of air pollutants.
    EPA recently formed an advisory committee under the Federal 
Advisory Committee Act to review the efforts by EPA and States to 
implement the Total Maximum Daily Load (TMDL) program under section 
303(d) of the Clean Water Act. The Committee was made up of over 20 
members representing diverse groups and organizations including States, 
industry, municipalities, local government, environmental organizations 
and others. The Committee recently released a major, consensus report 
making recommendations for improvements to the (TMDL) program. The 
Committee recommended that EPA continue research into the causes and 
impairment of waters due to atmospheric deposition. EPA is developing 
revisions to existing TMDL relations based on the FACA report and 
expects to publish proposed regulations in May of 1999.
    Under EPA'S current TMDL policies, States develop TMDLs for 
impaired waters that define pollutant reductions needed to meet water 
quantity standards and allocate load reduction responsibility among 
pollution sources. Often these sources discharge to water and load 
reductions for these sources are enforceable under conditions of Clean 
Water Act permits Other sources that do not have Clean Water Act 
permits may be allocated pollutant reduction responsibility where there 
is a ``reasonable assurance'' that the reduction will be accomplished. 
These allocations to other sources reduce the pollution reduction 
burden on point sources. If the connection between an emission of 
pollutants to the air and the impairment of a waterbody were 
established and there was a ``reasonable assurance,'' that a reduction 
would be implemented (e.g., under authority of a law other than the 
Clean Water Act such as the Clean Air Act, a State air law, or other 
air related authority), a State TMDL would have the option of 
allocating load reduction responsibility to an air source.

    Question 9. If this committee undertakes reauthorization of the 
Clean Water Act in the 106th Congress, can you assure this committee 
that EPA will not be seeking Clean Water Act authorities to address air 
deposition and in turn air releases from given sources?
    Answer. The Agency continues to study the phenomenon of air 
deposition, and it is too early even to speculate on what measures 
might eventually prove fruitful in addressing it. I can, however, state 
that we intend to work closely with the Congress in thinking about this 
issue, and that any measures we might propose would be based solidly on 
sound science, cost-effectiveness, and demonstrated concerns about 
public health and the environment.

    Question 10. I know you will be coming out with the new Tier II 
Auto standards soon and it will include a decision on sulfur in 
gasoline. We have already discussed this and I am reiterating my 
concerns about the effects this will have on the refinery industry, 
particularly the smaller refiners. I am raising this now because this 
Administration and previous ones as well, have not had a well thought-
out energy policy. While this has typically been a Department of Energy 
issue, regulations from the EPA, and in particular the Air Office, have 
been increasing in recent years and have been having a greater impact 
on our energy sources. What do you think your role, and the role of 
your Office is, regarding our nations energy policy? Have you had any 
discussions ninth the Department of Energy on your role and the impact 
of the Clean Air Act on a national policy?
    Answer. I believe first and foremost that the role of the Office of 
Air and Radiation, and my role as Assistant Administrator, is to 
fulfill the statutory direction of Congress and the executive direction 
of the President. Given that the Clean Air Act is our main statutory 
mandate, we need to ensure that we solicit DOE comment on the energy 
policy implications of our proposed regulations and to reflect those 
comments in a manner consistent with the strategic direction set by the 
Administration and the Congress. I strongly believe that our goal 
should be to carry out our environmental statutory responsibilities in 
a way that will allow our country to simultaneously promote our 
environmental, energy, and economic goals. I have not yet had the 
opportunity to specifically discuss this issue personally with my 
colleagues at the Department of Energy but I plan to do that soon. I 
believe that coordination between agencies is important and I will work 
hard to foster that coordination.

                                   - 

</pre></body></html>
